<html>
<title> - ASSESSING THE SAFETY AND SECURITY OF PEACE CORPS VOLUNTEERS</title>
<body><pre>[Senate Hearing 108-725]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-725

                   ASSESSING THE SAFETY AND SECURITY
                       OF PEACE CORPS VOLUNTEERS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED EIGHTH CONGRESS



                             SECOND SESSION



                               __________

                             JUNE 22, 2004

                               __________



       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE
97-289 PDF                WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN D. CHAFEE, Rhode Island      PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Ford, Jess, Director, International Affairs and Trade, U.S. 
  General Accounting Office, Washington, D.C.....................    36
    Prepared statement...........................................    38
Maloy, Gladys, Former Peace Corps Romania Volunteer, Washington, 
  D.C............................................................    66
    Prepared statement...........................................    67
Quigley, Kevin F.F., President, The National Peace Corps 
  Association, Washington, D.C...................................    46
    Prepared statement...........................................    48
Threlkeld, Cynthia, Country Director (Guatemala), Peace Corps, 
  Washington, D.C................................................    59
    Prepared statement...........................................    61
Vasquez, Gaddi, Director, Peace Corps, Washington, D.C...........     2
    Prepared statement...........................................     5

                                 (iii)

  

 
                   ASSESSING THE SAFETY AND SECURITY
                       OF PEACE CORPS VOLUNTEERS

                              ----------                              


                         Tuesday, June 22, 2004

                              United States Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met at 9:34 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Norm Coleman, presiding.
    Present: Senators Coleman, Voinovich, and Dodd.

            OPENING STATEMENT OF HON. NORM COLEMAN,
                  U.S. SENATOR FROM MINNESOTA

    Senator Coleman.  This hearing of the Senate Foreign 
Relations Committee will come to order.
    Today's hearing will examine the safety of Americans 
serving overseas as Peace Corps volunteers.
    Let me state from the outset I believe the Peace Corps is 
American diplomacy at its best. In a world where America is too 
often misunderstood, the Peace Corps represents an opportunity 
to show the compassionate nature of this country and its 
citizens. Now, more than ever, we need the Peace Corps to 
continue fostering international goodwill at the grassroots 
level.
    That is why I am proud to support the President's 
initiative to double the size of the Peace Corps and will 
continue to press for adequate funding to do so.
    Unfortunately, we have seen again in recent weeks the 
desire of some people to harm Americans. The world is a vastly 
different place than it was in 1961 when President Kennedy 
founded the Peace Corps. Americans abroad face different 
security risks today than they did 43 years ago.
    Director Vasquez has told the committee that the safety and 
security of Peace Corps volunteers is his number one priority, 
and I applaud that focus. Under his leadership, the Peace Corps 
has established an Office of Safety and Security, including 
field-based safety and security officers and a compliance 
officer to ensure adherence to safety measures.
    This hearing is designed to examine the effectiveness of 
recent initiatives to improve volunteer safety and to consider 
proposals to further protect Peace Corps volunteers. In 
particular, I have asked witnesses to discuss the frequency of 
site visits by country directors, oversight of volunteer living 
quarters, and the availability of self-defense and other safety 
training. I am interested to know if there are better ways to 
employ technology such as cell phones and satellite phones to 
keep volunteers safe and deal with incidents once they occur. I 
also want to hear about the specific threats which single 
female volunteers face.
    I would like to emphasize the active involvement of my 
colleagues from Ohio, Senator Voinovich and Senator DeWine, on 
the issue of Peace Corps volunteer safety and security. Both 
Senators have been diligently working on this issue, and I 
would note that Senator DeWine has introduced legislation to 
this end. I deeply appreciate the interest of my colleagues in 
the Peace Corps, and I do anticipate that Senator Voinovich 
will be able to be with us later this morning.
    The committee will hear this morning from five outstanding 
witnesses. We will begin with the Peace Corps Director, Gaddi 
Vasquez. Director Vasquez brings a public service background to 
his position as Director, and his law enforcement experience 
informs his work on volunteer safety issues.
    Director Vasquez will be followed by Jess Ford, Director of 
International Affairs and Trade at the General Accounting 
Office, who will provide us with an update of GAO's 
investigation of volunteer safety.
    We will have three witnesses on our third panel.
    First will be Kevin Quigley, President of the National 
Peace Corps Association and a former volunteer in Thailand in 
the 1970s. Mr. Quigley's organization represents some 30,000 
returned Peace Corps volunteers.
    Second we will hear from Cynthia Threlkeld, a Peace Corps 
country director serving in Guatemala, who can discuss the 
current state of volunteer safety and the role of the country 
director. Ms. Threlkeld, I might add, is a graduate of St. 
Thomas University in St. Paul, Minnesota and is a former 
director of the Minnesota International Center. We in Minnesota 
are very proud of Ms. Threlkeld and the thousands of other 
Peace Corps volunteers who have come out of our State.
    Third we will hear from Gladys Maloy, a former Peace Corps 
volunteer who served just a few years ago in Romania. I am 
particularly glad to have Ms. Maloy here because she is an 
example of a volunteer who brought more years of experience to 
the field than the typical college graduate. Ms. Maloy is 
living proof of the benefits of diversifying the Peace Corps 
volunteer base to better reflect the face of America.
    And now we will turn to Director Vasquez for his opening 
statement.

STATEMENT OF GADDI VASQUEZ, DIRECTOR, PEACE CORPS, WASHINGTON, 
                              D.C.

    Mr. Vasquez.  Thank you, Mr. Chairman. I request that my 
full written statement be entered into the record.
    Senator Coleman.  Without objection.
    Mr. Vasquez.  Mr. Chairman and members of the committee, I 
am pleased to appear before your committee today, and I 
appreciate the opportunity to present an overview of the 
current state of the Peace Corps and the many accomplishments 
that we as an agency have achieved since my arrival in February 
of 2002. Mr. Chairman, I also appreciate the ongoing support 
that you and this committee have shown for the Peace Corps.
    While I understand the purpose of today's hearing is to 
discuss the safety and security framework that has been 
designed to protect Peace Corps volunteers, let me begin with 
some general comments about the Peace Corps and our goals.
    More than 171,000 Americans have served as Peace Corps 
volunteers since 1961. These volunteers have helped dispel 
misconceptions about Americans, assisted in fostering positive 
relationships with host country nationals, promoted sustainable 
development, and returned back home with messages about life 
overseas, the people they have served, and the cultures they 
have experienced. The core values of the Peace Corps and the 
grassroots work that President John F. Kennedy envisioned when 
he established the Peace Corps remains relevant, vital, and 
strong.
    It has been an exciting time at the agency as we continue 
to carry out President Bush's call to public service and his 
goal to increase the number of Peace Corps volunteers serving 
in the field. However, since the amounts provided in the 
appropriations process for the past 2 years have fallen 
significantly short of those needed to double or to meet the 
goal of doubling the number of volunteers, the Peace Corps is 
now pursuing the strongest growth possible within the 
constraints of our resources while preserving the quality of 
the Peace Corps volunteer experience and focusing on safety and 
security.
    I am happy to report that in September of 2003, the Peace 
Corps achieved a 28-year high with 7,533 volunteers working in 
the areas of agriculture, business development, education, the 
environment, health and HIV/AIDS, and youth development.
    I will now move to the important issue of volunteer safety. 
I will start by reaffirming that safety and security of each 
volunteer is the agency's top priority. While the Peace Corps 
will never be able to issue an absolute guarantee of volunteer 
safety, we remain committed to developing optimum conditions 
for a safe and fulfilling experience for every Peace Corps 
volunteer.
    Safety and security issues are fully integrated into all 
aspects of volunteer recruitment, training, and service with an 
emphasis on volunteers taking personal responsibility at all 
times and integrating into communities. Information provided 
throughout the recruitment and application process all include 
the key messages that being a volunteer involves risk, that 
volunteers can and are expected to adopt safe lifestyles, and 
that the Peace Corps has an effective safety support system in 
place.
    Since taking office in February 2002, I have always been 
mindful of the new security environment that September 11th 
placed on overseas organizations like the Peace Corps.
    Based on my personal experience as a former public safety 
official and aided by suggestions of others in the agency and 
recommendations from the GAO, the Peace Corps has taken the 
initiative to create and implement a number of safety 
enhancements. In 2002, I approved a reorganization that created 
a new Office of Safety and Security and increased by 80 the 
number of personnel dedicated to full-time safety and security, 
of which 95 percent of those 80 additional staff are deployed 
in the field.
    The staff includes a new Associate Director of Safety and 
Security, a Chief Compliance Officer, a research psychologist, 
nine regionally based safety and security officers, and 71 
safety and security coordinators at each Peace Corps post.
    It is also vital that volunteers know how to handle 
emergency situations, whether it is one volunteer in an 
accident or all volunteers in one country who need to be 
evacuated. As you may know, we recently suspended our program 
in Haiti due to the civil unrest. This has been the sixth 
successful evacuation during my tenure as Director. Whether it 
is civil unrest or natural disaster or the outbreak of SARS, 
the Peace Corps is diligent in monitoring the safety and 
security at each post and will not hesitate to take action 
should the need arise to move our volunteers out of harm's way.
    The Peace Corps makes use of all available and appropriate 
technology to communicate with volunteers. As technology 
evolves, so does the volunteer use of technology. In some 
countries where cell phones are readily available, reliable, 
and widely used, almost all Peace Corps volunteers will have 
one. However, regardless of the availability of cell phones, 
the Peace Corps always has alternative methods of communication 
in place, and volunteers are required to provide at least three 
modes of communication on their locator forms.
    The most effective tool for gauging success is to ask the 
volunteers. Every 2 years, the Peace Corps conducts a global 
survey to measure the level of volunteer satisfaction with 
programming, safety, medical, and other key indicators. In the 
most recent volunteer survey, which had a 68 percent response 
rate, 97 percent of the respondents replied that they felt very 
safe to adequately safe where they live; 99 percent of the 
respondents felt very safe to adequately safe where they work; 
89 percent of the respondents overwhelmingly responded in the 
affirmative when asked if they would make the same decision to 
join the Peace Corps.
    Mr. Chairman, as you may know, the Peace Corps is a unique 
Federal agency in that most employees are limited to serving 
the agency for 5 years. Recently Congress gave the Peace Corps 
authority to exempt certain positions associated with safety 
and security from the 5-year rule. I have designated our first 
group of 23 exempt positions, of which 19 are in our newly 
reorganized Office of Safety and Security.
    Last month the Peace Corps contracted with outside experts 
to perform an objective and independent analysis of the Peace 
Corps workforce, including the Office of Inspector General. At 
the conclusion of the consultant's review, I will make further 
decisions about any other appropriate exemptions for personnel 
related to safety and security.
    Mr. Chairman, in conclusion, our agency has accomplished a 
great deal over the past 26 months in both safety and security 
and growth of our programs. I am grateful to you and members of 
the committee for your continued support of the Peace Corps 
mission. I believe that the Peace Corps is well positioned to 
safely achieve expansion without compromising the quality of 
the volunteer experience, and we can build upon the successes 
of the past 43 years.
    Mr. Chairman, I am now prepared to answer any questions 
that you or members of the committee may have. I thank you for 
this opportunity.

    [The prepared statement of Mr. Vasquez follows:]

                 Prepared Statement of Gaddi H. Vasquez

    Mr. Chairman and Members of the Committee:
    I am pleased to appear before your Committee today. I appreciate 
the opportunity to present an overview of the current state of the 
Peace Corps and the many accomplishments, which we, as an agency, have 
achieved since my arrival in February 2002. Mr. Chairman, I also want 
to thank you for the on-going support that you and many Members of this 
Committee have shown for the Peace Corps, and I would be remiss if I 
did not take a moment to encourage Members of the Committee to visit 
Peace Corps Volunteers should you travel to any of the 71 countries in 
which we operate. Seeing the Volunteers firsthand can give you a 
heightened appreciation for the remarkable service our American men and 
women perform overseas. Whether teaching schoolchildren in the 
Dominican Republic how to use the Internet, or assisting a community in 
Namibia to build a solar-powered oven, seeing the Volunteers in action 
makes you proud of these Americans who are serving their country in 
nations around the world. If you are traveling to a country in which 
the Peace Corps has a program, please let us know and we will make 
every effort to connect you with a Volunteer. After meeting them, I 
know you will share in our enthusiasm to ensure the Peace Corps 
continues as a world-class organization, promoting world peace and 
friendship abroad.
    While I understand the purpose of today's hearing is to discuss the 
safety and security framework that has been designed to protect Peace 
Corps Volunteers, let me begin with some general comments about the 
Peace Corps and our goals. In March, we celebrated the Peace Corps' 
43rd anniversary. We have learned valuable lessons during the last four 
decades. More than 171,000 Americans have served as Peace Corps 
Volunteers. The Volunteers have helped dispel misconceptions about 
Americans, assisted in fostering positive relationships with host 
country nationals, promoted sustainable development, and returned back 
home with messages about life overseas, the people they have served, 
and the cultures they have experienced. The core values of the Peace 
Corps and the grassroots work that President John F. Kennedy envisioned 
when he signed the Executive Order establishing the Peace Corps on 
March 1, 1961, remain relevant, vital, and strong.
    These are the Peace Corps goals that we continue to promote:

  <bullet> to help the people of interested countries and areas in 
        meeting their need for trained men and women;

  <bullet> to help promote a better understanding of Americans on the 
        part of the peoples served; and

  <bullet> to bring that information back home to help promote a better 
        understanding of other peoples on the part of Americans.

    This past year has brought many accomplishments. It has been an 
exciting time at the agency as we continue to carry out President 
Bush's call to public service and his goal to increase the number of 
Peace Corps Volunteers serving in the field. Mr. Chairman, the Peace 
Corps is pleased to be on a pathway for growth. However, since the 
amounts provided in the appropriations process for the past two years 
have fallen significantly short of that needed to meet the goal of 
doubling the number of Volunteers, we are pursuing the strongest growth 
possible within the constraints of our resources. However, I am happy 
to report that in September 2003, the Peace Corps achieved a 28-year 
high with 7,533 Volunteers working in 71 countries in the areas of 
agriculture, business development, education, the environment, health 
and HIV/AIDS education and prevention, and youth development.
    By knowing local cultures and communicating in local languages, the 
Peace Corps continues to be actively engaged in activities addressing 
HIV/AIDS, at the grassroots level, providing over two million service 
hours a year. Fighting the ravages of this disease is paramount to the 
survival of people across the globe, and important to this agency. All 
Volunteers who serve in our 26 African nations--regardless of their 
program sector--are trained to provide HIV/AIDS prevention and 
education. In fiscal year 2003, for example, we re-entered the 
countries of Botswana and Swaziland exclusively to address the HIV/AIDS 
epidemic. We are also collaborating with the Office of the Global AIDS 
Coordinator to continue our work in this arena and seeking to assist in 
meeting the President's challenge to provide treatment to 2 million 
HIV-infected people; prevent 7 million new infections; and, offer care 
to 10 million people infected and affected by HIV/AIDS, including 
orphans and vulnerable children. The Peace Corps is projected to 
receive $1.13 million from the Global HIV/AIDS Initiative for work in 6 
of the 14 focus countries in the President's Emergency Plan. We 
continue to be involved in the efforts of the other nine focus 
countries, as well.
    Additionally, Peace Corps Volunteers remain committed to serving in 
countries with predominantly Muslim populations. This has been true 
since the Peace Corps' inception in 1961. Currently, almost 20 percent 
of our Volunteers are serving in nations with predominantly Muslim 
populations in West and North Africa, the Middle East, Europe, and 
Central Asia. Three out of four of our new country entries in 2003 were 
in predominately Muslim countries--Albania, Azerbaijan, and Chad--
bringing our total program involvement in Muslim nations from 14 
nations in 2002 to 17 in 2004. The Peace Corps' mission in these 
regions matches our efforts worldwide and continues to be important. 
Host communities are exposed to positive and personal images of 
Americans, and returning Volunteers share their new understanding of 
these different cultures with friends and family in the United States.
    In May, I visited Azerbaijan--one of our newest country entries. 
Azerbaijan has a Muslim population of over 90 percent. It was truly 
heartwarming to see after four short months the rapport of the 
Volunteers among the elementary school children and the eagerness of 
these young students to learn English. The President of Azerbaijan, 
Ilham Aliyev, also expressed his profound appreciation for the Peace 
Corps Volunteers and mentioned his desire to see Peace Corps programs 
in Azerbaijan expand in the future beyond English education.
New Initiatives and Accomplishments
    Last fall, we launched a new national recruiting campaign to 
attract new Volunteers and increase diversity. The campaign theme--
``Life is calling. How far will you go?''--was designed to touch the 
hearts, enlighten the minds, and inspire the spirits of the next wave 
of Peace Corps Volunteers. It included new recruiting materials, a re-
designed website, updated recruitment videos, and new public service 
announcements. The response has been tremendous. Over the past year, 
Volunteer applications have increased by nearly 12 percent and, since 
the launch of the re-designed website, online inquiries are up 44 
percent. Applications now completed on-line have jumped to 81 percent 
of all applications submitted; this is an increase from 42 percent in 
2001. Applications from Latinos, African-Americans, Native Americans, 
and Asian-Americans are also up by 10 percent. The bottom line is that 
Americans want to serve and there are developing countries that want 
and need not only the skills of our citizens, but also want to build 
relationships that help further world peace and friendship.
    In February of 2004, the Peace Corps and the American Association 
of Community Colleges unveiled a new, groundbreaking recruitment 
initiative that will increase awareness of opportunities for specially 
trained Americans to share their skills internationally. It will allow 
those with the experience and occupational and technical skills--such 
as licensed nurses and trained information technology experts--to 
respond to the critical needs of countries where Peace Corps Volunteers 
serve. The rollout was launched in four different regions of the United 
States--Washington D.C., Colorado, California, and Minnesota--and has 
been met with an overwhelming positive response. In fact, many 
community colleges nationwide are expanding their international 
programs and view Peace Corps service as an opportunity to enhance 
their graduates' professional careers.
    On November 12, 2003, I signed an historic agreement that will lead 
to Peace Corps Volunteers serving in Mexico for the first time. This 
innovative partnership will allow Volunteers to join along side the 
National Council on Science and Technology (CONACYT) of Mexico and work 
in the areas of information technology, small business development, and 
science and technology. The Peace Corps country director has been 
selected and the first group of Volunteers will arrive in Mexico this 
fall.
Travel to Peace Corps Countries
    Over the past year, I have also had the privilege to travel to 17 
different Peace Corps countries from Central and South America, to 
Africa, Eastern Europe, Central Asia, and the Pacific. During each 
visit, I met with Volunteers, host government officials, and 
representatives of our U.S. missions abroad. The support and enthusiasm 
I have received from each of these groups remains very high. In Fiji, 
for example, I was approached by a man in his mid-thirties, asking if I 
was the Peace Corps Director. The man stated that he had recognized me 
from the news the night before and was very excited that Peace Corps 
had returned to Fiji. He went on to explain that as a young boy he was 
taught by Peace Corps Volunteers and has never forgotten them. This 
type of story is repeated to me over and over throughout my travels. 
The Peace Corps continues to leave a lasting legacy across the globe, 
which I experience each time I travel abroad.
    While the world today is very different from 1961 when Peace Corps 
began, and even more so since September 11th--the American spirit of 
sharing with others remains a fundamental part of our democratic 
society.
    Just two weeks ago, I returned from Peru where President Toledo 
thanked the Peace Corps again for returning to his country. In 
expressing his deep appreciation for the Volunteers, President Toledo 
said, ``I can't be objective about the Peace Corps because the Peace 
Corps changed my life when I was just a young man.'' President Toledo, 
a strong advocate of the Peace Corps, first encountered Volunteers as a 
youth. They lived with his family, taught him English and later helped 
him gain admission to a college in the United States. After being 
elected president in 2001, he invited the Peace Corps to return to Peru 
after a 27-year absence. A third group of 13 Volunteers was sworn-in at 
the Presidential Palace during my visit.
Volunteer Safety and Security: Our Overarching Priority
    I will now move to the important issue of Volunteer safety. I will 
start by reaffirming that the safety and security of each Volunteer is 
the agency's top priority. All 16 Peace Corps directors, beginning with 
Sargent Shriver, the agency's first director, have placed a high 
priority on Volunteer safety and security. While the Peace Corps will 
never be able to issue an absolute guarantee, we remain committed to 
developing optimum conditions for a safe and fulfilling experience for 
every Peace Corps Volunteer.
    Safety and security issues are fully integrated in all aspects of 
Volunteer recruitment, training, and service, with an emphasis on 
Volunteers taking personal responsibility for their safety at all times 
and assimilating into communities. Information provided throughout the 
recruitment and application process--to recruiters, on the recruitment 
website, in printed application materials, informational booklets and 
educational videos, during the two days of staging, and the 10 to 12 
weeks of in-country pre-service training--all includes the key messages 
that being a Volunteer involves risk, that Volunteers can and are 
expected to adopt safe lifestyles, and that the Peace Corps has an 
effective safety support system in place.
    Since taking office in February 2002, I have made the safety and 
security of Volunteers my number one priority, and I am always mindful 
of the new security environment that September 11th placed on overseas 
organizations like the Peace Corps.
    Based on my personal experience as a former public safety official, 
and aided by suggestions of others in the agency, the recommendations 
and findings from the General Accounting Office's July 2002 report on 
Volunteer safety, and Volunteers in the field, the Peace Corps has 
taken the initiative to create and implement a number of safety 
enhancements. In 2002, I approved a reorganization that created a new 
Office of Safety and Security and increased by 80 people the number of 
full-time safety and security staff, 95 percent of whom are deployed 
overseas.
    This staff, which includes a new associate director of safety and 
security, a chief compliance officer, a research psychologist, nine 
regionally-based safety and security officers, and a safety and 
security desk officer for each Peace Corps region, was restructured to 
better communicate, supervise, monitor and help set safety and security 
policy. In addition, all 71 Peace Corps posts have established a safety 
and security coordinator in country to oversee Volunteer safety issues 
in the field.
    Other new initiatives in safety and security include:

  <bullet> The creation of new standard operating procedures and a new 
        standard template for posts in developing their Emergency 
        Action Plans;

  <bullet> The implementation and compliance of new procedures for 
        Volunteer/Trainee Safety and Security (Manual Section 270) to 
        measure and monitor posts' compliance with important safety and 
        security requirements;

  <bullet> The addition of the equivalent of one full day of safety and 
        security training during a two-day pre-departure orientation 
        (staging) for new trainees;

  <bullet> The establishment of regular safety and security staff 
        training on a two-year cycle;

  <bullet> An updated Volunteer site locator form identifying multiple 
        methods of contact;

  <bullet> Revised site development guidance to assist in the selection 
        of safe and secure Volunteer sites;

  <bullet> An enhancement of the safety and security information 
        message that a potential applicant receives from his or her 
        first contact with Peace Corps--during recruitment and 
        throughout the application process; and,

  <bullet> The availability of safety and security information on the 
        Peace Corps' website.

    The Peace Corps Safety and Security Officers (PCSSOs) play a vital 
new role in conducting country specific safety and security risk 
assessments. At the request of a Country Director, a PCSSO will enter 
the host country and consult with embassy personnel, local NGOs, 
government ministries, police officials, and Peace Corps staff to 
review the current safety and security environment and offer suggested 
enhancements when necessary. In Panama, for example, the Country 
Director was trying to ascertain if Volunteers could be placed in new 
sections of one of the poorest regions in the country. A review of this 
province was part of the PCSSO's overall safety and security 
assessment.
    Overall, the new staff, the new compliance tools, the additional 
documentation, and the restructured Office of Safety and Security have 
all been designed to bring greater standardization, continuity, and 
accountability to the safety and security function.
    It is important to note that the Peace Corps' core safety and 
security philosophy is one of Volunteer acceptance and integration into 
the local community. This necessitates the thoughtful design of viable 
projects, the adaptation of Volunteers into their new sites and 
cultures, and the development of the Volunteers network of support. A 
safe and secure Volunteer is one who is working in the community on a 
well-designed project. In all programming, the Peace Corps works to 
ensure Volunteers have clearly defined job assignments. The technical 
training component of pre-service training prepares Volunteers with the 
essential competencies to successfully perform their work in their 
program sector. Eighty percent of pre-service training involves some 
community based training in order to simulate real-life experiences in 
the workplace, home, and community. Solid training and jobs enable 
Volunteers to become more quickly involved in their work, build a 
support network that includes their new colleagues, and produce 
measurable project outcomes. These factors lead to higher rates of 
Volunteer job satisfaction, which is important to Volunteer safety.
    While the pre-service training contains many important technical 
components, language, cultural nuances, and safety and security 
training are key factors in preparing a Volunteer for integration into 
the host community and laying the groundwork for a safe and fulfilling 
Volunteer experience. High quality, practical cross-cultural training 
is also a cornerstone of Volunteer training. At the conclusion of pre-
service training, ``trainees'' must pass a series of 10 core safety and 
security competencies before being sworn in as full-fledged Peace Corps 
Volunteers, which were recently revised this year. These core 
competencies require trainees to demonstrate an understanding of issues 
such as personal safety strategies, dealing with unwanted attention, 
identifying risk factors and strategies for avoiding risk, and the 
importance of incident reporting. They must also be able to communicate 
basic messages in the local language, exhibit an understanding of Peace 
Corps policies, as well as know their roles and responsibilities in the 
Emergency Action Plan.
    Earlier this year, the Peace Corps formalized its worldwide 
guidance that recommends a minimum of two site visits during the first 
year (including one visit within the first three months) and one visit 
during the second year. In addition to these minimum guidelines, each 
post develops country-specific standards on the timing and frequency of 
site visits that reflects the location and placement of each Volunteer 
in-country. While the APCDs--who oversee individual Volunteer 
programming--may have the most regular contact, Volunteers may also be 
visited by Peace Corps Medical Officers, Safety and Security 
Coordinators, or the Country Director. Where applicable, Volunteer 
Leaders also make site visits, and act as mentors to integrate new 
Volunteers as they adapt to their sites. Aside from visiting Volunteers 
at their sites, in-country staff interact with Volunteers when they 
come to the Peace Corps Office to conduct business, gather for their 
in-service training programs or attend other events over the two-year 
period. Overall, the Peace Corps has guidance in place to promote 
frequent visits and contact with Volunteers, recognizing that each 
country must establish its own schedule, reflecting the geography and 
infrastructure of the country.
    It is vital that Volunteers know how to handle emergency 
situations, whether it is one Volunteer in an accident or all 
Volunteers in one country who need to be evacuated. As you may know, we 
recently suspended our program in Haiti, due to the civil unrest, and 
brought our 76 Volunteers home. This has been the sixth successful 
evacuation during my tenure as Director--the 10th since the fall of 
2001--impacting 908 Volunteers. Whether it is civil unrest, war, or the 
outbreak of SARS, the Peace Corps is diligent in monitoring the safety 
and security at each post and will not hesitate to take action should 
the need arise to move our Volunteers out of harm's way.
    In the activation of an Emergency Action Plan, as well as in more 
isolated emergencies--such as notification of a serious illness of a 
family member at home--the Peace Corps needs to be able to reach 
Volunteers at their sites. The Peace Corps makes use of all available 
and appropriate technology to communicate with Volunteers. As 
technology evolves, so does the Volunteers' use of technology. In some 
countries, where cell phones are readily available, reliable, and 
widely used, almost all Peace Corps Volunteers will have one. For 
example, almost 100 percent of the Volunteers in South Africa have cell 
phones. In others, where cell phone coverage is non-existent or 
sporadic at best, Volunteers make use of the best parts of the 
communications infrastructure of that country. For instance, in the 
South Pacific Islands, cell phone systems are not available. Instead, 
solar-powered land lines are available to be used by Volunteers with 
Iridium phones as back up with the Volunteer Leaders. Overall, posts 
use a combination of cell phones, land lines, solar-powered land lines, 
e-mail, beepers, radios, and message relay systems to reach Volunteers 
on a regular basis and in emergency situations. Regardless of the 
availability of cell phones, the Peace Corps always has alternative 
methods of communication in place and Volunteers are required to 
provide at least three modes of communication on their site locator 
forms. Furthermore, when Peace Corps Volunteers are placed in 
communities around the world, they have a circle of support around them 
that includes local host country nationals as well as Peace Corps 
staff. As would be the case here in the United States, if a person were 
in distress, friends, neighbors, colleagues, host country counterparts, 
and local police are available to assist with the situation and to send 
and receive emergency messages.
    The Peace Corps uses four key elements in establishing and 
maintaining its safety and security framework for Volunteers and staff: 
research, planning, training, and compliance. Safety and security 
information is tracked and analyzed on an on-going basis. The data 
analysis, conducted now by our new safety and security research 
psychologist, is used to enhance existing policies or develop new 
policies and procedures, as needed. Our new research psychologist is 
currently revising our data collection process and intake forms and 
periodically corroborates statistical data on crimes against Volunteers 
with the Department of State's Crime Division, the only division solely 
dedicated as an official repository of crime statistics.
    After careful analysis and planning, changes are being integrated 
throughout the agency. The training of Volunteers includes the most up-
to-date safety and security information available. Lastly, compliance 
is essential to ensure that safety and security measures are adhered to 
and remain a top priority over the course of time. Each of these 
components helps create a framework to safeguard the well being of 
Volunteers and staff, institutionalizing enabling them to carry out the 
Peace Corps' mission.
Tracking Assaults for Prevention Purposes
    In 1990, the Peace Corps designed the Assault Notification and 
Surveillance System (ANSS) for internal tracking purposes. From this 
data, Peace Corps has enhanced policies, systems, and training to help 
prevent future Volunteer assaults. The Peace Corps had collected 
assault data before 1990 but not in a form that facilitated trend 
analysis.
    The ANSS established specific definitions to allow for the 
systematic collection of data regarding the characteristics of an 
assault event. Definitions are critical to ensure consistency for trend 
analysis and prevention purposes so that the prevention strategies are 
appropriate to the types of incidents taking place. The Peace Corps 
uses safety statistics to increase the understanding of trends so that 
training and policies can be adjusted and safety enhanced. Improvements 
in safety reporting have allowed the Peace Corps to identify associated 
risk factors (time of day, location, alcohol use, means of 
transportation, etc.) and develop strategies to help Volunteers address 
them.
    In addition to the statistical data, the most effective tool for 
gauging success is to ask Volunteers. Every two years, the Peace Corps 
conducts a global survey to measure the levels of Volunteer 
satisfaction with programming, safety, medical, and other key 
indicators. In the most recent global volunteer survey, which had a 68 
percent response rate (itself a high response rate):

  <bullet> 97 percent of the respondents replied that they felt ``very 
        safe'' to ``adequately safe'' where they live;

  <bullet> 99 percent of the respondents felt ``very safe'' to 
        ``adequately safe'' where they work;

  <bullet> 84 percent of the volunteers felt ``very safe'' to 
        ``adequately safe'' when they traveled; and,

  <bullet> 89 percent--overwhelmingly responded in the affirmative when 
        asked if they would make the same decision to join the Peace 
        Corps.

Proposed Legislation
    I am aware of the legislation that has been introduced affecting 
the Peace Corps. One of the major strengths of the Peace Corps Act is 
that it is a broad authorization, which has over the years, given ample 
opportunity for the agency to maintain its independence and its 
effectiveness. Congress set forth broad objectives, and let the 
Executive Branch, in consultation with the host government or its 
peoples establish programs that meet the individual needs of each 
country. Few agencies have been so successfully and efficiently managed 
over such a long period. To maintain our effectiveness in an era of 
continued growth and opportunity requires that management has the 
flexibility to make decisions that best serve the agency and, most 
importantly, the Volunteers. The Administration does not believe that 
this legislation is in the best interest of this agency or will 
significantly improve Volunteer safety.
    The Peace Corps currently has a positive and independent working 
relationship with the Office of Inspector General (IG), as a Designated 
Federal Entity under the Inspector General Act of 1978. The budget for 
the office has consistently increased over the last three years, with a 
current budget of $2.55 million in fiscal year 2004 supporting 17 
positions (the total budget for the agency is $308 million). Given the 
size of our agency and funding level, we find this arrangement 
appropriate and in line with similar agencies of our size and stature. 
Other agencies where the Inspector General is appointed by the head of 
an agency include AMTRAK, the Federal Reserve, EEOC, and SEC. The 
President appoints Inspector Generals at large departments and 
agencies, such as DOD, Commerce Department, Department of Education, 
HHS, and HUD.
    The most recent debate in Congress over IG status has revolved not 
around creating more Presidentially appointed IGs, but instead 
eliminating the IGs of smaller agencies and putting those agencies 
under the IGs of larger agencies. This bill would move in the opposite 
direction, when we believe the current relationship is appropriate and 
working effectively.
    An additional consequence of the proposed legislation would be that 
the IG would make his or her own budget request directly to Congress. 
This could result in the IG competing with the Peace Corps' overall 
budget request. At present, a competitive process does not exist and, 
over the past three years, the Office of the IG has consistently 
received the funding increases requested by the IG.
    Secondly, we find it unnecessary to permanently institute an Office 
of the Ombudsman. This new statutory requirement would be duplicative 
on many levels, diluting the authority already granted to the Office of 
the Inspector General and supplanting existing complaint/grievance 
process. Given the broad parameters that we understand the legislation 
would create for the Ombudsman, it could actually conflict with the 
Inspector General's existing jurisdictional authority and could 
artificially interrupt standard review procedures. In addition, the 
office could open the agency to a large universe of potential 
complainants and complaints, since the legislation not only allows 
current and former Volunteers access to the Ombudsman, but all current 
and former Peace Corps employees including personal services 
contractors. The agency has already taken steps to consider 
establishing an internal liaison to facilitate post-medical services 
issues on behalf of returning Volunteers--an item I will address 
further at the close of my remarks. Again, while the idea of an 
Ombudsman may have merit, we do not see the creation of a separate 
office of the proposed scope and magnitude as an effective use of 
agency funds, in part because it is duplicative of current grievance 
procedures.
Impact of the 5-year rule
    As you may know, the Peace Corps is a unique federal agency in that 
most employees are limited to serving the agency for five years, though 
we are permitted to extend the service of a limited number of employees 
past the five-year mark. This creates a dynamic, energetic atmosphere 
in which Peace Corps staff works hard to have a positive impact on the 
agency during their five-year tenure. Recently, Congress gave the Peace 
Corps authority to exempt certain positions associated with safety and 
security from the five-year rule. Since this is a departure from our 
historical employment laws and regulation, I carefully reviewed the 
positions and formally designated our first group of 23 exempt 
positions on October 29, 2003. Nineteen of these positions are in our 
newly re-organized Office of Safety and Security, which is the Peace 
Corps office primarily responsible for Volunteer safety and security. 
One Safety and Security Desk Officer position in each of the regional 
directorates has been designated, and the position of Director of 
Quality Improvement in the Office of Medical Services has also been 
exempted. We believe that these 23 positions are the most clear-cut and 
readily justifiable applications of the new authority, as they most 
directly and obviously impact Volunteer safety. Additionally, the 71 
safety and security coordinator positions at post are not subject to 
the five-year rule limitation.
    While these were the most obvious designations, I directed the 
hiring of an independent expert to review Peace Corps operations and 
make recommendations on what additional, second-tier safety-related 
positions should be exempted from the five-year rule. Just last month, 
the Peace Corps contracted with outside experts to perform an objective 
and independent analysis of the Peace Corps workforce, including the 
Office of the Inspector General. At the conclusion of the consultants' 
review, I will make decisions about any other appropriate exemptions 
for personnel related to safety and security. Because of these on-going 
activities to implement the five-year rule exemption appropriately, we 
also do not see the necessity of further legislation in this regard. 
The first 23 positions, which directly impact Volunteer safety and 
security, are now exempt and we expect to exempt a number of second-
tier positions as we proceed through this process.
Volunteer Care
    Lastly, let me take a moment to address the issue of Volunteer care 
and reiterate a point that is true agency-wide: the Volunteer is at the 
heart of all Peace Corps programs and policies. These are Americans who 
commit to serving 27 months abroad with the hope of making a 
contribution and a connection to people they do not know and often 
learning a language that they do not speak. Volunteers exhibit great 
commitment, optimism, and a ``can-do'' attitude as they work toward 
sustainable development at the grassroots level in emerging countries. 
While the circumstances in which they work may be challenging, the 
personal and professional rewards can be immeasurable. As an agency, we 
commit to providing the best experience possible to our Volunteers from 
their first contact with Peace Corps as an applicant to their years as 
a returned Peace Corps Volunteer. The Volunteers are the heart and soul 
of the Peace Corps and everything this agency does revolves around 
them.
    Thus, we constantly work to provide support to our Volunteers and 
continually seek ways to improve. During a Peace Corps Volunteer's 
service in the field, the Office of Special Services plays an essential 
role in our Volunteer support system. For instance, the Office of 
Special Services coordinates the after-hours duty system, which 
provides 24 hours a day, seven days a week coverage for all Volunteers 
and their families. Parents may call this office, at any time, if they 
need to advise their Volunteer of a critical illness or death of a 
family member. The Office of Special Services immediately informs the 
Country Director so that the information is passed on to the Volunteer 
as soon as possible, and arrangements can be made for special emergency 
leave if appropriate. The Office of Special Services also serves as a 
key link with families in the intense time of a country evacuation or 
the tragic event of the death of a Volunteer. This office is also a key 
resource for staff and volunteers in assisting with mental health and 
behavioral issues. In all of these situations, the trained 
professionals who work in the Office of Special Services strive to 
provide top-quality care, timely information, and supportive service to 
Peace Corps Volunteers and their families. Here is just a sample of one 
family's experience. ``When Peace Corps called us about Beth's accident 
in Zambia and her life-flight to Pretoria, my husband, Gerry, 
immediately flew to South Africa to be with our daughter . . . Through 
this terrible time, I was in close telephone contact with a Peace Corps 
counselor in Washington, D.C. When Gerry arrived, he was met and 
supported throughout by a Peace Corps medical officer . . . the Peace 
Corps was our advocate in every way possible. They treated us as though 
we were part of their own family.''
    While Volunteers may or may not have circumstances that necessitate 
the involvement of the Office of Special Services during their tenure, 
all Peace Corps Volunteers go through a readjustment process upon 
completion of their service as a Peace Corps Volunteer. For some, the 
transition back to life in the United States is a return to 
familiarity--the filling out of paperwork and taking care of any needed 
medical follow-up. For others, however, moving from two years of 
medical care by the Peace Corps, helping with everything from a 
toothache to a serious medical issue, can present a more significant 
challenge.
    The Post Service Unit in our Office of Medical Services facilitates 
post-service medical benefits to returned Peace Corps Volunteers with 
service-related medical conditions as their care is transferred to the 
U.S. Department of Labor. Volunteers are considered Federal employees 
for the purpose of health benefits provided through the Federal 
Employees' Compensation Act (FECA) program administered by the Office 
of Workers' Compensation Programs at the Department of Labor. The FECA 
program provides post-service medical and compensation benefits for 
conditions exacerbated, accelerated, or precipitated by service in the 
Peace Corps.
    Peace Corps staff has been vigilant in trying to ensure that claims 
on behalf of returned Peace Corps Volunteers are processed by the 
Department of Labor in a timely manner. We are proud to report that the 
backlog that previously existed has now been eliminated and that the 
Peace Corps recently received recognition by the Department of Labor as 
the agency with the quickest filing results. Progress in this area 
rewards former Volunteers that have already served their country and 
enhance the attractiveness of the Peace Corps Volunteer program to 
future Volunteers. As we strive to provide our Volunteers with the best 
service possible, we always welcome new ideas.
    Additionally, when a Volunteer completes his or her service, the 
Volunteer has the opportunity to purchase private health insurance 
through CorpsCare (a program similar to the COBRA health insurance 
plan). Peace Corps pays the first premium covering the first 31 days 
and then the individual can continue to purchase the policy for up to 
18 months. The policy is designed to cover any medical issues not 
related to a Volunteer's service, including full coverage for pre-
existing conditions without a waiting period. After identifying a gap 
in which many Volunteers who purchased CorpsCare were experiencing a 
lag time as they awaited a decision on their FECA claim, Peace Corps 
renegotiated the CorpsCare contract to provide former Volunteers with 
greater continuity of coverage. The new CorpsCare contract went into 
effect on March 1, 2004, and we are especially pleased with this new 
arrangement, which should be a great improvement in providing care for 
returned Peace Corps Volunteers.
    As we seek to further Peace Corps' three goals, the Volunteer is 
always the central focus. We are continually striving to improve the 
agency and ensure that our Peace Corps Volunteers have meaningful, 
productive, and life-changing experiences as they serve throughout the 
world. More than 171,000 Americans have served in the Peace Corps, and 
we look forward to providing excellent care to the people of the United 
States who may serve, are serving, or have returned from service. The 
Peace Corps will not rest on our achievements and accomplishments. We 
will build on the successes and learn from events as they occur. Not 
long ago, I read a message from the parent of a volunteer who was 
grateful for the quality of care that was rendered by Peace Corps staff 
overseas and here in the United States. The parent wrote, ``As a United 
States citizen, I am very proud of the Peace Corps; it is a superb 
organization worthy of every citizen's support.''
Conclusion
    The safety of the Volunteer is the number one priority of the Peace 
Corps, and remains the primary focus of many of the research, planning, 
training, and compliance components of the agency. As noted above, our 
agency has accomplished a great deal over the past 26 months--in both 
safety and security and the growth of our program. Our FY 2005 budget 
request of $401 million will support this continued growth and maintain 
the infrastructure we presently have in place.
    In conclusion, I am grateful to you and members of the Committee 
for your continued support of the Peace Corps mission. September 11th 
is a grim reminder that the work of past, present, and future 
Volunteers is more critical than ever. I believe that the Peace Corps 
is well positioned to safely achieve expansion and build upon the 
successes of the past 43 years.

    Senator Coleman.  Thank you, Director Vasquez.
    Before we begin the questioning, I would like to turn to my 
colleague, Senator Dodd, for any opening statement he might 
have.

             STATEMENT OF HON. CHRISTOPHER J. DODD,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd.  Well, thank you very much, Mr. Chairman.
    How are you, Mr. Vasquez? Nice to see you. I apologize for 
arriving a couple minutes late, but I would like to make an 
opening comment, if I could.
    First of all, let me commend you, Mr. Chairman, for holding 
this hearing. It is very worthwhile and I am grateful to you 
for doing so. I think it an important issue of safety and 
security of volunteers, and it gives us an opportunity to 
evaluate one of the most important aspects of this very, very 
important program.
    I am hopeful that witnesses testifying before the committee 
this morning, who represent voices from inside and outside of 
the agency, will provide us with some very helpful insights as 
we consider the legislation that Senators DeWine and Durbin 
have introduced.
    As a returned Peace Corps volunteer, I am very proud to 
have been a part of that agency, the 170,000 of us as former 
volunteers. There are now several of us. In fact, Chris Shays 
whose wife Betsy actually worked for the Peace Corps--I think 
we are the only State to have a House member and a Senate 
member who are former Peace Corps volunteers. Paul Tsongas and 
I were the first two former volunteers to be elected to the 
Congress. Thomas Jefferson was President I think when I was 
elected here.
    [Laughter.]
    Senator Dodd.  It seems that long ago.
    Obviously, to have been a part of this remarkable agency 
that was a part of President John Kennedy's visionary program--
actually I always say as well--and one of the ideas of Hubert 
Humphrey--he does not get enough credit in my view, but 
actually Hubert Humphrey came up with a concept, an idea that 
has been around for some time in other nations around the 
globe. But obviously John Kennedy rightfully deserves a lot of 
credit because he made the program come alive, obviously, under 
his administration.
    I recall with great fondness, as I have said on numerous 
occasions over the years, serving with the Peace Corps in the 
Dominican Republic and the lessons I learned there, and the 
experiences I gained from those years have benefited me 
tremendously and had an awful lot to do with my decision to 
enter public life.
    It is my hope that more young Americans would have the 
opportunity to join the Peace Corps, and I am pleased to hear 
about the numbers that you, Gaddi, have just mentioned in terms 
of the high watermark of people volunteering or seeking to 
volunteer.
    At the same time, there has never been a moment in our 
history where the Peace Corps' objectives are more urgent than 
now, and we all know this almost on a daily basis. Indeed, our 
woeful lack of understanding about the cultures and languages, 
the misper- ceptions that others hold about our country have 
contributed to some of the highest rates ever of anti-American 
sentiment around the globe. That is why now, more than ever, we 
must remember why the Peace Corps is so important because the 
Peace Corps and its volunteers not only help those in need, but 
they also help build bridges of mutual understanding and good 
trust. I have often said the presumptuous idea of sending 
predominantly very young Americans over to eradicate ignorance, 
poverty, and disease was outweighed by the tremendous benefit 
that comes back to our country of having literally hundreds and 
thousands of people who have had an experience in a different 
environment, a greater appreciation of our own country, and a 
better understanding of the world in which we live.
    It is the broad context that the next question of safety 
for Americans serving overseas takes on a new degree of 
urgency. I would say to you, Mr. Chairman, that the seven-part 
series of Peace Corps security issues which appeared in the 
Dayton Daily News--and our colleague, George Voinovich, is here 
from that State. I know he knows a lot about this, having 
followed those stories in the Dayton papers--raised some very 
serious questions about safety and security of volunteers 
serving abroad and about the agency's response to those 
problems. It is my hope that our witnesses this morning will 
shed some additional light on those allegations, as well as the 
steps that the Peace Corps can take--and they have mentioned 
some of those already--to address these issues.
    Clearly, we all expect, to the maximum extent possible, 
that Peace Corps management has as one of its highest 
priorities, if not its highest priority, working to ensure that 
volunteers have quality experiences in safe and secure 
environments. Based upon recent GAO findings and the Peace 
Corps' own statements, it would appear that steps are being 
taken to enhance security and better prepare volunteers for 
their service.
    I certainly look forward, Mr. Chairman, to a detailed 
description by the Director of the Peace Corps about what has 
already been done and what the agency intends to do in the 
future to address legitimate concerns, particularly at the same 
time that the agency is under pressure to vastly expand the 
numbers of volunteers in the field. Those can be tremendously 
contradictory goals we are trying to achieve. As mostly young 
American men and women venture out to the least developed 
corners of the world to become our grassroots ambassadors, if 
you will, it is our responsibility as the oversight committee 
to ensure that the agency is afforded every necessary resource 
to ensure our volunteers' safety.
    I will be asking some questions, Mr. Chairman, a little 
later in the process here, which I am sure you and the Director 
would anticipate; you have already with some of your comments. 
But I want to stress the importance of three points, if I can, 
in conclusion.
    First, an evaluation of the safety and security of Peace 
Corps volunteers is timely and appropriate, and I welcome it. 
But I would hope that our witnesses would not interpret our 
questions as an attack on the viability of the program as a 
whole. The Peace Corps enjoys broad bipartisan support 
precisely because it is such a successful element of our 
foreign policy.
    Second, we must always situate our discussion within the 
realm of the possible. It might not be realistic to assume that 
we can prevent any and every incident of violence against Peace 
Corps volunteers, but that should be our goal certainly. That 
is why we need to use every resource at our disposal to prevent 
such acts from occurring, and we must be open about the threats 
that exist and learn from our mistakes so that we do not repeat 
them.
    Third, and finally, if we create new responsibilities for 
the Peace Corps administration, then we have also got to ensure 
that we provide adequate funding for them to meet those 
requirements so that existing programs and goals do not suffer 
as a result.
    Again, I want to thank our witnesses for being here today, 
for their time, and for their willingness to speak frankly 
about the challenges of providing safety and security for 
thousands of Americans serving around the globe in some of the 
most difficult spots. They do a tremendous job, and while 
certainly security is a tremendous issue and one that we have 
got to put at the top of our list of priorities, I do not want 
to see us sacrifice the goal. If we end up not sending people 
into areas that are difficult, then the very purpose of the 
Peace Corps and the values we have associated with it will be 
lost. These are the times when, clearly, there are those around 
the globe who do not like the Peace Corps, who would prefer 
that this program did not exist. It is a great challenge to 
those who want to undermine American values. So I would hope we 
keep it in balance here as we move forward.
    But again, Mr. Chairman, I thank you for holding the 
hearing.
    Senator Coleman.  Thank you, Senator Dodd. I must say that 
on issue after issue, you bring an experienced perspective to 
what we discuss. Here you also bring a deeply personal 
commitment to the success of this program, and I do appreciate 
that. Thank you very much.
    Senator Voinovich.

             STATEMENT OF HON. GEORGE V. VOINOVICH,
                     U.S. SENATOR FROM OHIO

    Senator Voinovich.  Thank you, Mr. Chairman. I would like 
to thank Senator Lugar and Senator Biden for agreeing to 
convene this hearing to examine the safety and security of our 
Peace Corps. I would like to thank you, Mr. Chairman, and 
underscore the fact that you are the chairman of the 
Subcommittee on Western Hemisphere, Peace Corps, and Narcotics 
Affairs. You have got a big plate in terms of your 
chairmanship.
    Senator Coleman.  I am trying to figure out who put all 
those together and into one committee. I am going to find that 
person.
    [Laughter.]
    Senator Voinovich.  As my colleagues are aware, last 
October Senator Mike DeWine and I asked this committee to 
convene a hearing to assess the safety and security of our 
Peace Corps volunteers after the Dayton Daily News published an 
eye-opening series of articles which highlighted violent 
assault, robbery, rapes, and murders perpetrated against Peace 
Corps volunteers serving around the world.
    To prepare this in-depth report, the Dayton Daily News 
reporters spent more than 2 years interviewing more than 500 
people. I think that in itself is a great contribution to this 
committee, Mr. Chairman. They traveled to 11 countries and 
filed dozens of Freedom of Information Act requests. Their 
findings raised serious questions regarding areas in which 
Peace Corps volunteers are vulnerable, and they have compelled 
us to look closely at measures in place to ensure the security 
of our volunteers. They have also led us to discuss ways that 
we might enhance these measures. I am sure, Mr. Vasquez, that 
you have read those articles. It was interesting, from hearing 
part of your testimony, that you are acting to try and deal 
with some of them.
    While the majority of Peace Corps volunteers serve without 
incident, we cannot and should not ignore the reality that 
dangers exist for our volunteers, which have led to deadly 
consequences. Though there is an amount of risk inherent in the 
decision to serve abroad, there are areas in which the Peace 
Corps can take action to enhance the safety and security of its 
volunteers, the majority of whom are young women and men just 
out of college with little life experience or training in the 
jobs that they are asked to perform. You mentioned again that 
more training is so very, very important today.
    In today's world, as the United States continues efforts to 
fight terrorism and address growing anti-Americanism, we should 
be proactive, not reactive, in our efforts to ensure that our 
volunteers serving overseas are as safe as possible. Peace 
Corps volunteers often serve in remote, undeveloped parts of 
the world. That has been the case; it is not likely to change. 
That being said, we must be certain that Peace Corps volunteers 
living and working in remote areas have the ability to 
immediately communicate with Peace Corps staff in times of 
emergency.
    In many cases, volunteers in remote areas do not have 
access to a telephone, nor do they have access to the internet 
or to a radio. This was true with Peace Corps volunteer Lupine 
Skelly of Colville, Washington, who was assigned to a site 13 
hours from Bolivia's capital city of La Paz, with an hour walk 
to the nearest bus stop and without access to a phone or to a 
radio.
    This was also true for Peace Corps volunteer Walter 
Poirier, a 22-year-old graduate of Notre Dame, originally from 
Lowell, Massachusetts. Walter also went to Bolivia where he was 
assigned to promote tourism in the Zongo Valley, a task for 
which he had no training. Though he also worked in the capital 
city of La Paz, Walter lived in a remote area in the Zongo 
Valley. His site could be reached only by foot for the last 
quarter mile. Buses to La Paz took hours and they were 
infrequent.
    As the Dayton Daily News reported, Walter Poirier was last 
seen in La Paz on January 31, 2001, at which time he e-mailed 
friends and family from his Yahoo e-mail account. He returned 
to his room in the Zongo Valley but has not been seen since 
that time. No one knew that Walter was missing until his 
mother, who had attempted to reach her son to no avail, called 
a Peace Corps hotline in Bolivia on March 4, 2001. Two days 
later, and more than one month after he was last seen on March 
6th, Walter Poirier was officially declared missing.
    In my view, volunteers living and working under such 
conditions must be able to quickly and effectively communicate 
with superiors in country in the event of an emergency. We 
should also look at the possibility of providing these 
volunteers with radios for use when they most need them. I 
understand that there are some areas where cell phones do not 
work, but communication today is one of the most important 
things we can make available to these young people. Relying on 
host communities which might not in every instance be 
supportive is simply not enough. This is particularly true in 
the event that a woman or a man is sexually assaulted.
    Steps must also be taken to establish regular, frequent 
contact with Peace Corps volunteers. Limitations on the ability 
of country directors or associate directors to visit every 
volunteer site on a frequent basis can be understood. However, 
there must be checks in place to ensure that the whereabouts of 
all volunteers are known. It is inexcusable that a volunteer, 
such as Walter Poirier, would be missing for more than a 
month--more than a month--before his absence was noticed.
    In an effort to promote safety and deter crime, it is also 
crucial that housing provided to Peace Corps volunteers be 
reviewed prior to sending a volunteer to a site. The Dayton 
Daily News report cites many instances of robbery and 
situations in which Peace Corps volunteers called on their 
superiors to take action because they did not feel safe in 
their living arrangements. Peace Corps volunteer Pam Parsa, a 
graduate of Oberlin College in my State of Ohio, felt unsafe in 
her house in Gabon in 1998. She reported that her house had 
flimsy windows, and her doors were difficult to lock. She 
received new locks paid for by the Peace Corps, but still 
requested a change of housing, a request the Peace Corps did 
not respond to for more than 1 year.
    The cases of Walter Poirier and others outlined in the 
Dayton Daily News are not representative of the experiences had 
by most of our volunteers. Thank God. They do, however, raise 
critical questions that must be addressed, and that is why we 
are here today for this hearing.
    I appreciate the action taken by you, Mr. Vasquez, but I 
think that we need to understand that we need to stay on top of 
this. I have another committee that I am involved with. That is 
the Oversight of Government Management and the Federal 
Workforce in Governmental Affairs, and the real question I keep 
asking is, do you have the people to get the job done? What is 
your budget? The President has asked for twice the number of 
Peace Corps volunteers. That is easier said than done, and if 
it does occur, it means that the infrastructure of your agency, 
in terms of personnel and other things, has got to be expanded 
to respond to that. You cannot do it with the budget that you 
have currently.
    I agree with Senator Dodd that the Peace Corps is very 
important. I think about our national security. I think 
intelligence is an area where we really need to do a much 
better job. However, we are not doing enough with diplomacy, 
and we are paying the price for that today. In terms of putting 
a new face on America, the Peace Corps has been probably the 
best face that we have ever put on in terms of this country. It 
is very, very important.
    But if we expect people to stay in the Peace Corps, if we 
expect to be able to attract people into the Peace Corps, we 
have got to assure these young men and women that they are 
going to have the necessary communications capability, that 
they are going to have the security, and that they are going to 
have the housing so that they are willing to serve.
    So I appreciate your leadership and look forward to asking 
you some questions.
    Senator Coleman.  Thank you, Senator Voinovich.
    Director Vasquez, both my colleagues have raised the Dayton 
Daily News series, which reports a number of attackers who were 
never prosecuted, a 1997 case that was not even reported to the 
U.S. embassy. There was a clear implication in that series that 
the Peace Corps was more interested in preserving its own image 
than in dealing transparently with these incidents.
    I would note, however, that, for instance, the Walter 
Poirier incident, was in 2001. I have received a lot of 
information from former volunteers who were incensed by these 
charges. One group of former volunteers in El Salvador called 
the articles exaggerated, sensational, and riddled with 
falsehoods. So there are some very different perspectives.
    Can you first generally respond to the article, and then 
specifically, if you can talk about steps to improve follow-up 
after a crime is committed, talk about where we are today. But 
if you could respond, I think it would be helpful.
    Mr. Vasquez.  Thank you, Mr. Chairman. First of all, in 
general terms I have read the articles, and I will say that, 
first and foremost, I do not think the Peace Corps should ever 
stop or deviate from learning from the experiences and episodes 
that have occurred over the years. The majority of those that 
were described in the articles preceded my time, including Mr. 
Poirier, but I have examined some of those to try to learn from 
them to see what we can do differently.
    But I will tell you that in my view there were some 
distortions. As an example, it was cited that a volunteer dies 
in service once every 2 months. The fact of the matter is I 
have been Director of the Peace Corps for over 2 years, and 
every loss of life is tragic and sad, but to represent that a 
volunteer dies every 2 months when, during my time, 3 
volunteers have died in service is a bit of a distortion and a 
bit of a misrepresentation. If I were a reader and saw that 
account, it would cause me some concern.
    But the fact of the matter is that we have taken very 
significant steps and implemented a number of new processes and 
procedures both in the field and here in Washington to enhance 
the locations, the sites where volunteers work, the reporting 
processes, the guidance that is provided to countries on where 
volunteers should be located, establishing new positions in 
each country. As an example, the new safety and security 
coordinators, which did not exist just a short couple of years 
ago, who are now in place who are responsible in country for 
the locator forms, to ensure that there is compliance with the 
standards and the guidance that the Peace Corps has put in 
place. So there have been very significant changes that have 
now been implemented throughout Peace Corps in response to a 
world that is changing, a world that is evolving.
    If I may comment specifically to one particular point. I am 
committed to expanding and growing the Peace Corps, but only 
when it is appropriate and in a strategic manner. Part of that 
strategy is ensuring that we have, as Senator Voinovich has 
referred to, the infrastructure to be able to sustain the 
growth of the Peace Corps without compromising safety and 
security. As a former public safety official, I can tell you 
that part of risk management is constant risk assessment, and 
we are constantly reassessing our procedures and our policies, 
with the cooperation and support of our field staff to give us 
guidance, to give us input and feedback on what is going right, 
what is going wrong, and what we can do better.
    Senator Coleman.  One area the GAO raised had to do with 
volunteer assignments and whether they are defined properly, 
that if they are poorly defined, what it creates is idle time 
and limited contacts with counterparts. And you have, as a 
result of that, folks more apt to run into security problems. 
The GAO has written that ``at posts we visited, we found 
instances of volunteers whose counterparts had no plans for 
their volunteers when they arrived at their sites. Only after 
several months and much frustration did the volunteers find 
productive activities.''
    Can you just discuss efforts to improve definition of 
volunteer assignments?
    Mr. Vasquez.  Well, first of all, an acknowledgement that I 
make right up front is that there are areas where we have 
sought to improve and enhance the relationship between host 
organizations, partner organizations, communities in the Peace 
Corps to be more definitive about those jobs. In fact, in the 
global survey that was done, the percentage of volunteers who 
described the match between their skills and the job they were 
doing was very, very high. I think it was in the 80th 
percentile who responded saying that their skills matched the 
job that they were doing.
    I think it is a result of providing more specific guidance 
to our staffs in country to ensure that when volunteers are 
placed, they are placed in locations where they can make a 
meaningful contribution to the community in which they serve, 
but that volunteers can also take something from the experience 
of having served. So we have been more precise in the guidance. 
We have set standards for ensuring that volunteers are 
evaluated, and where a volunteer feels that he or she is not a 
good match, they are encouraged to communicate with country 
staff to indicate the kind of disconnect that may occur from 
time to time to hopefully reestablish them in a place or to 
take corrective action so that there is a better and clearer 
understanding.
    Mr. Chairman, I agree with you. Idle time with volunteers 
is our worst enemy. Consequently, it is in our best interest--
and I think we have done a fairly good job of making sure that 
guidance is available to country staff so that we minimize 
those instances where volunteers may feel a bit out of place 
and not connected with the job and the site they have been 
assigned to.
    Senator Coleman.  You mentioned in your testimony the areas 
where cell phone service is available and then you talked about 
three modes of communication. On the cell phone issue, do folks 
pay for that themselves? Is it part of the equipment that they 
are given? And could you be more specific, in those areas where 
there is not adequate cell phone coverage, what kind of modes 
of communication do volunteers have with country directors and 
others?
    Mr. Vasquez.  First of all, the cell phone issue is one 
that has been evolving. As you know, cellular technology is 
evolving very, very quickly in some of these countries. So when 
volunteers are able to acquire cell phones, we provide in our 
communications allocation that is made to volunteers the 
opportunity to acquire and to maintain a cell phone.
    However, I must emphasize that part of our strategy is to 
ensure that we have backup positions so that we are not fully 
reliant on cellular technology. To do so I think would be 
compromising the safety and security of volunteers. It is just 
one avenue.
    The other avenues that we use are land-line communications, 
local law enforcement that we have communications with, and 
also the host family or the host organization where volunteers 
may be working have different modes of communication that we 
are able to use and have on a number of occasions.
    We test our processes. I might add at this time that we 
require that our posts engage in an assessment and an 
evaluation of how our communication systems work so that we 
check the layers of communication that exist in country to 
ensure that they are viable and that they work and that they 
are in place and that they are effective, and where they are 
not, they are corrected.
    Senator Coleman.  Thank you, Director Vasquez.
    Senator Dodd.
    Senator Dodd.  Well, thank you very much, Mr. Chairman. 
Again, thank you, Director Vasquez, for your testimony here 
this morning.
    Let me, first of all, if I can, ask a general question. To 
what do you attribute this increase in the acts of violence? 
And then related, where are they coming from? Is it mostly 
urban areas? Are there specific regions within the Peace Corps 
that seem to have higher incidences of assaults than others? 
Give us some picture, if you can, globally of, one, why this 
seems to be occurring in your own mind or based on assessments 
that have been done. If there are any areas that have a higher 
rate than others, I would be curious to know about that.
    Mr. Vasquez.  First of all, Senator, the fact is that in a 
number of categories, the crime against volunteers over the 
last 2 or 3 years has been decreasing. It has not been 
increasing. So we have seen a downturn. We have provided 
reports that outline the specifics that indicate things like 
major sexual assaults, which have shown a decrease in the 
number of crimes being perpetrated against volunteers.
    Senator Dodd.  So the number, 1991 to 2002, 125 percent 
increase, that number is actually down, 2003-2004, up to now?
    Mr. Vasquez.  That is correct, yes. So we have seen a 
decrease in the amount of crimes being perpetrated against 
volunteers. What we do find is that most volunteers, as I 
stated in my testimony, feel safe where they live, where they 
work. I think based on the information that I have reviewed in 
the last several months, the exposure, the vulnerability to 
crime increases in many instances--and you having been a 
volunteer, I think you can certainly appreciate what I am going 
to say about places like the Dominican Republic where you 
served, that once you get into capital cities, into highly 
urbanized areas, the problems of theft, the problems of 
pickpocketing, and other things that occur, occur sometimes on 
transportation systems, on buses, and other modes of 
transportation. Our indicators suggest that that is when 
volunteers feel most vulnerable.
    When we become aware of situations and conditions where we 
see an increase in crimes that are affecting volunteers, be it 
public transportation or otherwise, country staffs conduct an 
evaluation with the safety and security coordinators. It may 
include the regional security officer at the embassy. It may 
include other safety and security personnel, local law 
enforcement to offer new guidelines, offer modification, offer 
alternative modes of transportation.
    For example, if in an urban area we find that volunteers 
are being victimized on buses as a mode of transportation, the 
country director may authorize the use of private taxis for 
volunteers to be brought in from the fringes of a city to the 
country office. So we take corrective action as we conduct our 
risk assessments and detect that there are issues and problems 
that may be surfacing, depending on the location, depending on 
the country.
    As to the areas where we have seen increases, we have 
probably seen a slight increase in crimes against volunteers 
occurring principally in Central America, some in South 
America, and in the Caribbean, which we call the Inter-America/
Pacific Region in the Peace Corps. So those are the areas where 
we have seen a slight increase, but that is essentially where 
we've seen a increase in the number of crimes, but it has not 
been dramatically significant.
    Senator Dodd.  Compare these numbers. I apologize for not 
knowing them myself, but the rates of attrition. The rate of 
attrition is around 30 percent, as I am told. Correct me if I 
am wrong about that. That attrition rate, I presume, you have 
got a relatively high rate of attrition I think initially. At 
least it seemed to me years ago. I do not know if it is still 
true, that you get high attrition rates early on in a program. 
Tell me how this is affecting the violence issues, the assault 
issues. Is that affecting attrition?
    Mr. Vasquez.  It is not. I have looked at some numbers just 
in the last week, and the reasons that volunteers cite for 
early termination, many of them are personal in nature, medical 
issues that emerge at home, professional opportunities that 
develop. A volunteer decides that he or she wants to go to grad 
school. They secure a job that they did not expect. So there 
are a number of reasons. The 30 percent that you cite in the 
termination rate is one that is based on that 27-month period. 
On an annual basis at Peace Corps globally it is about 10 
percent of the volunteers who early terminate. Again, the list 
of reasons that volunteers terminate is very, very long, but 
most of them are personal in nature, family-related issues. 
Illness may be a factor for some. And as the Peace Corps 
diversifies, that is, older volunteers, married couples, start 
coming into the Peace Corps in greater numbers, we begin to 
see, of course, the corresponding impact of reasons and causes 
for people to early terminate.
    Senator Dodd.  Some time ago, the Peace Corps counted an 
assault as a single incident, even when there might be more 
than one volunteer involved, rather than identifying, for 
instance, where there were three volunteers who were assaulted 
as three events, as one event. Are you still doing that?
    Mr. Vasquez.  Yes, Senator, we are doing it. We are using 
the system that we have discussed and had evaluated by the 
Department of Justice, Bureau of Crime Statistics, which uses 
an incident-based reporting system. It is a system the Peace 
Corps has used now for I think about 10 years, and it is a 
system that is established to evaluate incidents because we use 
them to train, to change policies, to change practices, to 
change procedures. I was in law enforcement. We used incident-
based reporting to establish incidences and crime trends so 
that then we could take corrective action. Peace Corps uses the 
same approach which is to evaluate incidents as they occur. 
Even though there may be multiple victims, we certainly provide 
assistance, support, remedy, and recourse, legal and otherwise, 
for all of the victims. That is not diminished. We use it on an 
incident-based platform or methodology because we look at the 
incidents so that we can learn from them; we can train 
accordingly, and we can reform our practices where we see a 
pattern developing of incidents of crimes against volunteers.
    Senator Dodd.  Let me ask you the obvious question here. 
You told me at the outset of my questioning that the actual 
numbers are down in 2003 and 2004 from the 125 percent that the 
Dayton papers identified.
    Mr. Vasquez.  Yes.
    Senator Dodd.  To what extent would you alter your answer 
to my question if you counted the number of volunteers that 
were actually assaulted as opposed to the incidents?
    Mr. Vasquez.  I could provide specific numbers, if you 
would allow me, as a follow-up. There is a very slight 
difference or moderation based on the numbers that I have been 
shown. We keep those statistics. We have those statistics 
available.
    I might also add that under our new process one of the new 
offices that we have created at Peace Corps is an office that 
is dedicated solely to evaluating crime statistics and data 
relative to incidents and number of volunteers who were 
victimized to look at the occurrences, to look at the 
incidents, and to make recommendations on practices and 
procedures that we might change our in training components. 
What we are basically doing is looking beneath the numbers to 
see what kind of causes, what kind of practices, may be 
contributing to an escalation.
    Senator Dodd.  But you understand my question.
    Mr. Vasquez.  Yes, sir.
    Senator Dodd.  So your numbers do not change then. There 
still is a decline. We are not looking at necessarily more 
volunteers who might have been assaulted in a single incident, 
my point being is you count incidents. You do not count 
volunteers.
    Mr. Vasquez.  That is correct.
    Senator Dodd.  So the numbers do not change. Still the 
numbers are going down of the numbers of volunteers who have 
been assaulted.
    Mr. Vasquez.  I would not be able to respond to you 
directly but can provide supplemental information on the 
specific number, whether there would be a significant impact. I 
have seen a snapshot of the last 5 years or so, and if you look 
at the number of incidents, the number of volunteers impacted 
in those incidents and compare them year to year, the 
difference in the number of victims per year is very, very 
slight.
    Senator Dodd.  Good. Mr. Chairman, it might be worthwhile 
to get that.
    Senator Coleman.  Please provide that, Director Vasquez. 
Thank you.

    [The information referred to above follows:]

             Overview of Major Sexual and Physical Assaults
                 by Number of PCVs Involved, 2000-2004


                                                      2000
----------------------------------------------------------------------------------------------------------------
                                                                  Number of
              Type of incident                Total Number of   Events w/more   Total Number of     V/T Years
                                                   Events        than one PCV         PCVs
----------------------------------------------------------------------------------------------------------------
Major Sexual Assault........................              11                3               16             4170
Major Physical Assault......................              26                6               37             6831
----------------------------------------------------------------------------------------------------------------
Source: Assault Notification and Surveillance System (ANSS). Data is accurate as of 6/30/04.



    In 2000, the breakdowns of assaults are as follows:
        <bullet> Major Sexual Assaults
                <bullet> 8 events involved 1 PCV
                <bullet> 2 event involved 2 PCVs
                <bullet> 1 event involved 4 PCVs

        <bullet> Major Physical Assaults
                <bullet> 20 events involved 1 PCV
                <bullet> 3 events involved 2 PCVs
                <bullet> 2 events involved 3 PCVs
                <bullet> 1 event involved 5 PCVs


                                                      2001
----------------------------------------------------------------------------------------------------------------
                                                                  Number of
              Type of incident                Total Number of   Events w/more   Total Number of     V/T Years
                                                   Events        than one PCV         PCVs
----------------------------------------------------------------------------------------------------------------
Major Sexual Assault........................              23                0               23             4089
Major Physical Assault......................              21                8               36             6729
----------------------------------------------------------------------------------------------------------------
Source: Assault Notification and Surveillance System (ANSS). Data is accurate as of 6/30/04.



    In 2001, the breakdowns of assaults are as follows:
        <bullet> Major Sexual Assaults
                <bullet> 23 events involved 1 PCV

        <bullet> Minor Physical Assaults
                <bullet> 13 events involved 1 PCV
                <bullet> 5 events involved 2 PCVs
                <bullet> 2 events involved 3 PCVs
                <bullet> 1 event involved 7 PCVs

                                                      2002
----------------------------------------------------------------------------------------------------------------
                                                                  Number of
              Type of incident                Total Number of   Events w/more   Total Number of     V/T Years
                                                   Events        than one PCV         PCVs
----------------------------------------------------------------------------------------------------------------
Major Sexual Assault........................              17                0               17             3808
Major Physical Assault......................              20                5               29             6277
----------------------------------------------------------------------------------------------------------------
Source: Assault Notification and Surveillance System (ANSS). Data is accurate as of 6/30/04.

    In 2002, the breakdowns of assaults are as follows:
        <bullet> Major Sexual Assaults
                <bullet> 17 events involved 1 PCV

        <bullet> Major Physical Assaults
                <bullet> 15 events involved 1 PCV
                <bullet> 2 events involved 2 PCVs
                <bullet> 2 events involved 3 PCVs
                <bullet> 1 event involved 4 PCVs



                                                      2003
----------------------------------------------------------------------------------------------------------------
                                                                  Number of
              Type of incident                Total Number of   Events w/more   Total Number of     V/T Years
                                                   Events        than one PCV         PCVs
----------------------------------------------------------------------------------------------------------------
Major Sexual Assault........................              11                2               13             3931
Major Physical Assault......................              20                6               35             6656
----------------------------------------------------------------------------------------------------------------
Source: Assault Notification and Surveillance System (ANSS). Data is accurate as of 6/30/04.

    In 2003, the breakdowns of assaults are as follows:
        <bullet> Major Sexual Assaults
                <bullet> 9 events involved 1 PCV
                <bullet> 2 events involved 2 PCVs

        <bullet> Major Physical Assaults
                <bullet> 14 events involved 1 PCV
                <bullet> 2 events involved 2 PCVs
                <bullet> 2 events involved 3 PCVs
                <bullet> 1 event involved 4 PCVs
                <bullet> 1 event involved 7 PCVs

    Senator Dodd.  I see the time is up. I will come back. We 
are going to have another round, I suppose, of questions too.
    There is a piece that I have been asked by Senator Sarbanes 
to include in the record, some comments by Hugh Pickens, who is 
the publisher of the Peace Corps Online, regarding the 5-year 
rule. And I would like to ask unanimous consent to include 
that.
    Senator Coleman.  Without objection.

    [The letter referred to by Senator Dodd follows:]

  A Critical Flaw in the Proposed Peace Corps Safety and Security Bill

    Mr. Chairman:
    My name is Hugh Pickens, I served in the Peace Corps in Peru from 
1970 to 1973, I publish a Web Site and News Forum that is read by 
100,000 Returned Peace Corps Volunteers and Friends of the Peace Corps 
every month, and I am here to point out a critical fault in the 
proposed ``Peace Corps Safety and Security Bill of 2003'' that needs to 
be corrected before this bill passes the Senate.

                           THE FIVE-YEAR RULE
    The Peace Corps is unique among federal agencies because employees 
receive time-limited appointments and most employees are limited to a 
maximum of five years of employment with the agency. The five-year rule 
has been a cornerstone of Peace Corps' organizational structure and has 
kept the Peace Corps institutionally young and innovative over the past 
40 years. Its purpose is to ensure that the agency does not fall into 
the trap of entrenched government bureaucracies where it is impossible 
to fire a civil servant no matter how incompetent he or she may be. As 
a volunteer organization, the principle has been that neither Peace 
Corps volunteers nor Peace Corps employees have lifetime employment at 
the agency.
    The five-year rule was instituted by Sargent Shriver and was 
codified into law as an amendment to the Peace Corps Act in 1965. Over 
the years there have been numerous critiques of the five-year rule: 
that it interferes with the Peace Corps' institutional memory, that the 
agency continually has to break in new people, and that the Peace Corps 
has to let people go just when they are getting good at their jobs.
    At the same time the rule has been modified so that a certain 
percentage of Peace Corps employees are eligible to have their 
employment extended for up to 8\1/2\ years (three 2\1/2\ year terms 
plus a one year extension). Still the principle of ``In, Up, and Out'' 
has remained the same over the past 40 years--to keep the Peace Corps 
institutionally young by continuously bringing in new blood.
An Exemption to the Five-Year Rule
    One year ago a clause was put into the ``Consolidated 
Appropriations Bill of 2003'' that exempted employees working in Safety 
and Security from the five-year rule:

          Quote:

          Provided further, That the Director of the Peace Corps may 
        make appointments or assignments, or extend current 
        appointments or assignments, to permit United States citizens 
        to serve for periods in excess of 5 years in the case of 
        individuals whose appointment or assignment, such as regional 
        safety security officers and employees within the Office of the 
        Inspector General, involves the safety of Peace Corps 
        volunteers:

          Provided further, That the Director of the Peace Corps may 
        make such appointments or assignments notwithstanding the 
        provisions of section 7 of the Peace Corps Act limiting the 
        length of an appointment or assignment, the circumstances under 
        which such an appointment or assignment may exceed 5 years, and 
        the percentage of appointments or assignments that can be made 
        in excess of 5 years.

    Director Vasquez supported this change to the five-year rule and 
wrote letters to over fifty members of Congress on the Conference 
Committee for the Appropriations bill urging them to support this 
change to the five-year rule.
This Bill Expands the Exemption
    The ``Safety and Security Bill'' that is now under consideration 
takes the exemption one step further and provides an exemption to the 
five year rule to employees who work in safety and security, members of 
the Inspector General's office and personnel involved in medical 
services.
    This Bill also contains a clause for the Comptroller General to 
study the five year rule and report back in one year with 
recommendations, if any, for legislation to amend provisions of the 
Peace Corps Act relating to the five year rule.
    These exemptions will create a two-tiered employment structure at 
the Peace Corps which will damage morale at the agency. More 
importantly, these ``lifers'' will begin to dominate PC operations 
given their longevity and ``institutional knowledge,'' resulting in 
cynicism and hard feelings among non-tenured staff. Returned Volunteers 
also fear that over the next few years the increasing numbers and 
influence of safety and security employees not subject to the five-year 
rule will change the nature of the Peace Corps.

                                      Hugh Pickens,
                             Publisher, Peace Corps Online,
                                                     Baltimore, MD.

    Senator Coleman.  Senator Voinovich.
    Senator Voinovich.  Thank you, Mr. Chairman.
    You were saying that the incidents of violence are down. Is 
there any area of the world where incidents of violence are up?
    Mr. Vasquez.  Again, Senator, I think the area of the 
Inter-America/Pacific Region is an area where we have seen an 
increase, a slight increase. I cannot offer you specific 
numbers right now, but that is the region where we have seen 
some slight increases, and we are taking steps to address some 
of the issues, some of the considerations, and to evaluate what 
we might be able to change or do differently to reduce and 
minimize the impact on volunteers.
    Senator Voinovich.  How many volunteers do we have that are 
in Muslim countries?
    Mr. Vasquez.  Approximately 20 to 22 percent of the 
volunteers serving in the Peace Corps are serving in Muslim 
countries.
    Senator Voinovich.  Have you noticed any increase in 
incidents since 9/11?
    Mr. Vasquez.  No, Senator, none whatsoever. No variation in 
terms of occurrences.
    Senator Voinovich.  In other words, the fact that there are 
Peace Corps volunteers in a Muslim country has not been a 
source of irritation in terms of their presence there? There 
has been some feeling of secularism, bringing values that are 
not consistent with the faith of the individuals that are 
there.
    Mr. Vasquez.  No, sir, on the contrary. There has been 
tremendous support. Last year we reentered or entered 
Azerbaijan, Albania, and Chad, countries that are Muslim 
countries, and I just returned from a visit to Azerbaijan and 
our program has had a tremendous launch in that country, 
enjoying great success, embraced by governmental leaders, 
embraced by communities. The volunteers have been on the ground 
for about 4 months and have received a tremendous welcome in 
that country, and we continue to see that pattern throughout. 
So we have seen no impacts, and we do monitor very, very 
closely all countries in Peace Corps, but we monitor countries 
throughout the world. In this instance, we note no events or 
occurrences that would cause us concern.
    Senator Voinovich.  I am interested in it. If you have got 
any extra information on it and can make it available, I would 
appreciate it because I think that that is a wonderful area 
where we can, with the growing fundamentalism and some 
extremism, have an outreach of people going into these 
countries and spending time with individuals, again bringing to 
them what our value system is, which I think is very, very 
important and could be a real area for some real good 
initiative in terms of breaking down some of the misconceptions 
that we have been seeing lately around the world.

    [Additional information submitted by Mr. Vasquez follows:]

  Peace Corps Programs in Predominantly Muslim Countries--An Overview

    The Peace Corps continues to support programs in countries with 
predominantly Muslim populations, namely, countries in the Sahel, North 
Africa, Middle East, Central and South Asia. Three out of four of our 
new country entries in 2003 were in predominantly Muslim countries--
Albania, Azerbaijan, and Chad--bringing our total program involvement 
from 14 nations in 2002 to 17 in 2004. We also re-entered Jordan and 
Morocco, increasing the total number of Volunteers working in countries 
with predominantly Muslim populations to over 20 percent. The Peace 
Corps' mission in these countries matches our efforts worldwide and 
continues to be important. Host communities are exposed to positive and 
personal images of Americans, and returning Volunteers share their new 
understanding of these different cultures with friends and family in 
the United States.
    As is true throughout the world, our potential to expand into 
additional countries with Muslim populations is dependent on a written 
expression of interest from a senior host government representative, a 
positive in-country assessment, and available resources. The funding 
must be available to support administrative start-up, training, and 
Volunteer program support. The inviting country must meet safety and 
security criteria, including a stable operational environment; access 
to effective and reliable communications; available, safe and 
affordable housing; access to essential services, such as health care 
and banking; and access to evacuation logistical support.
    Likewise, expanding the number of Volunteers in any current country 
is influenced by resources, program opportunities, and safety and 
security considerations. Our research verifies that safety and security 
concerns are country specific and show no ethnic, religious, or 
regional pattern.
    The Peace Corps tracks assault events, both major and minor, 
through a sophisticated data tracking system. In reviewing the data, 
there is no pattern of assault events indicating a difference in the 
safety and security of Volunteers in countries with significant Muslim 
populations versus other Peace Corps countries. In fact, the region 
with the highest rate of major assault events over the past five years 
is the region without predominantly Muslim populated countries.
    Thus, based on our data, Volunteers serving in Sahel, North Africa, 
Middle East, Central and South Asian countries are equally safe and 
secure as Volunteers world wide. We monitor individual country 
situations carefully, and if a situation precludes Volunteers being 
able to continue their work and community interaction effectively, we 
reassess our presence in the country. We see no regional or ethnic 
patterns to these assessments.

    Senator Voinovich. I would also like to see the change in 
orientation that you have, if you have got a piece of paper on 
what the orientation was before you came in and what the 
orientation is now, just to get a feel for how it has been 
changed.

    [Additional information submitted by Mr. Vasquez follows:]

           Additional ``Orientation'' on Safety and Security

    Staging is the two-day orientation for Peace Corps trainees that 
takes place in the United States prior to departing for their host 
country. In the summer of 2002, the Peace Corps extended staging from a 
one-day to a two-day orientation and developed a new accompanying 
curriculum to focus almost exclusively on safety and security and the 
importance of personal responsibility. This reinforces the themes 
articulated during the application process and flows directly to the 
two to three months of intense pre-service training that follows. The 
staging includes training on:

  <bullet> Peace Corps' overall approach to safety and security;

  <bullet> Awareness of policies and procedures that must be followed;

  <bullet> Acceptance of cultural differences that exist and 
        willingness to make adjustments;

  <bullet> Awareness of risks and how they can be managed; and

  <bullet> Understanding that Volunteers, Peace Corps staff, community 
        have specific responsibilities for Volunteer safety.

    In addition to the information provided by recruiters and others in 
the application process thus far, the staging kit that is sent out 
several weeks prior to staging now contains a Peace Corps document 
entitled ``Approach to Safety and Security'' that outlines key points 
on safety and risk management.
    Another new component to staging is the presence of a 
representative from the Country Desk Unit throughout the staging event. 
Not only is this individual a key contact for Volunteers and their 
families, but the Country Desk representative is available to provide 
country-specific information for trainees on expectations, cultural 
sensitivities, and security incidents.

    Senator Voinovich. Do you keep track of how often contacts 
are made with individuals who are serving? Do you have 
statistics on that? How often does the country director or 
associate country director communicate with an individual?
    Mr. Vasquez.  Just for clarification, Senator, contact with 
the volunteers?
    Senator Voinovich.  Yes. Once a week, once a month, once 
every 6 months? You say you have got the new safety and 
security people and you have got them out around the world, but 
I would be interested in knowing just how often do they have 
that contact.
    Mr. Vasquez.  Well, if I may respond very briefly, first of 
all, there are minimum standards that are established by Peace 
Corps, that a volunteer must be visited at least two times 
during the first year, one time during the second year. That is 
minimal guidelines.
    What is more important to note is that throughout the year 
the trainers, the staff, the support staff, the medical staff, 
and other staff within that country will visit with the 
volunteers. So there is probably in most countries a greater 
frequency of that. There are volunteer leaders, what we call 
wardens, individuals who are volunteers but who are responsible 
for a certain area in the context of safety and security, the 
interaction with the host organization or the partners, the 
collaborators with whom the volunteers work.
    So there is a frequency of interaction, and although at 
first glance the minimal guidelines may seem few and far 
between in terms of twice a year, the fact of the matter is 
that the staff within country, beyond just the country 
director, interact with volunteers on an ongoing basis. So the 
frequency may be higher, depending on the volunteer, depending 
on the kind of work and the proximity of the volunteer.
    Senator Voinovich.  I am not really interested in having 
every move monitored or statistic kept track of, but if I gave 
you the names of two or three individuals and asked you, could 
you let me know how often they have been contacted? Could you 
do that?
    Mr. Vasquez.  I suspect we could provide you some fairly 
accurate information on that.
    Senator Voinovich.  So you would have a pretty good idea. 
You would have a file on an individual and in that file would 
be information regarding how often they had visited?
    Mr. Vasquez.  I do not know specifically how a country 
would keep a specific file on a volunteer, but I could 
certainly provide that information to you.
    Senator Voinovich.  In terms of the issue of communication, 
since you have been there, is there a requirement that there be 
communication, that they have to be available?
    Mr. Vasquez.  Yes, Senator. There is a requirement not only 
that we have a communications plan in place within our 
emergency action plan. Maybe I can take a moment here. Every 
country is required to have an emergency action plan. That plan 
is developed and designed to deal with any and all scenarios 
that may develop in a country. I will cite the six evacuations 
that have been conducted on my watch. It has ranged everything 
from countries like Madagascar to Cote d'Ivoire, to the SARS 
situation in China. Every one of those countries, every one of 
those evacuations was successful in great part because our 
communications plans worked because when we approve an 
evacuation, we exercise that communications plan to let the 
volunteers know that they are either to consolidate or they are 
going to need to prepare to leave country for emergency 
reasons.
    So we do have a communications plan in every country. It is 
tested to ensure that it is in place, that it works. Perhaps 
most importantly, in response to the General Accounting Office 
concern about some inconsistency, we now ensure that all of our 
posts are compliant and that they all meet the standards so 
that we minimize; and frankly, our goal is to eliminate any 
inconsistencies that may occur. We require our posts to test 
their plan, to ensure that it works, and when it does not work, 
to take corrective action where appropriate.
    Senator Voinovich.  But fundamentally they have got better 
communications than they did before you came on board.
    Mr. Vasquez.  I believe so, Senator. If I may just add. Of 
course, as I mentioned earlier in my testimony, cellular 
technology has evolved almost on a monthly basis in some 
countries. So as that net of communication expands, then it 
gives us an opportunity to create one more layer of 
communication and a greater linkage. Frankly, I would not take 
credit for the evolution of the cellular technology, but it 
sure is helping us.
    Senator Coleman.  Thank you, Senator Voinovich.
    We are going to do a 5-minute follow-up round of 
questioning.
    Director Vasquez, I want to talk a little bit about the 5-
year rule. I understand Senator Sarbanes also had some concerns 
about that. In your testimony, you noted that there were 23 
exemptions, 19 of which are safety related. I will lay out the 
questions and then you can answer them in whatever order you 
see fit.
    One, I would like to understand what is the rationale is. 
Second, the exemptions. Have those been done by executive 
order? Is there any legislation needed to deal with this 5-year 
rule? Specifically talk to me about the impact it has on 
volunteer safety.
    Mr. Vasquez.  Well, Mr. Chairman, 2 years ago in our 
appropriations bill, language was included that authorized the 
Director of the Peace Corps to exempt employees who worked in 
safety and security from the 5-year rule. Conceptually the 5-
year rule has been viewed as a way of generating a turnover or 
a rotation in Peace Corps that keeps the agency, as some have 
described it, fresh, energized. It minimizes the chances of an 
entrenched bureaucracy from taking hold and therefore maybe 
minimizing or affecting the creativity that I think makes the 
Peace Corps such a unique agency and such a unique 
organization.
    However, the 5-year rule--and as I have said to some folks, 
there are some days I wake up and I think it is terrific, and 
there are other days I wake up and I think it could use some 
changes because what you do lose in the process in some cases 
is institutional memory, some continuity. In fact, in some 
cases, you lose talent that may contemplate or consider coming 
to work at Peace Corps, but we lose some candidates because 
they do not want to be bound to a limitation of service.
    So with safety and security, we conducted an evaluation and 
identified 23 positions that we know to be fully dedicated to 
volunteer safety and security. Those positions have now been 
cleared to be exempt from the 5-year rule.
    The second wave gets a little more complicated, and that is 
why in my testimony I pointed out that we have retained a third 
party consultant to do an evaluation and provide us some 
criteria and recommendations on what the second grouping should 
be of those who should be exempt from the 5-year rule. Is it 
someone whose job is 20 percent safety and security, 30 
percent, 50 percent, 60 percent? We need some clarity on those 
kinds of things. So we are conducting that evaluation, and as 
soon as that report is available, it is my intention to review 
and, where appropriate, approve those positions.
    Senator Coleman.  Please keep us posted on the progress of 
that study. I would like to have that information as soon as 
possible.
    Mr. Vasquez.  Certainly.
    Senator Coleman.  I would like to talk just a little bit 
about female volunteers. The GAO report found that I think more 
than a third of female volunteers report sexual harassment on a 
monthly basis. Have you found that single female volunteers 
posted alone suffer more incidents of sexual assaults and are 
there any extra self-defense measures that are taken to protect 
these volunteers?
    Mr. Vasquez.  On the first question, the issue of women in 
the Peace Corps, we have seen an increase in the number of 
women in the Peace Corps. Up to about 60 percent of all of the 
volunteers today are women. Consequently we have revised our 
training components at the training level, when volunteers come 
into service initially during that first training phase, to 
address and provide information to women volunteers about some 
of the conditions and circumstances that they may confront and 
face during the course of working, living in a community, and 
commuting in a community. So we try to put some information on 
the table so that that is available. We are continually 
providing in-service training to be responsive to that.
    In terms of the statistics on victimization, on sexual 
harassment, or comments, cat calls, and other things like that, 
it is on a country-by-country basis, and I really could not 
provide you, although we can do some research and provide maybe 
a more narrow profile, but based on the statistics that I have 
reviewed, it varies from country to country. But we try to 
respond to that with ongoing training.
    Senator Coleman.  Does this training include self-defense 
training?
    Mr. Vasquez.  I was going to comment that the subject comes 
up from time to time. I will tell you that having been in law 
enforcement and having been an officer who designed a program 
that every high school girl or woman in my community back in 
California received as training, our emphasis was not self-
defense. Our emphasis was crime prevention. Our emphasis was 
about managing self in terms of circumstances, being aware of 
your surroundings. Prevention, frankly, at least in my mind, 
having taught that area, is about crime prevention because 
there is a high risk or an element of risk that when someone 
resists a purse snatch or some other crime, unless you are 
very, very well trained and you have maintained your capacity 
to respond physically, there could be some peril, which then 
could complicate a situation and frankly make it worse than the 
initial encounter. So we are not averse to it, but I think 
there would be some pretty extensive studies and evaluation 
that would need to be conducted in light of some of the risks 
that are tied to ``self-defense.''
    Senator Coleman.  So I am clear then, you mean self-
protection in a broader context, being aware of your 
surroundings, making sure that you are not distracted. 
Oftentimes a lot of incidents occur when people are on cell 
phones. That kind of broader self-protection, is that provided 
then on a regular basis?
    Mr. Vasquez.  It is part of our training to talk about the 
kinds of risks that volunteers are subjected to when they are 
on public transportation systems in their communities. There 
are communities where the volunteers set up an alarm system, a 
notification system, whether it be a whistle, whether it be a 
verbal signal. Women volunteers have shared with me that they 
have a system set up in their host community so that if they 
are in a small community and they are living with a host 
family--and a considerable percentage do--then they have a 
system set up so that when that whistle or some other signal is 
activated, the family knows to respond or knows that the 
volunteer may need some assistance or may be in distress. So 
there are different things that are talked about, things that 
are shared with volunteers, practices that have worked 
successfully both at work, at home, and while in public places, 
and that is done frequently.
    Senator Coleman.  Thank you.
    Senator Dodd.
    Senator Dodd.  Thanks very much.
    I think your point, Mr. Director, is a very good one on 
prevention. I think that makes the most sense.
    I was just going down the summary, just to pick up on the 
Chairman's questions. Again, there is nothing worse than people 
who go back, ``when I was in school, we walked barefoot.'' So I 
will preface my comments.
    When I was a volunteer, I think the male to female ration 
was 2 to 1. I think those numbers are right. Back in the 
earlier days of the Peace Corps, the majority of volunteers 
were male. There has been a significant change in the profile 
of a volunteer today. As you point out, 60 percent are women.
    But I was intrigued going down these numbers of the trends 
in the 2002 safety report. On the sexual assaults, in more than 
44 percent of the incidents it was a friend or an acquaintance 
of the victim. The volunteer was alone with the assailant in 86 
percent of the cases. Those two statistics seem to jump out. 
The point being that I do not know what the profile looks like 
today. I am sure it varies from country to country, but the 
idea of having pairs of volunteers, particularly with women, in 
more remote areas or places where there is going to be less 
opportunity for people to come and respond to whistles or 
whatever the prevention mechanisms you suggest. I would be 
curious whether or not the data supports this. Whereas in more 
congested areas where there are apt to be people who can hear 
something going on, you may have less of a problem. It just is 
raised as a point of interest. The tandem approach with people 
who may be more vulnerable to attack may do a lot to reduce the 
incidents of it.
    I do not know if that is part of the practices or not. Is 
it part of that today, or how do you look at that? You do not 
make decisions on where to locate volunteers based on that at 
all?
    Mr. Vasquez.  Senator, what we do is we provide very 
specific guidance to the posts and to the staff in country as 
to what the expectations should be and what the standards 
should be for housing and locating a volunteer. Typically, 
before a volunteer lives at his or her site, assuming they are 
not going to live with a host family (and a considerable 
percentage do), every volunteer lives with a host family 
initially until they have identified a location for permanent 
housing.
    The numbers of volunteers who find their housing 
satisfactory and safe is again in the 90th percentile. So I 
think our approach is working in the context that we do not 
just send a volunteer, man or woman, to a community and say, 
well, go out and find some housing, you are on your own. We 
place them first with a host family in the community so that 
they get the opportunity to----
    Senator Dodd.  No. I understood that. I am talking about 
actually pairing up volunteers in more remote areas where--in 
fact, these numbers are holding up--where you get people 
alone--that the assailant is a known person to the victim, it 
seems to me that, where possible, having tandem volunteers 
serving in an area makes more sense than not. That is the 
general point I am making. Obviously, there are exceptions to 
this, but I am just wondering, given the high rate of women as 
volunteers today, whether or not that is a presumption we try 
to make and whether or not that actually might reduce the 
number of assaults we are seeing in the sexually related area.
    Mr. Vasquez.  We do not have information that would suggest 
to us----
    Senator Dodd.  I am curious about that.
    Mr. Vasquez (continuing).----that doubling volunteers, or 
clustering, as they call it, would impact the numbers.
    Senator Dodd.  Let me raise that as a question for you and 
maybe you can get back and give us some sense of that.
    Mr. Vasquez.  Certainly.

    [Additional information submitted by Mr. Vasquez follows:]

Research on the Relationship Between Contact With Other Volunteers and 
                       Volunteer Safety (Pairing)

    In the bi-annual Volunteer survey, we ask questions about the 
overall Volunteer experience including questions about perceptions of 
safety. The results from the most recent survey (2002) show the 
following:

  <bullet> Volunteers feel increasingly safe the smaller the community 
        in which they live and work, and this trend is quite 
        significant. They feel most safe on islands and in small 
        villages, and least safe in capital cities.

  <bullet> There is a correlation between Volunteers feeling less safe 
        in capital cities and the frequency of seeing other Volunteers. 
        The more they see other Volunteers, the less safe they feel in 
        capital cities.

  <bullet> There is a correlation between Volunteers feeling  
        integrated into their communities and the frequency of seeing 
        other Volunteers. The more they see other Volunteers the less 
        integrated they feel in their communities--a key safety factor.

  <bullet> There is a correlation between Volunteers reporting sexual 
        or racial harassment and the frequency of seeing other 
        Volunteers. The more they see other Volunteers, the more 
        frequently they report sexual or racial harassment.

    Senator Dodd.  I also want to raise--I will not ask for a 
response to this--the issue of the 5-year rule. I am a strong 
supporter of it. We have obviously made exceptions over the 
years. Loret Ruppe is an example where a director served--I 
forget how many years--I think it was 8 years and did an 
incredible job, by the way, just a remarkable director. I know 
you know that as well. So I am not rigid about the rule, but I 
always like it to be that the presumption is in favor of the 
rule and you have really got to make a strong case to overcome 
that presumption. But there is a concern being raised that if 
we begin to expand this, you end up having an entrenched 
bureaucracy in the Peace Corps, which can overwhelm the agency, 
and the vitality of the Peace Corps in no small measure I think 
is attributed to the fact that there has been this turnover 
every 5 years. It has maintained a lot of its youthfulness, if 
you will, as an organization. So I just raise that.
    Quickly before my time runs out, I want to raise a couple 
of things. One, the GAO report here on page 3 of the report 
says, we reported that the Peace Corps headquarters had 
developed a safety and security framework but that the field's 
implementation of the framework had produced varying results. 
And they go down to the last sentence of that paragraph saying, 
however, recent Inspector General reports indicate that safety 
and security shortcomings in the field are still occurring.
    So I commend you for what you are doing, obviously, in 
trying to establish a plan. It seems to me we have got to try 
to follow up to make sure that the implementation is occurring 
at the field level. Again, this is difficult. The success of a 
volunteer is their ability to connect and relate to a community 
and if they become overly burdened with security, it makes it 
awfully difficult to get the job done. So striking that balance 
is not an easy challenge, I admit, but I would encourage you to 
sort of follow up with that field to get reports back on how we 
can enhance that security.
    Secondly or thirdly--and this I do want a quick answer to, 
if you could give it to us. One is how much do you think this 
may cost. The bills that have been introduced by our 
colleagues, Senators DeWine and Durbin, call for security 
people. You may have asked this already, but I would be 
interested in whether or not you have made an assessment of 
what the cost of the Peace Corps would be if you were to 
fulfill the DeWine-Durbin requirements on security in their 
legislation.
    Lastly, one provision of their bill calls for the Peace 
Corps to assign its own security officer to each country. I 
wonder if you think this is an appropriate post for the Peace 
Corps to fill.
    Mr. Vasquez.  On the first part of your question, Senator, 
were you asking about the cost implications of the whole bill 
or specific to----
    Senator Dodd.  Specific to the security piece.
    Mr. Vasquez.  Well, one of the elements that has been 
talked about and proposed is the idea of American hires serving 
as the safety and security coordinators in each of our posts. 
We have not run the numbers on those costs, but just on its 
face they would be significant, very, very significant.
    Senator Dodd.  Is that security through our embassy there 
or separate?
    Mr. Vasquez.  No. The safety and security coordinators are 
newly created positions----
    Senator Dodd.  Within the Peace Corps.
    Mr. Vasquez (continuing).----for Peace Corps.
    Senator Dodd. Only Peace Corps.
    Mr. Vasquez.  That is correct.
    Senator Dodd.  No connection with the U.S. embassy.
    Mr. Vasquez.  No. Exclusively dedicated to the Peace Corps 
and to volunteer safety at each post.
    The benefit of having host country nationals in those 
positions--and although we do have some Americans, in fact, 
return Peace Corps volunteers who are serving in those 
positions now, but the fact is that many of them are host 
country nationals who have been in law enforcement, who know 
the country, who know the system, who know the geography, who 
know the infrastructure, who know the criminal justice system, 
and they bring tremendous knowledge to the table, and they 
provide us some very, very good guidance and some good 
perspective on how to manage safety and security in a host 
country.
    On your first comment, we have not run specific numbers, 
but on its face, it would be very, very substantial costs for 
the Peace Corps.
    Senator Dodd.  I think it would be helpful for us to get 
that because I think Senators DeWine and Durbin have raised a 
good point with their bill. We are obviously going to be asked 
about it. It would be very helpful to get from the Peace Corps 
what the costs are that we are talking about here. If you are 
going to simultaneously increase the number of volunteers in 
the field, then we better have some feel of what that is going 
to cost, not only what it would cost today, but I would like 
you to match those numbers up with increases so we have an 
overall sense of this thing or everything is going to suffer as 
a result, both security as well as recruitment, if that is our 
goal.
    Thanks.

    [Additional information submitted in response to Senator 
Dodd's question follows:]

              Peace Corps Safety and Security Coordinators

The cost of adding 74 direct American hires at each post in FY 2005 = 
        $14.8 million.
    (This includes all 71 posts, the opening of the Mexico program this 
fall & the addition of two new countries in FY 2005.) In subsequent 
years, this cost would only increase. To put this amount in context--
the Peace Corps' current budget is $308 million for FY 2004. The agency 
received a $13 million increase from FY 2003, which was $51 million 
below the President's request.
    The Safety and Security Coordinator provides logistical and 
administrative support to senior staff at post on safety and security 
matters. Manual Section 270 (related to safety and security) requires 
posts to maintain up-to-date information, such as accurate site locator 
forms, site history forms, training components, site visit verification 
and reports, and assault incident reports. The Safety and Security 
Coordinator must be able to perform other functions, such as 
coordinating with staff during the testing of the EAPs and the 
appropriate recording and dissemination of results--including any 
revisions. All Safety and Security Coordinators are hired as Personal 
Service Contracts (PSCs), and almost all (97%) are host country 
nationals. These host country nationals are often former law 
enforcement officials and can readily navigate the language, cultural 
norms, and laws of the host country.
    Since the primary security need at post is for logistical support 
at the Peace Corps office and in the field, a host country national is 
completely competent--if not better--positioned to be effective on 
behalf of the Volunteer.
    The Peace Corps Country Director, a U.S. citizen, is the official 
charged with the ultimate responsibility of Peace Corps Volunteers' 
safety and security at post, and is therefore the primary recipient of 
security or threat information coming from the U.S. Embassy. The 
Country Director appropriately maintains high-level contact with the 
Ambassador, Regional Security Officer (RSO), and others. In fact, the 
Country Director is a member of the Embassy's Emergency Action 
Committee and is fully briefed during times of crises or increased 
alert. The Country Director tasks the in-country staff to perform the 
security related functions required to adequately prepare for any 
routine or emergency safety situation.
    Additionally, each post is covered by a field-based Peace Corps 
Safety and Security Officer (PCSSO). These individuals act as security 
consultants for Country Directors and regional security staff at every 
post. They must be U.S. citizens and maintain strong working 
relationships with the Embassy's Regional Security Officer.

    Senator Coleman.  Thank you, Senator Dodd.
    Senator Voinovich.
    Senator Voinovich.  I just have one question. Have you 
changed the examination of the host families since you have 
been on board in terms of the procedure that is used to 
determine reliability of the families that your volunteers are 
going into?
    Mr. Vasquez.  The host families are screened and evaluated 
on a country-by-country basis, and the procedures and the 
processes that we have put in place include----
    Senator Voinovich.  Does the Peace Corps do the evaluation, 
not the host country? The Peace Corps does the evaluation?
    Mr. Vasquez.  The Peace Corps staff in the host country, 
the country director and the supporting staff in the Peace 
Corps country do an evaluation of the family and do the 
evaluation of the site, taking into account that safety and 
security is a very, very important aspect of where we place 
volunteers with host families. That is absolutely a component.
    Senator Voinovich.  Is there a tendency to have a 
repetition of families? In other words, in a country where we 
have been for 10-15 years, families continue to participate in 
the program?
    Mr. Vasquez.  Senator, I do not have specific information 
on that. I would be glad to follow up with information on that 
specifically because, again, I suspect, as has happened so 
often in Peace Corps, because our countries are so varied and 
conditions and circumstances are so varied, there are 
variations on that, and there are probably some families who 
have been supporting Peace Corps volunteers for years and there 
are others who may rotate in and out of the process.

    [Additional information submitted by Mr. Vasquez follows:]

  Placement of Volunteers With Host Families After a Security Incident

    All Peace Corps posts have established and maintain site history 
files. This is an important part of the compliance mechanism for manual 
Section 270, related to safety and security. The site history files 
contain information on site assessments and site visits, as well as 
reported security incidents. thus, if the Peace Corps has records to 
indicate that a security incident has taken place that involves a 
specific host family; the Peace Corps will ensure that Volunteers will 
not be placed with that family. If the situation warrants, not only 
will the Peace Corps refrain from placing Volunteers with the host 
family, but also in the community in which the incident occurred.

    Senator Voinovich.  In this article in the Dayton Daily 
News, Kevin Leville of Ventura, California reported that he had 
been burglarized three times during his service, and they were 
all reported to the Peace Corps staff and nothing happened. 
Ultimately the place was broken into and he was beaten to 
death. If you get complaints like this, how fast do you respond 
to them?
    Mr. Vasquez.  Well, Senator, first, I place expectations 
with my country directors, and I have made it very clear and I 
have spoken with every country director in Peace Corps. I 
interview the candidates for country directors one on one. They 
are my selection, and I make it very clear that I have 
expectations, that they understand that we are a volunteer-
based organization and the volunteer is number one.
    They also understand or should understand, because it is 
articulated, that if a volunteer has issues relative to safety 
or security, or where the fulfillment of the opportunity to be 
a good Peace Corps volunteer is not being met, I have an 
expectation that the country director and staff will be 
responsive to that volunteer. With the enhancement of a safety 
and security coordinator, we now have additional staff that can 
also address safety and security issues when that volunteer 
feels that safety and security is not to the standards that he 
or she expects.
    My test is that when a volunteer's work is disrupted, 
interrupted or distracted, then we are not doing our job, and 
we try to be responsive. When volunteers let us know and when 
they communicate with us, my expectation is that the country 
staff be responsive to the needs of a volunteer when a site, 
when a job, and expectations are not being met.
    Senator Voinovich.  Thank you, Mr. Chairman.
    Senator Coleman.  Thank you, Senator Voinovich.
    Director Vasquez, I want to thank you for your testimony, 
and I want to thank you for your leadership.
    Mr. Vasquez.  Thank you, Mr. Chairman.
    Senator Coleman.  What we are going to do is we are going 
to combine the next two panels. So our next panel will be Mr. 
Jess Ford, Director, International Affairs and Trade at U.S. 
General Accounting Office; Mr. Kevin Quigley, President, 
National Peace Corps Association, Washington, D.C.; Ms. Cynthia 
Threlkeld, Guatemala Country Director, Peace Corps; and Ms. 
Gladys Maloy, former Peace Corps Romania volunteer.
    I do anticipate that we have a series of votes around 
11:15. So what we will do is we will begin the testimony. If 
votes come up, we will recess, then come back and finish. We 
will start with Mr. Ford, then followed by Mr. Quigley, Ms. 
Threlkeld. And do I pronounce it right? Is it Maloy?
    Ms. Maloy.  Maloy.
    Senator Coleman.  The usual pronunciation.
    We will start from there. Note that we have a timing 
system, and when it gets to amber, please sum up. If you have 
written statements, they will be entered into the record as a 
whole. Let us start with Mr. Ford.

  STATEMENT OF JESS FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
    TRADE, U.S. GENERAL ACCOUNTING OFFICE, WASHINGTON, D.C.

    Mr. Ford.  Thank you, Mr. Chairman, members of the 
committee. I am pleased to be here today to discuss GAO's work 
on Peace Corps' efforts to improve safety and security of its 
volunteers.
    My testimony today will summarize and update, where 
possible, key findings from our July 2002 examination and 
report that touched on three main topics: first, that we 
discuss the trends in crime against volunteers in the agency's 
system for generating such information; we discuss the Peace 
Corps's field implementation of its safety and security 
framework; and we discuss the underlying factors that 
contributed to the Peace Corps' performance in the field. I 
will also discuss recent actions that the Peace Corps has taken 
to improve the safety and security of its volunteers since we 
issued our report.
    The Peace Corps-reported rates for most types of assaults 
have increased since the Peace Corps began collecting such data 
in 1990. For example, the reported incidence rate for major 
physical assaults nearly doubled from an average of about 9 per 
1,000 volunteer-years to about 17 per 1,000 volunteer-years up 
through 2002. The full extent of crime against Peace Corps 
volunteers is unknown because there is significant under-
reporting of crime by volunteers.
    We reported that the Peace Corps had initiated efforts to 
encourage reporting and collect additional data but that there 
were also unrealized opportunities for additional examination 
of security information. For example, our analysis showed that 
newer volunteers may be more likely to become victims of crime 
than the more experienced colleagues.
    In response to our findings, the Peace Corps hired an 
analyst to enhance its capacity for analyzing crime data. The 
analyst is focused on upgrading the crime data system in the 
Peace Corps and has shifted responsibility for the data 
collection and analysis to its new Office of Safety and 
Security. According to the analyst, additional crime analyses 
have not yet been fully conducted, but they are currently in 
the process of looking at new ways to examine the information 
that they obtain in order to try to prevent future crime 
accidents.
    We reported that Peace Corps headquarters had developed a 
safety and security framework, but that the field's 
implementation of the field work had produced varying results. 
While volunteers are generally satisfied with the agency's 
training programs, there was mixed performance in key elements 
of the framework, such as developing safe and secure housing 
sites, monitoring volunteers, and planning for emergencies. For 
example, in each of the five posts we visited, we found 
instances of volunteers who began their service in housing that 
had not been fully inspected and had not met Peace Corps 
guidelines. We also found variation in the frequency of staff 
contact with volunteers and in the Peace Corps' responsiveness 
to volunteers' concerns about safety and security.
    To improve safety and security practices in the field, in 
2002 the Peace Corps increased the number of field-based safety 
and security officers charged with reviewing post practices and 
assisted them in making improvements in their frameworks in the 
field. The Peace Corps has recently hired a compliance officer 
charged with independently assessing each post's compliance 
with the framework.
    We reported that a number of factors, including staff 
turnover, informal supervision and oversight mechanisms, and 
unclear guidance, hampered the Peace Corps' efforts to ensure 
high quality performance for the agency as a whole. For 
example, the Peace Corps reported high staff turnover caused in 
part by the agency's statutorily imposed 5-year limit on 
employment had resulted in a lack of institutional memory, 
producing a situation in which agency staff were continually 
reinventing the wheel.
    We recommended that the Peace Corps address this issue. 
Recently Congress has granted the Peace Corps authority to 
exempt safety and security staff from the 5-year rule. The 
Peace Corps has exempted 23 staff positions, and it is 
currently examining the feasibility of exempting others as 
well.
    To strengthen supervision and oversight, the Peace Corps 
has created an Office of Safety and Security and has 
centralized safety and security functions under a senior 
manager. The office is supported by a staff member in each of 
the three regional bureaus and a compliance office and has nine 
field-based security officers.
    In response to our recommendations, the Peace Corps is 
revising its current security framework and procedures and is 
currently developing new ways to measure security in the field 
to prevent further problems.
    In conclusion, since we issued our report in July of 2002, 
the Peace Corps has taken several actions to improve safety and 
security of its volunteers. The Peace Corps is still in the 
process of implementing many of these actions, which are 
designed to improve the overall environment that volunteers 
must work under.
    That concludes my opening statement. I would be happy to 
answer any questions.

    [The prepared statement of Mr. Ford follows:]

                   Prepared Statement of Jess T. Ford

    Mr. Chairman and Members of the Committee:
    I am pleased to be here to discuss Peace Corps' efforts to ensure 
the safety and security of its volunteers. My testimony is based on our 
July 2002 report, information we obtained from the Peace Corps to 
update our analysis, and recent testimony before the House of 
Representatives.\1\
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, GAO-02-818, Peace Corps: 
Initiatives for Addressing Safety and Security Challenges Hold Promise, 
But Progress Should be Assessed (Washington, D.C.: July 25, 2002); and 
GAO-04-600T, Peace Corps: Status of Initiatives to Improve Volunteer 
Safety and Security (Washington, D.C.: Mar. 24, 2004). We reported 
separately on events surrounding one specific security incident--the 
disappearance of a volunteer in Bolivia in early 2001. See, The Peace 
Corps Failed to Properly Supervise Missing Volunteer and Lost Track of 
Him, GAO-O1-970R (Washington, D.C.: July 20, 2001).
---------------------------------------------------------------------------
    About 7,500 Peace Corps volunteers currently serve in 70 ``posts'' 
(country missions) around the world. The administration intends to 
increase this number to about 14,000 over the next few years, and 
Congress has increased appropriations for the Peace Corps to support 
this expansion. Volunteers often live in areas with limited access to 
reliable communications, police, or medical services. As Americans, 
they may be viewed as relatively wealthy and, hence, good targets for 
criminal activity. In many countries, female volunteers face special 
challenges; more than a third of female volunteers report experiencing 
sexual harassment on at least a monthly basis.\2\
---------------------------------------------------------------------------
    \2\ Most recent available data, from Peace Corps Volunteer Survey 
Global Report 2002, Peace Corps (August 2003).
---------------------------------------------------------------------------
    My testimony today will summarize and update, where possible, key 
findings from our 2002 report related to (1) trends in crime against 
volunteers and the agency's system for generating such information, (2) 
the agency's field implementation of its safety and security framework, 
and (3) the underlying factors that contributed to Peace Corps' 
performance in the field. I will also discuss actions that Peace Corps 
has taken to improve the safety and security of its volunteers since we 
issued our report.
    We conducted fieldwork at Peace Corps' headquarters and visited 
five countries with Peace Corps programs to prepare our report. To 
develop our analysis, we:

  <bullet> analyzed Peace Corps' crime data;

  <bullet> reviewed agency-wide safety and security policies, 
        guidelines, training materials, volunteer satisfaction surveys, 
        and Inspector General reports;

  <bullet> interviewed key staff and more than 150 volunteers; and:

  <bullet> examined practices for selecting volunteer sites, developing 
        emergency action plans, and performing other tasks.

    We conducted our work from July 2001 through May 2002 and from 
February 2004 through March 2004, in accordance with generally accepted 
government auditing standards.
    In summary, we found the following:
    Peace Corps' reported incidence rates of crimes committed against 
volunteers have remained essentially unchanged since we last 
reported.\3\ Reported rates for most types of assaults have increased 
since Peace Corps began collecting data in 1990, but reported rates 
have stabilized in recent years. For example, the reported incidence 
rate for major physical assaults nearly doubled from an average of 
about 9 per 1,000 volunteer years in 1991-1993 to an average of about 
17 per 1,000 volunteer years \4\ in 1998-2000. Data for 2001 and 2002 
show that this rate has not changed. The full extent of crime against 
Peace Corps volunteers is unknown because there is significant 
underreporting of crime by volunteers. We reported that Peace Corps had 
initiated efforts to encourage reporting and collect additional data 
but that there were also other unrealized opportunities for additional 
examination of data. For example, our analysis showed that newer 
volunteers may be more likely to become victims of crime than their 
more experienced colleagues. In response to our findings, in April 
2003, Peace Corps hired an analyst to enhance its capacity for 
gathering and analyzing crime data. The analyst has focused on 
upgrading the crime data system and shifting the responsibility for 
data collection and analysis from the medical office to the newly 
created safety and security office, to place the responsibility for 
crime data in an office dedicated to safety and security. According to 
the analyst, additional crime analyses have not yet been conducted, as 
the focus has been on upgrading the process for collecting and 
reporting data.
---------------------------------------------------------------------------
    \3\ The Peace Corps crime data system records and tracks data by 
criminal ``event'' rather than by volunteer; those charged with filing 
reports are instructed to count events involving more than one 
volunteer only once.
    \4\ One volunteer year is equivalent to 1 full year of service by a 
volunteer or trainee.
---------------------------------------------------------------------------
    We reported that Peace Corps' headquarters had developed a safety 
and security framework but that the field's implementation of the 
framework had produced varying results. While volunteers were generally 
satisfied with the agency's training programs, there was mixed 
performance in key elements of the framework such as in developing safe 
and secure housing sites, monitoring volunteers, and planning for 
emergencies. For example, at each of the five posts we visited, we 
found instances of volunteers who began their service in housing that 
had not been inspected and had not met Peace Corps' guidelines. We also 
found that the frequency of staff contact with volunteers and the 
quality and comprehensiveness of emergency action plans varied. Recent 
tests of the emergency action plans indicate that the agency has made 
improvements in the length of time needed to contact volunteers. To 
improve safety and security practices in the field, in 2002, the agency 
increased the number of field-based safety and security officers 
charged with reviewing post practices and assisting them in making 
improvements, and created a safety and security position at each post. 
Peace Corps hired a compliance officer charged with independently 
assessing each post's compliance with the framework. However, recent 
Inspector General reports indicate that safety and security 
shortcomings in the field are still occurring.
    We reported that a number of factors, including staff turnover, 
informal supervision and oversight mechanisms, and unclear guidance 
hampered Peace Corps' efforts to ensure high-quality performance for 
the agency as a whole. For example, Peace Corps reported that high 
staff turnover, caused in part by the agency's statutorily imposed 5-
year limit on employment for U.S. direct hire staff, had resulted in a 
lack of institutional memory, producing a situation in which agency 
staff are continually ``reinventing the wheel.'' We made a 
recommendation that Peace Corps develop a strategy to address staff 
turnover, including an assessment of the ``5-year rule''--a statutory 
restriction on the tenure of U.S. direct hire employees.\5\ In response 
to our recommendation on staff turnover and the difficulties it 
created, Peace Corps was granted authority to exempt safety and 
security staff from the 5-year rule. The agency has exempted 23 staff 
positions from the 5-year rule and plans to conduct a study to 
determine whether there are additional positions that should be 
exempted. To strengthen supervision and oversight, Peace Corps created 
an office of safety and security that centralizes safety and security 
functions under an associate directorship. The office is supported by a 
staff member in each of the three regional bureaus, a compliance 
officer, an analyst, and nine field-based security officers. We also 
recommended that Peace Corps develop performance indicators and report 
on its safety and security initiatives. The agency is still clarifying 
its guidance on how to apply its revised framework, revising its 
indicators of progress, and establishing a base line for judging 
performance in all areas of safety and security.
---------------------------------------------------------------------------
    \5\ See U.S.C. 2506(a)(5), (6) and Public Law 108-7, the 
Consolidated Appropriations Act for Fiscal Year 2003, as well as Public 
Law 108-199, the Consolidated Appropriations Act for Fiscal Year 2004. 
This and other issues are addressed in H.R. 4060, passed June 1, 2004. 
The bill has not been passed by the Senate as of June 22, 2004.
---------------------------------------------------------------------------
    In conclusion, since we issued our report in July 2002, it is clear 
that the agency has taken a number of steps designed to improve the 
safety and security of its volunteers. However, Peace Corps is still in 
the process of implementing many of these actions and their full effect 
has yet to be demonstrated.
Background
    Created in 1961, Peace Corps is mandated by statute to help meet 
developing countries' needs for trained manpower while promoting mutual 
understanding between Americans and other peoples. Volunteers commit to 
2-year assignments in host communities, where they work on projects 
such as teaching English, strengthening farmer cooperatives, or 
building sanitation systems. By developing relationships with members 
of the communities in which they live and work, volunteers contribute 
to greater intercultural understanding between Americans and host 
country nationals. Volunteers are expected to maintain a standard of 
living similar to that of their host community colleagues and co-
workers. They are provided with stipends that are based on local living 
costs and housing similar to their hosts. Volunteers are not supplied 
with vehicles. Although the Peace Corps accepts older volunteers and 
has made a conscious effort to recruit minorities, the current 
volunteer population has a median age of 25 years and is 85 percent 
white. More than 60 percent of the volunteers are women.
    Volunteer health, safety, and security is Peace Corps' highest 
priority, according to the agency. To address this commitment, the 
agency has adopted policies for monitoring and disseminating 
information on the security environments in which the agency operates, 
training volunteers, developing safe and secure volunteer housing and 
work sites, monitoring volunteers, and planning for emergencies such as 
evacuations. Headquarters is responsible for providing guidance, 
supervision, and oversight to ensure that agency policies are 
implemented effectively. Peace Corps relies heavily on country 
directors--the heads of agency posts in foreign capitals--to develop 
and implement practices that are appropriate for specific countries. 
Country directors, in turn, rely on program managers to develop and 
oversee volunteer programs. Volunteers are expected to follow agency 
policies and exercise some responsibility for their own safety and 
security. Peace Corps emphasizes community acceptance as the key to 
maintaining volunteer safety and security. The agency has found that 
volunteer safety is best ensured when volunteers are well integrated 
into their host communities and treated as extended family and 
contributors to development.
Reported Crime Incidents Have Increased, But Full Extent of Crime 
        Against Volunteers Remains Unknown
    Reported incidence rates of crime against volunteers have remained 
essentially unchanged since we completed our report in 2002.\6\ 
Reported incidence rates for most types of assaults have increased 
since Peace Corps began collecting data in 1990, but have stabilized in 
recent years. The reported incidence rate for major physical assaults 
has nearly doubled, averaging about 9 assaults per 1,000 volunteer 
years in 1991-1993 and averaging about 17 assaults in 1998-2000. 
Reported incidence rates for major assaults remained unchanged over the 
next 2 years. Reported incidence rates of major sexual assaults have 
decreased slightly, averaging about 10 per 1,000 female volunteer years 
in 1991-1993 and about 8 per 1,000 female volunteer years in 1998-2000. 
Reported incidence rates for major sexual assaults averaged about 9 per 
1,000 female volunteer years in 2001-2002.
---------------------------------------------------------------------------
    \6\ Crime data are available through 2002. Based on our assessment 
of crime data that we performed in preparing our 2002 report and 
subsequent discussions with agency officials, we concluded that the 
data we obtained to update the rates and trends in crime against 
volunteers were sufficiently reliable for the purposes of this 
statement.
---------------------------------------------------------------------------
    Peace Corps' system for gathering and analyzing data on crime 
against volunteers has produced useful insights, but we reported in 
2002 that steps could be taken to enhance the system. Peace Corps 
officials agreed that reported increases are difficult to interpret; 
the data could reflect actual increases in assaults, better efforts to 
ensure that agency staff report all assaults, and/or an increased 
willingness among volunteers to report incidents. The full extent of 
crime against volunteers, however, is unknown because of significant 
underreporting. Through its volunteer satisfaction surveys, Peace Corps 
is aware that a significant number of volunteers do not report 
incidents, thus reducing the agency's ability to state crime rates with 
certainty. For example, according to the agency's 1998 survey, 
volunteers did not report 60 percent of rapes and 20 percent of non-
rape sexual assaults. Reasons cited for not reporting include 
embarrassment, fear of repercussions, confidentiality concerns, and a 
belief that Peace Corps could not help.
    In 2002, we observed that opportunities for additional analyses 
existed that could help Peace Corps develop better-informed 
intervention and prevention strategies. For example, our analysis 
showed that about a third of reported assaults after 1993 occurred from 
the fourth to the eighth month of service--shortly after volunteers 
completed training, arrived at sites, and began their jobs. We observed 
that this finding could be explored further and used to develop 
additional training.
Efforts to Improve Data Collection and Analysis Are in Process
    Since we issued our report, Peace Corps has taken steps to 
strengthen its efforts for gathering and analyzing crime data. The 
agency has hired an analyst responsible for maintaining the agency's 
crime data collection system, analyzing the information collected, and 
publishing the results for the purpose of influencing volunteer safety 
and security policies. Since joining the agency a year ago, the analyst 
has focused on redesigning the agency's incident reporting form to 
provide better information on victims, assailants, and incidents and 
preparing a new data management system that will ease access to and 
analysis of crime information. However, these new systems have not yet 
been put into operation. The analyst stated that the reporting protocol 
and data management system are to be introduced this summer, and 
responsibility for crime data collection and analysis will be 
transferred from the medical office to the safety and security office. 
According to the analyst, she has not yet performed any new data 
analyses because her focus to date has been on upgrading the system.
Safety and Security Framework Unevenly Implemented in the Field
    We reported that Peace Corps' headquarters had developed a safety 
and security framework but that the field's implementation of this 
framework was uneven. The agency has taken steps to improve the field's 
compliance with the framework, but recent Inspector General reports 
indicate that this has not been uniformly achieved. We previously 
reported that volunteers were generally satisfied with the agency's 
training programs. However, some volunteers had housing that did not 
meet the agency's standards, there was great variation in the frequency 
of staff contact with volunteers, and posts had emergency action plans 
with shortcomings. To increase the field's compliance with the 
framework, in 2002, the agency hired a compliance officer at 
headquarters, increased the number of field-based safety and security 
officer positions, and created a safety and security position at each 
post. However, recent Inspector General reports continued to find 
significant shortcomings at some posts, including difficulties in 
developing safe and secure sites and preparing adequate emergency 
action plans.
Volunteers Are Generally Satisfied with Training
    In 2002, we found that volunteers were generally satisfied with the 
safety training that the agency provided, but we found a number of 
instances of uneven performance in developing safe and secure housing. 
Posts have considerable latitude in the design of their safety training 
programs, but all provide volunteers with 3 months of preservice 
training that includes information on safety and security. Posts also 
provide periodic in-service training sessions that cover technical 
issues. Many of the volunteers we interviewed said that the safety 
training they received before they began service was useful and cited 
testimonials by current volunteers as one of the more valuable 
instructional methods. In both the 1998 and 1999 volunteer satisfaction 
surveys, over 90 percent of volunteers rated safety and security 
training as adequate or better; only about 5 percent said that the 
training was not effective. Some regional safety and security officer 
reports have found that improvements were needed in post training 
practices. The Inspector General has reported that volunteers at some 
posts said cross-cultural training and presentations by the U.S. 
embassy's security officer did not prepare them adequately for safety-
related challenges they faced during service. Some volunteers stated 
that Peace Corps did not fully prepare them for the racial and sexual 
harassment they experienced during their service. Some female 
volunteers at posts we visited stated that they would like to receive 
self-protection training.
Mixed Performance in Housing, Monitoring Volunteers, and Emergency 
        Action Plans
    Peace Corps' policies call for posts to ensure that housing is 
inspected and meets post safety and security criteria before the 
volunteers arrive to take up residence. Nonetheless, at each of the 
five posts we visited, we found instances of volunteers who began their 
service in housing that had not been inspected and had various 
shortcomings. For example, one volunteer spent her first 3 weeks at her 
site living in her counterpart's office. She later found her own house; 
however, post staff had not inspected this house, even though she had 
lived in it for several months. Poorly defined work assignments and 
unsupportive counterparts may also increase volunteers' risk by 
limiting their ability to build a support network in their host 
communities. At the posts we visited, we met volunteers whose 
counterparts had no plans for the volunteers when they arrived at their 
sites, and only after several months and much frustration did the 
volunteers find productive activities.
    We found variations in the frequency of staff contact with 
volunteers, although many of the volunteers at the posts we visited 
said they were satisfied with the frequency of staff visits to their 
sites, and a 1998 volunteer satisfaction survey reported that about 
two-thirds of volunteers said the frequency of visits was adequate or 
better. However, volunteers had mixed views about Peace Corps' 
responsiveness to safety and security concerns and criminal incidents. 
The few volunteers we spoke with who said they were victims of assault 
expressed satisfaction with staff response when they reported the 
incidents. However, at four of the five posts we visited, some 
volunteers described instances in which staff were unsupportive when 
the volunteers reported safety concerns. For example, one volunteer 
said she informed Peace Corps several times that she needed a new 
housing arrangement because her doorman repeatedly locked her in or out 
of her dormitory. The volunteer said staff were unresponsive, and she 
had to find new housing without the Peace Corps' assistance.
    In 2002, we reported that, while all posts had tested their 
emergency action plan, many of the plans had shortcomings, and tests of 
the plans varied in quality and comprehensiveness. Posts must be well 
prepared in case an evacuation becomes necessary. In fact, evacuating 
volunteers from posts is not an uncommon event. In the last two years 
Peace Corps has conducted six country evacuations involving nearly 600 
volunteers. We also reported that many posts did not include all 
expected elements of a plan, such as maps demarcating volunteer 
assembly points and alternate transportation plans. In fact, none of 
the plans contained all of the dimensions listed in the agency's 
Emergency Action Plan checklist, and many lacked key information. In 
addition, we found that in 2002 Peace Corps had not defined the 
criteria for a successful test of a post plan.
Actions Taken to Improve Field Compliance, but Implementation Still 
        Uneven
    Peace Corps has initiated a number of efforts to improve the 
field's implementation of its safety and security framework, but 
Inspector General reports continued to find significant shortcomings at 
some posts. However, there has been improvement in post communications 
with volunteers during emergency action plan tests. We reviewed 10 
Inspector General reports conducted during 2002 and 2003. Some of these 
reports were generally positive--one congratulated a post for operating 
an ``excellent'' program and maintaining high volunteer morale. 
However, a variety of weaknesses were also identified. For example, the 
Inspector General found multiple safety and security weaknesses at one 
post, including incoherent project plans and a failure to regularly 
monitor volunteer housing. The Inspector General also reported that 
several posts employed inadequate site development procedures; some 
volunteers did not have meaningful work assignments, and their 
counterparts were not prepared for their arrival at site. In response 
to a recommendation from a prior Inspector General report, one post had 
prepared a plan to provide staff with rape response training and 
identify a local lawyer to advise the post of legal procedures in case 
a volunteer was raped. However, the post had not implemented these 
plans and was unprepared when a rape actually occurred.
    Our review of recent Inspector General reports identified emergency 
action planning weaknesses at some posts. For example, the Inspector 
General found that at one post over half of first year volunteers did 
not know the location of their emergency assembly points. However, we 
analyzed the results of the most recent tests of post emergency action 
plans and found improvement since our last report. About 40 percent of 
posts reported contacting almost all volunteers within 24 hours, 
compared with 33 percent in 2001. Also, our analysis showed improvement 
in the quality of information forwarded to headquarters. Less than 10 
percent of the emergency action plans did not contain information on 
the time it took to contact volunteers, compared with 40 percent in 
2001.
Underlying Factors Contributed to Uneven Field Implementation, but 
        Agency Has Taken Steps to Improve Performance
    In our 2002 report, we identified a number of factors that hampered 
Peace Corps efforts to ensure that this framework produced high-quality 
performance for the agency as a whole. These included high staff 
turnover, uneven application of supervision and oversight mechanisms, 
and unclear guidance. We also noted that Peace Corps had identified a 
number of initiatives that could, if effectively implemented, help to 
address these factors. The agency has made some progress but has not 
completed implementation of these initiatives.
    High staff turnover hindered high quality performance for the 
agency. According to a June 2001 Peace Corps workforce analysis, 
turnover among U.S. direct hires was extremely high, ranging from 25 
percent to 37 percent in recent years. This report found that the 
average tenure of these employees was 2 years, that the agency spent an 
inordinate amount of time selecting and orienting new employees, and 
that frequent turnover produced a situation in which agency staff are 
continually ``reinventing the wheel.'' Much of the problem was 
attributed to the 5-year employment rule, which statutorily restricts 
the tenure of U.S. direct hires, including regional directors, country 
desk officers, country directors and assistant country directors, and 
Inspector General and safety and security staff. Several Peace Corps 
officials stated that turnover affected the agency's ability to 
maintain continuity in oversight of post operations.
    In 2002, we also found that informal supervisory mechanisms and a 
limited number of staff hampered Peace Corps efforts to ensure even 
application of supervision and oversight. The agency had some formal 
mechanisms for documenting and assessing post practices, including the 
annual evaluation and testing of post emergency action plans and 
regional safety and security officer reports on post practices. 
Nonetheless, regional directors and country directors relied primarily 
on informal supervisory mechanisms, such as staff meetings, 
conversations with volunteers, and e-mail to ensure that staff were 
doing an adequate job of implementing the safety and security 
framework. One country director observed that it was difficult to 
oversee program managers' site development or monitoring activities 
because the post did not have a formal system for performing these 
tasks. We also reported that Peace Corps' capacity to monitor and 
provide feedback to posts on their safety and security performance was 
limited by the small number of staff available to perform relevant 
tasks. We noted that the agency had hired three field-based safety and 
security specialists to examine and help improve post practices, and 
that the Inspector General also played an important role in helping 
posts implement the agency's safety and security framework. However, we 
reported that between October 2000 and May 2002 the safety and security 
specialists had been able to provide input to only about one-third of 
Peace Corps' posts while the Inspector General had issued findings on 
safety and security practices at only 12 posts over 2 years. In 
addition, we noted that Peace Corps had no system for tracking post 
compliance with Inspector General recommendations.
    We reported that the agency's guidance was not always clear. The 
agency's safety and security framework outlines requirements that posts 
are expected to comply with but did not often specify required 
activities, documentation, or criteria for judging actual practices--
making it difficult for staff to understand what was expected of them. 
Many posts had not developed clear reporting and response procedures 
for incidents, such as responding to sexual harassment. The agency's 
coordinator for volunteer safety and security stated that unclear 
procedures made it difficult for senior staff, including regional 
directors, to establish a basis for judging the quality of post 
practices. The coordinator also observed that, at some posts, field-
based safety and security officers had found that staff members did not 
understand what had to be done to ensure compliance with agency 
policies.
Peace Corps Taking Steps to Address These Factors
    The agency has taken steps to reduce staff turnover, improve 
supervision and oversight mechanisms, and clarify its guidance. In 
February 2003, Congress passed a law to allow U.S. direct hires whose 
assignments involve the safety of Peace Corps volunteers to serve for 
more than 5 years. The Peace Corps Director has employed his authority 
under this law to designate 23 positions as exempt from the 5-year 
rule. These positions include nine field-based safety and security 
officers, the three regional safety and security desk officers working 
at agency headquarters, as well as the crime data analyst and other 
staff in the headquarters office of safety and security. They do not 
include the associate director for safety and security, the compliance 
officer, or staff from the office of the Inspector General. Peace Corps 
officials stated that they are about to hire a consultant who will 
conduct a study to provide recommendations about adding additional 
positions to the current list.
    To strengthen supervision and oversight, Peace Corps has increased 
the number of staff tasked with safety and security responsibilities 
and created the office of safety and security that centralizes all 
security-related activities under the direction of a newly created 
associate directorate for safety and security. The agency's new crime 
data analyst is a part of this directorate. In addition, Peace Corps 
has:

  <bullet> appointed six additional field-based safety and security 
        officers, bringing the number of such individuals on duty to 
        nine (with three more positions to be added by the end of 
        2004);

  <bullet> authorized each post to appoint a safety and security 
        coordinator to provide a point of contact for the field-based 
        safety and security officers and to assist country directors in 
        ensuring their post's compliance with agency policies, 
        including policies pertaining to monitoring volunteers and 
        responding to their safety and security concerns (all but one 
        post have filled this position);

  <bullet> appointed safety and security desk officers in each of Peace 
        Corps' three regional directorates in Washington, D.C., to 
        monitor post compliance in conjunction with each region's 
        country desk officers; and

  <bullet> appointed a compliance officer, reporting to the Peace Corps 
        Director, to independently examine post practices and to follow 
        up on Inspector General recommendations on safety and security.

    In response to our recommendation that the Peace Corps Director 
develop indicators to assess the effectiveness of the new initiatives 
and include these in the agency's annual Government Performance and 
Results Act reports, Peace Corps has expanded its reports to include 10 
quantifiable indicators of safety and security performance.
    To clarify agency guidance, Peace Corps has:

  <bullet> created a ``compliance tool'' or checklist that provides a 
        fairly detailed and explicit framework for headquarters staff 
        to employ in monitoring post efforts to put Peace Corps' safety 
        and security guidance into practice in their countries;

  <bullet> strengthened guidance on volunteer site selection and 
        development;

  <bullet> developed standard operating procedures for post emergency 
        action plans, and;

  <bullet> concluded a protocol clarifying that the Inspector General's 
        staff has responsibility for coordinating the agency's response 
        to crimes against volunteers.

    These efforts have enhanced Peace Corps' ability to improve safety 
and security practices in the field. The threefold expansion in the 
field-based safety and security officer staff has increased the 
agency's capacity to support posts in developing and applying effective 
safety and security policies. Regional safety and security officers at 
headquarters and the agency's compliance officer monitor the quality of 
post practices. All posts were required to certify that they were in 
compliance with agency expectations by the end of June 2003. Since that 
time, a quarterly reporting system has gone into effect wherein posts 
communicate with regional headquarters regarding the status of their 
safety and security systems and practices.
    The country desks and the regional safety and security officers, 
along with the compliance officer, have been reviewing the emergency 
action plans of the posts and providing them with feedback and 
suggestions for improvement. The compliance officer has created and is 
applying a matrix to track post performance in addressing issues 
deriving from a variety of sources, including application of the 
agency's safety and security compliance tool and Inspector General 
reports. The compliance officer and staff from one regional office 
described their efforts, along with field-based safety and security 
staff and program experts from headquarters, to ensure an adequate 
response from one post where the Inspector General had found multiple 
safety and security weaknesses.
    However, efforts to put the new system in place are incomplete. As 
already noted, the agency has developed, but not yet introduced, an 
improved system for collecting and analyzing crime data. The new 
associate director of safety and security observes that the agency's 
field-based safety and security officers come from diverse backgrounds 
and that some have been in their positions for only a few months. All 
have received training via the State Department's bureau of diplomatic 
security. However, they are still employing different approaches to 
their work. Peace Corps is preparing guidance for these officers that 
would provide them with a uniform approach to conducting their work and 
reporting the results of their analyses, but the guidance is still in 
draft form. The Compliance Officer has completed detailed guidance for 
crafting emergency action plans, but this guidance was distributed to 
the field only at the beginning of this month. Moreover, following up 
on our 2002 recommendation, the agency's Deputy Director is heading up 
an initiative to revise and strengthen the indicators that the agency 
uses to judge the quality of all aspects of its operations, including 
ensuring volunteer safety and security, under the Government 
Performance and Results Act.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions you or other Members of the Committee 
may have at this time.

                                 ______
                                 

                     Highlights of the 2002 Report

             OBSERVATIONS ON VOLUNTEER SAFETY AND SECURITY
Why GAO Did This Study
    About 7,500 Peace Corps volunteers currently serve in 70 countries. 
The administration intends to increase this number to about 14,000. 
Volunteers often live in areas with limited access to reliable 
communications, police, or medical services. As Americans, they may be 
viewed as relatively wealthy and, hence, good targets for crime. In 
this testimony, GAO summarizes findings from its 2002 report Peace 
Corps: Initiatives for Addressing Safety and Security Challenges Hold 
Promise, but Progress Should be Assessed, GAO-02-818, on (1) trends in 
crime against volunteers and Peace Corps' system for generating 
information, (2) the agency's field implementation of its safety and 
security framework, and (3) the underlying factors contributing to the 
quality of these practices.
What GAO Found
    The full extent of crime against Peace Corps volunteers is unclear 
due to significant under-reporting. However, Peace Corps' reported 
rates for most types of assaults have increased since the agency began 
collecting data in 1990. The agency's data analysis has produced useful 
insights, but additional analyses could help improve anti-crime 
strategies. Peace Corps has hired an analyst to enhance data collection 
and analysis to help the agency develop better-informed intervention 
and prevention strategies.
    In 2002, we reported that Peace Corps had developed safety and 
security policies but that efforts to implement these policies in the 
field had produced varying results. Some posts complied, but others 
fell short. Volunteers were generally satisfied with training. However, 
some housing did not meet standards and, while all posts had prepared 
and tested emergency action plans, many plans had shortcomings. 
Evidence suggests that agency initiatives have not yet eliminated this 
unevenness. The inspector general continues to find shortcomings at 
some posts. However, recent emergency action plan tests show an 
improved ability to contact volunteers in a timely manner (see figure).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In 2002, we found that uneven supervision and oversight, staff 
turnover, and unclear guidance hindered efforts to ensure quality 
practices. The agency has taken action to address these problems. To 
strengthen supervision and oversight, it established an office of 
safety and security, supported by three senior staff at headquarters, 
nine field-based safety and security officers, and a compliance 
officer. In response to our recommendations, Peace Corps was granted 
authority to exempt 23 safety and security positions from the ``5-year 
rule''--a statutory restriction on tenure. It also adopted a framework 
for monitoring post compliance and quantifiable performance indicators. 
However, the agency is still clarifying guidance, revising indicators, 
and establishing a performance baseline.
What GAO Recommends
    In 2002, to ensure that Peace Corps initiatives to improve safety 
and security performance would have their intended effect, GAO 
recommended that the agency (1) develop indictors to assess the 
effectiveness of these initiatives and (2) develop a strategy to 
address staff turnover.

    The full report, Peace Corps: Initiatives for Addressing Safety and 
Security Challenges Hold Promise, But Progress Should Be Assessed, can 
be accessed at: www.gao.gov/new.items/d02818.pdf.
    Senator Coleman.  Thank you, Mr. Ford.
    Mr. Quigley.

STATEMENT OF KEVIN F.F. QUIGLEY, PRESIDENT, THE NATIONAL PEACE 
              CORPS ASSOCIATION, WASHINGTON, D.C.

    Mr. Quigley.  Mr. Chairman, I appreciate the opportunity to 
appear before the subcommittee to provide something about the 
volunteers' perspective on this important issue of safety and 
security. In addition to my written statement, I would like to 
submit for the record a survey that we have done of our 
membership and some comments from our membership about the 
legislation the committee is considering.
    Senator Coleman.  It will be entered, without objection.

    [The survey to which Mr. Quigley referred appears following 
Mr. Quigley's prepared statement.]

    Mr. Quigley.  Thank you.
    My testimony will have four parts: some background about my 
organization, something about my experiences, the focus on 
safety and security, and a summary from the membership survey 
on these issues.
    Founded in 1979, the National Peace Corps Association 
(NPCA) is the only national organization for Peace Corps 
volunteers, staff, and others whose lives have been influenced 
by the Peace Corps experience. In our network, there are 154 
affiliates and 36,000 individuals.
    Over the past 10 months, I have had the chance to talk to 
more than 1,000 volunteers and 30 groups about these issues of 
safety and security. In the Peace Corps community, there is 
fervent support for the Peace Corps mission despite the growing 
awareness about concerns for their safety and security.
    My Peace Corps experience: I became a volunteer in 1976 and 
served for 3 years in Thailand. I arrived a month after the 
last U.S. soldiers stationed there during the Vietnam War 
departed.
    My training involved three components: Thai language, 
teaching English as a second language, and a cross-cultural 
component. After 9 weeks of training, I was sent to an isolated 
post in Dan Sai district in Loei province, approximately 10 
miles from the border with Laos in an area that was described 
as sensitive. Like many volunteers who had gone before me and 
come after me, I knew there was some risk associated with my 
assignment since it was in one of the most isolated and poorest 
parts of the country.
    Although there was considerable fighting going on in Dan 
Sai district, I never felt threatened or in danger at my site. 
This was due to the fact that I was included in and identified 
as part of the community. It seemed that all the people in Dan 
Sai understood who I was and that I was teaching their 
children.
    While in Dan Sai, I was visited by Country Director Manual 
``Mick'' Zenick, who 25 years later gave me a copy of my letter 
regarding his visit to my site.
    Communication was by mail and since there was no phone 
service in my district, I would have to travel to the 
provincial capital 90 kilometers away. However, there was 
regular mail service and a yearly monitoring visit, plus 
periodic trips to Bangkok for training or medical purposes or 
ongoing Peace Corps activities to provide oversight of my 
experiences.
    My experiences in Peace Corps, like others, involved a 
pattern of site assessment prior to my arrival, volunteer 
training, monitoring by the Peace Corps in-country staff, and 
emergency planning.
    If I had not been placed in such a remote site, for which I 
was well prepared, I would not have been able to contribute or 
learn anywhere near as much as I did. I have heard from 
hundreds of other volunteers who have had comparable kinds of 
posting in remote and sensitive areas and they share my 
assessment.
    In the aftermath of September 11th, there has been growing 
public awareness about the needed attention to safety and 
security of Americans overseas, including Peace Corps 
volunteers. Within the community, there is a broad spectrum of 
opinion about these sets of issues. There is no disagreement at 
all about our grief for the 260 volunteers who have lost their 
lives in service, and we have enormous sympathy for our fellow 
volunteers who have experienced harm.
    There is a sense within the Peace Corps community that some 
of the discussion on safety and security misses the broader 
context, whether the Peace Corps experience is, relatively 
speaking, any more risky in terms of homicides or assaults than 
life for a comparable cohort in urban America or, probably more 
aptly, overseas development workers or volunteers for Peace 
Corps' counterparts in Germany, Britain, France, and Japan.
    There is also concern in the community that the necessary 
attention to safety and security does not diminish the 
essential uniqueness and value of the Peace Corps experience.
    Mr. Chairman, let me say a few words about the summary from 
our membership about some of the provisions in the legislation 
you are considering.
    Regarding the creation of an office of ombudsman, 72 
percent of the respondents to our survey endorse this.
    Establishing statutorily the office of safety and security, 
our membership was split, 48 to 47 percent, regarding this 
proposal.
    On the issue of volunteer posting, there was a strong 
sentiment in the community, despite I think Senator Dodd's very 
good question about whether there needs to be some adjustment 
in remote areas for female volunteers, 90 percent of our 
respondents opposed requiring that all volunteers be assigned 
in pairs. In my office we conducted an informal survey among 
the eight former volunteers; the two who were married to their 
spouses, who were also volunteers, were the only two who 
opposed tandem pairings.
    In conclusion, let me say that, Mr. Chairman, the Peace 
Corps community thanks you and fellow RPCV and ranking member, 
Senator Dodd, and members of the committee for taking a look at 
this important issue of safety and security. The National Peace 
Corps Association will work with you and the committee to 
ensure that these issues are addressed in a way that preserves 
the essence of the Peace Corps experience and best advances 
U.S. interests. I would also be glad to answer any questions 
that the committee might have.

    [The prepared statement of Mr. Quigley follows:]

                  Prepared Statement of Kevin Quigley

    Senator Coleman, my name is Kevin Quigley, President of the 
National Peace Corps Association. I appreciate the opportunity to 
appear before the committee to provide the volunteers' perspective on 
the important issue of the safety and security of Peace Corps.
    My comments fall into four general categories: background, my 
experience, the focus on safety and security, and the results of a 
survey of our membership.

                               BACKGROUND
    The National Peace Corps Association (NPCA) is a 501(c)(3) 
organization founded in 1979. The NPCA is the only national 
organization for Peace Corps volunteers, staff, and others whose lives 
have been influenced by the Peace Corps experience. Our mission is to 
``help lead the Peace Corps community and others in fostering peace 
through service, education and advocacy.''
    In the NPCA network, there are 154 affiliates and more than 36,000 
individuals who participate in our national or affiliates' activities 
and support our mission. These individuals reside in all 50 states and 
the District of Columbia. The NPCA has programs to promote service, 
enhance understanding of other cultures, and to advocate around issues 
of concern to our community.
    Over the past ten months since assuming this position, I have met 
with 30 of NPCA's affiliates and talked about the Peace Corps 
experience with more than a thousand former volunteers and staff. One 
common theme through all of these discussions is that Peace Corps 
service is the defining experience that continues to shape our lives. 
Among the community of those who have served, there is broad, deep and 
passionate support for Peace Corps, which often leads to ongoing 
service back home. This community understands the vital importance of 
having volunteers working overseas--as they have done in more than 130 
countries--to promote peace through training individuals in their host 
countries, educating them about the United States, and upon their 
return educating Americans about the countries in which they served. 
This reflects Peace Corps' three goals, which are perceived as every 
bit as vital today as when the agency was established 43 years ago.
    This fervent support for the Peace Corps mission continues despite 
the growing awareness of concerns about our country's security and the 
safety and security of volunteers. This community understands the vital 
importance of America's positive engagement with the rest of the world, 
especially at the grassroots level, and living together as friends and 
colleagues, which only Peace Corps provides.
    During these many conversations, I also have learned that no two of 
the 171,000 Americans who have served as Peace Corps volunteers have an 
identical experience. There are differences based on the volunteer, the 
country, the assignment, the era, and the people we served. There are, 
however, many common threads linking these experiences across the 
generations of volunteers regardless of the country or region of 
service or the nature of the assignment. These common threads include 
serving in often remote locations, as perhaps the only American, 
learning another language, living with others as friends and 
colleagues, and developing a deep appreciation of another culture.
    Even with these many commonalities, it is difficult to generalize. 
So, Mr. Chairman, I would like to provide some perspective on this 
important safety and security issue by describing my own experience, as 
well as providing information resulting from a recent survey that we 
have done with our membership.

                       MY PEACE CORPS EXPERIENCE
    I became a Peace Corps Volunteer in 1976 and served for three 
years. My group arrived in Thailand the month after the last U.S. 
soldiers stationed there during the Vietnam War departed but while 
there was still fighting, especially in the border areas.
    My training involved three components: (1) Thai language, (2) 
Teaching English-As-A-Second Language, and (3) Cross-cultural. Having 
studied nine different languages in some fashion, I can attest that 
Peace Corps provided the finest language training I ever received. The 
technical training was sufficient to ensure that we would succeed as 
teachers in a Thai classroom. The cross-cultural training component 
provided invaluable insights about how to live and adapt to what was 
then an extremely foreign culture.
    After 9-weeks of training, I was sent to an isolated post in Dan 
Sai district, Loei province approximately ten miles from the border 
with Laos in an area described as ``sensitive.'' In that area there was 
ongoing fighting between insurgents and government forces. The closest 
volunteers were 60 kilometers to the South or 90 kilometers to the 
East, both over mountainous roads that were nearly impassable in the 
monsoons. Like many volunteers who had gone before me, I knew there was 
some risk associated with my assignment since it was in one of the most 
isolated and poorest parts of the country.
    Before my arrival at my post in Dan Sai, a Peace Corps program 
manager had visited the site and met with the host counterpart to 
ensure that there was an appropriate work assignment and housing.
    Although there was considerable ongoing fighting in Dan Sai 
district, including frequent firings of 105 millimeter shells, common 
sightings of helicopter gunships and ambushes of government outposts, I 
never felt threatened or in danger at my site. This was due to the fact 
that I was included in and identified as part of the community. It 
seemed that all the people in Dan Sai understood who I was and that I 
was teaching their children. Since I was incorporated into the 
community, filing the emergency action plan that Peace Corps required 
of all volunteers seemed a bit unnecessary, if not unreal.
    While a volunteer in Dan Sai, I was visited by the Country 
Director, Manuel ``Mick'' Zenick--who 25 years later gave me a copy of 
my letter regarding his visit. I was also visited by one other 
volunteer who lived in the provincial capital, who I would visit 
typically once a month. Communication was by mail since there was no 
phone service in my district. To make a phone call required travel to 
the provincial capital, 90 kilometers away. However, the mail and a 
yearly monitoring visit, plus periodic trips to Bangkok for training or 
medical purposes were sufficient to provide oversight of my activities.
    In my second and third years, I worked in more urban settings. I 
transferred from Dan Sai because I thought I could make more of a 
contribution at a larger institution. I was visited once a year by a 
Peace Corps official, which was sufficient.
    The very nature of my initial Peace Corps assignment--in a remote 
area far from where tourists traveled or where there were scant 
Americans--made a deep impression on the people I worked and lived 
with. This encouraged them to see Peace Corps and the government that 
supported it in profound and important new ways, contributing to the 
most memorable experience of my life. That was truly remarkable given 
that the consequences of the war in Southeast Asia were still 
reverberating around the region.
    I recognize that my experience was unique to me and happened 
decades ago. Based on what I have learned from many other volunteers, 
however, it has bearing on this topic. My experience involved Peace 
Corps's basic approach to volunteer placement: (1) site assessment, (2) 
volunteer training, (3) monitoring, and (4) emergency planning. If I 
had not been placed in such a remote site, for which I was well 
prepared, I would not have been able to contribute or learn anywhere 
near as much as I did. I have heard from hundreds of other volunteers 
who had comparable kinds of postings in remote and ``sensitive areas,'' 
and they share my assessment.

                  FOCUS ON SAFETY AND SECURITY ISSUES
    In the aftermath of the tragic events of September 2001, there has 
been growing public attention to the issue of safety and security of 
Americans overseas, including Peace Corps volunteers. Following the 
2002 GAO Report and in the lead up and the aftermath of a series 
published by The Dayton Daily News, there has been lively discussion in 
the Peace Corps community about safety and security issues.
    Within this community there is a broad spectrum of opinion. 
However, among those of us who have served we agree that the safety and 
security of volunteers must be a paramount concern. All our members 
grieve for the 260 volunteers who have lost their lives in service and 
have enormous sympathy for our fellow volunteers who have experienced 
harm. Whenever a tragedy occurs or whenever a volunteer is harmed we 
expect--in fact demand--that Peace Corps do everything humanly possible 
to be responsive.
    There is also a sense that the discussion on safety and security 
misses the broader context, whether the Peace Corps experience is, 
relatively speaking, any more risky in terms of homicides and assaults 
than life for a comparable cohort in urban America, overseas 
development workers or for volunteers with Peace Corps' German, 
British, France and Japanese counterparts. Unfortunately, there is no 
comparison regarding what those agencies' experiences are with regard 
to safety and security.
    In addition, there is concern among the community that the 
necessary attention to safety and security does not diminish the 
essential uniqueness and value of the Peace Corps experience--allowing 
Americans to live and work alongside our host country counterparts and 
living as they live. Much of this value is based on a flexible approach 
to posting volunteers, whether it is in urban or rural settings. 
Volunteers are sent to where there is a cooperating host institution 
offering appropriate work, access to essential services, suitable 
housing, and an expressed need for them. All volunteers also prepare a 
plan for responding to emergencies. As I learned from the volunteers 
who were recently evacuated from Haiti, these plans work remarkably 
well. This is attested to by the fact that in the more than 30 post 
closings over the past decade due to civil war, political unrest, or 
concerns about repercussions related to the war in Iraq, there has not 
been an incident where a volunteer was harmed.
    There is also some concern that the resources required to address 
safety and security concerns may undermine Peace Corps' unique and 
vital contributions to U.S. foreign policy. This is especially the case 
if adequate funding is not provided to enable Peace Corps to meet the 
President's goal of doubling the size of Peace Corps, which is strongly 
endorsed by the community.
    In addition, the community believes that there is an opportunity to 
significantly expand the number of countries where Peace Corps is 
operating. Doing this would be extremely beneficial to the national 
interest. This can be done without jeopardizing volunteer's safety and 
security, although it may require that Peace Corps develop a more 
flexible approach to programming. For example, this may require relying 
on technical cooperation agreements in lieu of bilateral agreements as 
in the recent case of Mexico. It may also require somewhat shorter or 
more flexible assignments, perhaps only a year service or two years 
service that could be interrupted for a short period for a home visit.
    Doubling the size of Peace Corps and expanding to new countries are 
goals endorsed by the community. It will require significant new 
resources, which do not appear to be forthcoming. Thus, any new 
requirements related to safety and security that Congress decides to 
implement must be accompanied by additional financial resources.
    Much of the discussion seems to miss the fact that concern with 
volunteer safety and security is not new. Recently, I have had the 
chance to talk with eight of the Peace Corps Directors, spanning from 
the first Director to the current Director. For all of these directors, 
safety of the volunteers was a critical issue. Over the past few years, 
significant new investments have been made to address these issues in 
the context of current global realities.
    Mr. Chairman, I understand that the committee is considering 
legislation to address the issue of volunteer safety and security. I 
have had a chance to review this legislation and ask our membership 
about its main provisions and some of the topics you mentioned.

                           MEMBERSHIP SURVEY
    Last week, we at the NPCA posted a short survey to our website to 
garner responses to the proposed legislation. While not necessarily 
scientific, the survey results and the accompanying narrative responses 
offer insight into the array of returned volunteer attitudes on this 
important topic. Following are my own views, informed by my experiences 
and supplemented by the results from our recent survey:

  <bullet> Office of Ombudsman. Creating an Office of Ombudsman would 
        be perceived by the Peace Corps community as being responsive 
        to many former volunteers, especially those who have been 
        harmed or become ill during their service and not received 
        promised post-service support. They will perceive that their 
        concerns are being addressed by a strong, vibrant mechanism 
        advocating for their interests. Seventy-two percent of the 
        respondents to our survey endorsed this.

  <bullet> Office of Safety and Security. Establishing statutorily the 
        Office of Safety and Security would underscore the Congress's 
        concern with and commitment to ensure the safety and security 
        of volunteers and recognition that these issues are a current 
        reality and will be with us for many decades to come. This 
        Office should be charged with notifying any volunteer 
        victimized by crime and should also be notified about the 
        processing of criminal charges. The respondents to our survey 
        were equally split regarding the merits of this proposal.

  <bullet> Inspector General's Office. Changing the status of the 
        Inspector General by making it independent is not perceived as 
        likely to have any appreciable effect on volunteer's safety and 
        security. The respondents to our survey were equally split 
        regarding the merits of this proposal.

  <bullet> Volunteer Posting. There have been proposals to post at 
        least two volunteers to each site or consolidate groups of 
        volunteers. That would diminish the experience and lessen the 
        impact of Peace Corps without necessarily enhancing the safety 
        and security of volunteers. Two volunteers posted together tend 
        to be less well integrated and perhaps less well accepted by 
        the local community. Two volunteers are more likely to be 
        perceived as able to look after each other, thus diminishing 
        the community's need to have a stake in their safety and 
        security. In our recent survey, 90% of the respondents opposed 
        requiring that all volunteers be assigned in pairs.

  <bullet> Five-Year Rule. The legislation proposes a report to 
        Congress of the ``Five-Year Rule'' and the rule's potential 
        implications on issues of recruitment, health, safety, and 
        productive work assignments. Seventy percent of our respondents 
        supported this provision.

  <bullet> Office of Medical Services. The legislation calls for a 
        report to Congress concerning medical screening processes and 
        guidelines, as well as a statistical review of the medical 
        appeals process. The community considers this Office critical 
        to volunteer's safety and security and wishes to see that this 
        Office has the resources required and the authority necessary 
        to play its critical role. Sixty-five percent of the 
        respondents in our survey supported this provision.

  <bullet> Provision of Cellular/Satellite Phones. Modern technology, 
        especially satellite and cell phones and access to the 
        internet, provides today's volunteers a much greater ability to 
        stay in touch with the in-country Peace Corps staff, as well as 
        their family and friends at home. If regular access to these 
        technologies can appreciably improve volunteers' safety and 
        security, they should be provided at the discretion of the 
        country director. In our survey, 67 percent of the respondents 
        opposed requiring volunteers to have modern communication 
        equipment.

  <bullet> Self-Defense Training. If this training improves volunteers' 
        safety and security, it should be offered on a voluntary basis, 
        again at the discretion of the country director.

  <bullet> Frequency of Site Visits. A successful Peace Corps 
        experience does require that there be oversight of the 
        volunteer's activities. That oversight can be accomplished 
        through a variety of means, site visits, phone and email 
        interactions, as well as meetings in the Peace Corps country 
        offices and during various in-service trainings. The frequency 
        of site visits should be determined by the country director. 
        Legislatively mandating the frequency of site visits can not 
        possibly recognize the vast differences between Peace Corps 
        countries and assignments.

                               CONCLUSION
    It is essential that whatever Congress does to address this issue 
of volunteer safety and security should not impede the fundamental 
mission and style of Peace Corps, which has contributed to its success 
over the past four decades. Peace Corps' greatest contributions have 
resulted from the fact that it provides Americans a relatively unique 
opportunity to live and work alongside our host country counterparts 
and live as they live. Policies that isolate volunteers from the 
communities they live and serve in and mandate more frequent site 
visits are not necessarily going to enhance the safety and security of 
volunteers. Equally important is that whatever Congress does on this 
issue should not detract from the vitally important goal of expanding 
the numbers of serving volunteers and that the President's 2005 budget 
request be met.
    Senator Coleman, the Peace Corps community thanks you for 
addressing the issue of volunteer safety and security. The NPCA will 
work with you and the Committee to ensure that these issues are 
addressed in ways that preserve the essence of the Peace Corps mission 
and best advance U.S. interests. We will also work so that the 
President's budget request can be met, providing many more Americans 
with the opportunity to serve their country through the Peace Corps and 
to bring that experience back to America in ways that help shape our 
place in the world.

                National Peace Corps Association (NPCA)

           Survey on Peace Corps Safety/Security Legislation

                            June 9-21, 2004

              Survey Results and Comments From Respondents

                                 ______
                                 
    Number of Respondents: 225
    216 Respondents were returned Peace Corps volunteers (96%).
    149 Respondents were NPCA members (66%).
                                 ______
                                 
(1) Should a Peace Corps Office of Safety and Security, with individual 
        country security coordinators, be established by law?
                YES: 109 (48%)
                NO: 110 (49%)
Comments on Safety & Security Issues:
          ``Having served recently, I and my fellow volunteers have 
        noticed the rapid increase in rules that affect our service, 
        mostly in response to Safety and Security issues. Although some 
        of the new requirements are necessary, many of them in practice 
        treat PCVs as children. There should be an understanding that 
        PCVs are competent adults and professionals, and should be 
        treated as such.''

                                          Female, Bulgaria, 2002-04

          ``Safety concerns are an important part of PC training. 
        Accidents will happen, unfortunately, but we must not 
        overreact.''

                                   Female, Solomon Islands, 1994-96

          ``I served as a PCV twice and as a Country Director and 
        realize that something needs to be done to strengthen and 
        monitor safety and security in many country programs. I would 
        suggest that Congress tread softly with this--I realize that 
        the Dayton newspaper reports raised serious concern--perhaps 
        more then was merited. I would hate to think that a wonderful 
        institution like Peace Corps could be harmed by ill-conceived 
        legislation based on this journalism. On the other hand, all 
        who have served in Peace Corps know that we are placed in 
        challenging situations. We depend on the good judgment of our 
        Country Directors, support staff in country and at HQ, our 
        counterparts and friends and supervisors on site and our own 
        good common sense. Legislation can only go so far to protect 
        the PCV in the field from harm. Let us support our country 
        programs--not second guess their safety and security PSTs, 
        country evacuation plans, site assessments and other useful 
        tools.''

     Male, Sierra Leone, India, Mongolia, 1966-68; 1969-71; 1995-99

          ``The issue of safety and security of Peace Corps volunteers 
        is of the utmost importance and in my experience; I do not feel 
        that it has been given the priority that it deserves. Creating 
        institutions to further monitor these issues and respond to 
        volunteer concerns are very important to ensuring the safety 
        and security of each volunteer, so that they may then be better 
        able to fulfill their assignments.''

                                    Female, Western Russia, 2000-02

          ``The concerns about Volunteer health and safety are always 
        important. However, efforts by Congress to dictate Peace Corps 
        procedures is not necessary and will be counter-productive. 
        Congress should appropriate adequate sums to Peace Corps for 
        operations and expansion and then leave it alone to do its 
        job.''

    Male, Turkey, Bulgaria, Russia, Macedonia, HQ, 1965-79, 1994-01

          ``Learning the language and living with the people and within 
        their means is the number one way to ensure security. We must 
        maintain the grassroots approach and do the best jobs we can do 
        so that the people will give us their respect and in turn their 
        security.''

                                        Female, Uzbekistan, 2000-01

          ``I was one of the PCVs who was sexually assaulted during my 
        service, and the Peace Corps acted like it was my job to adjust 
        to the new culture. I got no help from anyone, even though my 
        assault occurred during training by a family member of a house 
        to which the Peace Corps assigned me to live. I question the 
        whole family getting process, the degree of autonomy with which 
        the trainers are permitted to work, and how the Peace Corps 
        balances volunteer safety with the goals of the Peace Corps.''

                                                          Anonymous

          ``Country security coordinator: The idea is good, but that 
        all countries need their own? There is something to be said for 
        economies of scale. Couldn't it be based on number of PVC's/
        staff/level of security risks, etc. vs. every country needing 
        one?''

                                             Female, Benin, 2001-03

          ``While I understand the issues of safety and security, I do 
        believe that the consideration must include context per 
        country. An in country office of Safety and Security would look 
        different in each country Peace Corps participates in and would 
        be most appropriate and helpful to volunteers.''

                                         Female, Guatemala, 1987-91

          ``I was a PC Country Director 1992-97. During my tenure, we 
        instituted significantly increased safety and security 
        measures, in response to local conditions (e.g., increased 
        crime, predictions of increased hurricane activity, political 
        instability). I strongly believe that the respective post is in 
        the best position to judge the needs in that country. The key 
        is good quality staff in the field and at headquarters, not 
        additional legislation and more bureaucracy.''

Male, Bolivia, Ecuador, Dominican Republic, 1970-71, 1980-83, 1992-
                                                                 97

          ``The most useful safety tool for volunteers to have is good 
        relations with their neighbors, who are likely to be concerned 
        about the health and safety of everyone in the village. 
        Volunteers are safest when they are well integrated in the 
        local society. Peace Corps can help with that integration. The 
        most effective thing that could be done to improve volunteer 
        safety and security would be to have enough in-country Peace 
        Corps staff to visit volunteers to check on their progress, 
        relations with their neighbors, safety, health, etc. Staff 
        needs to have experience as volunteers and experience in their 
        country of service to be effective in such a role. Adding more 
        layers of Peace Corps staff in Washington will not solve health 
        and safety problems. Kevin Quigley should speak to Congress 
        about the reality of life as a Peace Corps volunteer.''

                                            Male, Botswana, 1990-91

          ``While safety and security of PCVs is an important issue for 
        PC, the risks inherent in working in Third World countries is 
        and has always been a part of the job. I think we Americans try 
        to take all the risk out of our lives at the expense of truly 
        living.''

                                            Male, Cameroon, 1976-78

          ``I left the Peace Corps because I did not feel safe. Since I 
        left several of my associates have been robed, assaulted and 
        raped. I do not feel like safety issues were taken seriously 
        enough nor were they budgeted for.''

                                          Female, West Indies, 2003

          ``Safety and security were always the number one concern of 
        Peace Corps staff when I served. Beyond the instructions and 
        guidelines PC staff gave PCVs, there was the responsibility of 
        the PCVs to maintain regular contact with the office, with 
        other volunteers, and with their communities. Increasing safety 
        to PCVs is important, but at the same time, PCVs are adults and 
        should act like them.

                                            Female, Panama, 2001-03

(2) Should a study be conducted concerning the ``Five-Year Rule'' of 
        employment for Peace Corps staff and the rule's potential 
        implications on issues of recruitment, health, safety and 
        productive work assignments?
                YES: 158 (70%)
                NO: 60 (27%)

(3) Do you support ``Five-Year Rule'' exemptions for Peace Corps' 
        Office of the Inspector General, Office of Safety and Security, 
        and Office of Medical Services?
                YES: 114 (51%)
                NO: 98 (44%)
Comments on the ``Five-Year Rule'':
          ``The prime role where the 5-year rule might be eliminated is 
        for staff involved in budgets, where experience with the 
        Congressional budgeting process is important.''

                               RPCV, Ghana 1962-64, Romania 2004-06

          ``If the five-year rule is kept it should remain that there 
        should be no exceptions. The entire PC is somewhat transitory; 
        this might hurt in some areas, but all-in-all it is a benefit 
        to keep new people coming in.''

                                            Male, Thailand, 1962-64

          ``Term limits are, on the whole, a positive part of the PC 
        structure--keeping PC from becoming too bureaucratically rigid. 
        Exceptions should be based on special needs for continuity, 
        experience for opening a new program, program evaluations, etc. 
        at discretion of PC director and RDs--with some cap on the 
        number of third tours (basically, the current system). 
        Legislating certain positions for permanent exemption (S&S, 
        medical, etc.) is NOT a good idea. Machinations that inevitably 
        evolve will result in ``creative'' definitions of certain 
        person's jobs in order to circumvent the ``5-year'' rule. 
        Permanent exemptions will also lead to these folks having undue 
        influence within the system within 5-10 years (i.e., building 
        the bureaucratic empires the 5-year rule is designed to 
        mitigate).''

               Male, Hungary, Armenia, Mongolia, 1995-97; 1998-2003

          ``The five-year rule should be modified. It should apply to 
        how many years someone can serve in a position in Peace Corps, 
        not in the agency. Too much knowledge is lost. If a person who 
        has served 5 years is not hired in another position within the 
        agency, then they should be given the standard 3-year provision 
        towards another federal job. They then could reapply to work 
        for PC at a later time and if hired, so be it.''

                            Female, Venezuela, 1967-69; Staff, 1985

          ``The five-year rule should be done away with except for the 
        newly proposed security personnel. As long as all staff and 
        volunteers are subject to annual review, there is no reason to 
        limit their time of service.''

                                            Male, Thailand, 1975-77

          ``A process for waiver of the five-year rule should be 
        devised, for successive five-year periods, with required input 
        from active PCVs and RPCVs. The five-year rule made sense for 
        many years and still does. The original reasons--fresh turnover 
        of new ideas with new people and less chance of becoming a big 
        government bureaucracy with the same folks running the show--
        are still true today. In my mind as a past and current worker 
        in the Office of Medical Services as I look around the office I 
        am thankful for the five-year rule and would additionally say 
        there should be no exceptions and no extensions.''

                                          Female, Malaysia, 1967-68

          ``The 5-year rule should remain for all PC staff. That is the 
        true spirit of the agency.''

                                             Female, Niger, 1990-92

          ``I don't think security people should be any more sacred 
        than other employees of Peace Corps (regarding the 5-year 
        rule). I do think it important to have medical staff that is 
        knowledgeable and consistent and would support their exemption 
        from the rule.''

                                         Female, Guatemala, 1992-94

          ``I am not `solid' on most of the above questions, and could 
        likely be convinced to change the answer. But, I believe Peace 
        Corps should remain a different kind of agency, without 
        careerists, with minimum bureaucracy, and with the original 
        goals.''

                                                 Male, Sierra Leone

(4) Should an Office of the Ombudsman be created within the Peace 
        Corps?
                YES: 163 (72%)
                NO: 58 (26%)
Comments on the Office of Ombudsman:
          ``It will be essential that the Ombudsman and Inspector 
        General who are chosen come from the RPCV community and 
        appreciate the issues, challenges and concerns that country 
        programs face and the nature of the PCV in the field. If these 
        positions are filled by ill-informed folks, the legislation can 
        become detrimental to all concerned.''

     Male, Sierra Leone, India, Mongolia, 1966-68; 1969-71; 1995-99

          ``I like the idea of an Ombudsman; universities and colleges 
        have them, and it seems a better way to bring up problems/
        issues than solely going to Country Director and/or Washington 
        HQ. I also think the safety/security issues will only become 
        more relevant as time passes and it is a lot of responsibility 
        (on top of so many other duties/responsibilities) for the 
        Country Directors and staff to handle; creating a new position 
        to handle those issues strikes me as a good idea.''

                                Female, Dominican Republic, 2001-02

          ``Vital to keep Ombudsman and IG autonomous--i.e. independent 
        of agency control.''

                                               Male, Tonga, 1997-99

          ``There needs to be adequate funding for the PC. There also 
        needs to be a way for returnees, or vols, to complain and be 
        heard. So, can't PC set that up with someone as ombudsman 
        without making a whole new position with all the expense of 
        that?''

                                             Female, Niger, 1964-66

(5) Should an independent Inspector General for the Peace Corps be 
        established?
                YES: 99 (44%)
                NO: 116 (52%)
Comments on an independent Inspector General:
          ``My experience was that at least in Kenya the Country 
        Director's office did an excellent job. Any additional funding 
        by Congress should be used for volunteers not an unnecessary 
        bureaucratic layer of underutilized people.''

                                             Male, Kenya, 1998-2000

          ``I'm not comfortable with the Inspector General being a 
        presidential appointee, and I am especially uncomfortable with 
        the suggestion that that appointee could remain in office 
        indefinitely (if the five-year rule did not apply).''

                                             Female, Samoa, 2000-02

          ``The staffing of any congressional investigations (or GAO) 
        should be carefully done. A traditional government mindset 
        could lead to totally inappropriate findings.''

                       Male, Philippines, 1971-76, Washington Staff

          ``I am really nervous about PC becoming a political football 
        . . . a more independent Inspector General is one thing, but 
        appointed by the President? That's just asking for it to become 
        a totally political position.''

                                         Female, Bolivia, 1998-2000

(6) Do you support a report to Congress by Peace Corps concerning 
        medical screening processes and guidelines, including a 
        statistical review of the medical appeals process?
                YES: 148 (66%)
                NO: 70 (31%)
Comments on medical screening process and guidelines:

          ``In general, I am against the plan for Congressional 
        oversight of Peace Corps. I believe Peace Corps needs to plan 
        more for the safety of PCV's and I think that there should be 
        an independent review when a PCV is separated early from the 
        Peace Corps. My personal observation is that when I was in 
        Honduras form 1982-84, any one who should have separated from 
        Peace Corps was and most of those who had medical problems were 
        adequately treated or sent to the States for treatment. I did 
        have issue with the PC MD in Honduras at the time and more than 
        a few of us questioned his abilities and judgment and we felt 
        that our worries were not given proper consideration.''

                                          Female, Honduras, 1982-84

(7) Do you support a Comptroller General's review and report on issues 
        pertaining to Peace Corps' volunteer work assignments?
                YES: 117 (52%)
                NO: 97 (43%)
Comments on the issues concerning work assignments:

          ``After volunteers have been given job assignments, I believe 
        there should be periodic follow ups to ensure that what they 
        are doing actually benefits the people/students they are sent 
        to help as opposed to fulfilling their own agenda.''

                                      Female, Kazakhstan, 1998-2000

          ``Poor assignment planning was another major problem when I 
        served, and from talking with many other volunteers, this seems 
        to have been an issue throughout the history of Peace Corps. 
        While I fear creating more bureaucracy via new layers of 
        oversight, I also fear that Peace Corps may need some sort of 
        oversight to act in the best interests of volunteers.''

                                             Male, Jamaica, 1991-93

          ``I think PC staff must evaluate local requests for PCVs. 
        Some won't help more than obstruct. My days in Kofondua, Ghana 
        (01-03). There aren't enough places for us.''

                                               Male, Ghana, 2001-03

(8) Which of the following most closely represents your views related 
        to general funding for the Peace Corps and current legislation 
        pertaining to health, safety and security of Peace Corps 
        volunteers? (Choose one)

                97 (43%)  Peace Corps should continue to move forward 
                with President Bush's call for expanding the number of 
                volunteers in the field. Congress needs to appropriate 
                sufficient funding to address safety and security 
                concerns and pursue Peace Corps expansion targets.

                61 (27%)  Changes proposed in the legislation are not 
                necessary. The use of any additional funding should be 
                determined by the Peace Corps and not congressional 
                legislation.

                34 (15%)  Peace Corps needs to maintain its current 
                number of volunteers. Any funding that goes beyond 
                meeting current volunteer levels should be prioritized 
                for addressing issues included in the Safety/Security 
                legislation.

                31 (14%)  Issues included in congressional legislation 
                are of such importance that they should be given 
                priority attention even if budget constraints require 
                Peace Corps to reduce its number of volunteers in the 
                field.
Comments on the issues of funding for health, safety, and security of 
        Peace Corps:
          ``Safety/Security issues are being run into the ground. Let 
        the volunteers do their work. I'm not sure creating other 
        positions in Washington is exactly what we need . . . there are 
        plenty of posts that are operating with insufficient funds. 
        Send the money to where it is most needed . . . in the field.

                                          Male, Paraguay, 1992-2002

          ``It's not that I think this congressional thing is so very 
        important, but that in general I worry that we spread ourselves 
        way too thin in the interests of keeping up the number of 
        volunteers.''

                                             Female, Samoa, 2000-02

          ``Because of Congress' refusal to fund the Peace Corps 
        program at the requested level, they have reduced the 
        effectiveness of the volunteers currently in the field and 
        seriously put their lives in danger. When a volunteer can't 
        leave the rugged geographical boundaries of his/her site 
        because Congress won't allocate $40 for a visa to escape, we 
        have some serious problems. I hope nothing serious happens 
        because that seems to be the only catalyst that causes Congress 
        to act''

                                        Female, Uzbekistan, 2000-01

          ``The health and safety of PCVs must remain a high priority 
        regardless of budget considerations.''

                                        Male, Sierra Leone, 1961-62

          ``I am actually a current PCV directly affected by the 
        massive budget cuts and reapportionment of the remaining budget 
        to cover new safety/security rules. As a result, our post has 
        had to reduce staff, not turn on lights or fans, cut phone 
        availability, cut volunteer conferences and training. DC 
        managed to spend way over budget in anticipation of recruiting 
        based on President Bush's call for doubling PC, but then the 
        President failed to back an increase in the budget and DC has 
        had to cut post budgets to make up the difference.''

                                               Male, Tonga, 2002-04

          ``As a current Peace Corps staffer, anything that moves PC 
        away from being a partisan political operation and towards the 
        real mission of PC and real accountability at the highest 
        levels within PC would be worthwhile legislation. Too much 
        money being spent on Mexico, etc., detracts from the real PC 
        mission.''

                                                               Male

(9) While not currently in proposed legislation, there has been some 
        suggestion that all Peace Corps volunteers should work in pairs 
        in an effort to increase security. Should it be a requirement 
        that all volunteers be assigned in pairs?
                YES: 24 (11%)
                NO: 201 (89%)
Comments on the issue of volunteers being paired up:

          ``Rather than putting volunteers in pairs, I think a ``team'' 
        approach is more appropriate, in which volunteers are placed in 
        reasonable distances from other volunteers and have guidelines 
        in place for team check-ins and communication.''

                                              Female, Mali, 2000-02

          ``Forcing a pairing of all volunteers will change a dynamic 
        that today's Peace Corps relies upon. If a volunteer needs PCV 
        help he/she asks for it, if not they do the work themselves 
        with only local support, this is an example and a benefit to 
        the communities we serve.''

                                            Male, Thailand, 1962-64

          ``The procedures noted will not stop a true terrorist, and 
        they are the only ones we need to be concerned about. PCVs are 
        by their nature very independent, hard working, and likeable 
        people. Give them the tools to accomplish their jobs.''

                                                    Female, Somalia

          ``I think working in pairs is good for some and should be an 
        option open to all vols. Some vols may be fine with being by 
        themselves. There has been great success with vols being by 
        themselves. But some may be better with someone. Hope they get 
        along.''

                                             Female, Niger, 1964-66

          ``It is unfair to require volunteers to be assigned in pairs 
        unless the security situation in a country requires it. And if 
        that is the case then the more important question is why are 
        volunteers placed in countries or areas that are so unstable?''

                                             Female, Kenya, 1987-89

          ``Even as a single woman in Colombia, I firmly believe that I 
        would have been less successful in my volunteer assignment, 
        less successful in understanding the communities in which I 
        worked, and undoubtedly would have experienced much less growth 
        as an individual had I been assigned as one of a pair of 
        volunteers.''

                                          Female, Colombia, 1973-75

          ``The stress that life in a different culture can place on a 
        married couple is well known to Peace Corps. Who needs similar 
        stresses with a person with whom one has no commitment, and 
        possibly no affinity? Even co-workers who get along and work 
        well together would be stressed by having their entire lives 
        entwined. Please do not forget that for volunteers in small 
        rural communities, a Peace Corps assignment is not just a job, 
        it is a life. It does not take much imagination to realize that 
        most volunteers would have their relations with their community 
        significantly altered by the presence of another volunteer of 
        different personality, interests, skills, and demeanor.''

                                            Male, Thailand, 1981-84

          ``The character of most of the propositions above reflect a 
        naive and inappropriate view of the Peace Corps Volunteer 
        experience. Volunteers are effective precisely because they 
        figure out how to integrate in a foreign culture. Pairing of 
        volunteers would prohibit or delay such integration and create 
        a completely different dynamic.''

                                             Male, Senegal, 1963-65

          ``I don't think volunteers should have to be placed in pairs. 
        In my experience that would be unnecessary. Peace Corps staff 
        should use their judgment and specialized knowledge of the host 
        county area to determine if 2 volunteers need to be placed 
        together. This isn't necessary everywhere and what it means is 
        that some places that could be served won't be because there 
        aren't enough volunteers to go around.''

                                         Female, Macedonia, 1998-99

(10) While not currently in proposed legislation, there has been some 
        suggestion that all Peace Corps volunteers should have modern 
        communication equipment, such as cell phones. Should volunteers 
        be required to have such equipment?
                YES: 74 (33%)
                NO: 151 (67%)
Comments on the issue of the use of cell phones:

          ``We have to take into consideration that a lot of areas 
        where PCV's are located do not have accessibility to cell phone 
        networks, but I do believe it is essential for PCVs to be able 
        to communicate with local offices at all times. we were caught 
        in an attack by UNITA while I was in service. Since I thought 
        that there was a volunteer left behind, the office gave 
        permission to go get them. After I reached the volunteer's site 
        I found out someone else had already picked him up. I could 
        have seriously been hurt and put myself in a dangerous position 
        for no reason.''

                                         Female, Namibia, 1998-2000

          ``I was an Emergency Zone Coordinator and served on the 
        Safety and Security Work Group for Peace Corps Honduras (2001-
        03) and as such think that anything Peace Corps and/or Congress 
        through additional funding can do to improve the chain of 
        communication for volunteers in the field would be a great 
        help. We were looking into the idea of cell phones, and other 
        means of communication for some of our more remote 
        volunteers.''

                                          Female, Honduras, 2001-03

          ``Peace Corps volunteers are successful because they live and 
        work in the same circumstances as their counter parts. Changing 
        this in anyway will jeopardize their success/acceptance as well 
        as their ability to become part of the community. So, if their 
        counterparts have cell phones, sure get them for the 
        volunteers. Otherwise, find other tried and true ``low tech'' 
        ways to ensure safety and security.''

                                          RPCV, Costa Rica, 1975-78

          ``While I was serving as a PCV, my safety in my village was 
        in question. I felt that if I had had a cell phone, I would 
        have been safer. I ended up relocating out of my village.''

                                            Female, Belize, 2001-03

          ``Cell phones might be appropriate in some situations. In my 
        original site, they don't work. But when I worked in Quito as a 
        PCV coordinator, using a PC-issued cell phone was a 
        lifesaver.''

                                           Male, Ecuador, 1997-2000

          ``Initially, upon moving to my bush post in Niger, I would 
        have liked a cell phone. Later once I was integrated in the 
        village, it would have been intrusive and extremely unwelcome. 
        Safety is a concern, but so is preserving the culture of the 
        Peace Corps and its ideals.''

                                             Female, Niger, 2000-02

          ``I think that the idea of mandating PCVs to work in pairs or 
        requiring them to carry cell phones will significantly change 
        where volunteers are placed. It may not be a need-based 
        placement in certain regions, provinces or countries. If there 
        is no cell phone service in a village would they then not place 
        a volunteer there even if the village was desperately in need 
        of technical assistance related to agriculture, health or 
        education?''

                                          Female, Cameroon, 1993-95

          ``Depending on the location, cell phones can cause a 
        volunteer to be a target for theft, instead of providing a 
        safety tool.''

                                Female, Dominican Republic, 1991-94

          ``Modern communication equipment in the hands of PCVs would 
        only make them more suspect than they already are. PCVs are 
        always being thought of as spies and such equipment would 
        exacerbate those problems and make the volunteer less safe.''

                                     Male, Somali Republic, 1962-64

    Senator Coleman.  Thank you very, very much, Mr. Quigley.
    Ms. Threlkeld.

  STATEMENT OF CYNTHIA THRELKELD, GUATEMALA COUNTRY DIRECTOR, 
                 PEACE CORPS, WASHINGTON, D.C.

    Ms. Threlkeld.  Mr. Chairman and members of the committee, 
thank you for the opportunity to speak with you today. I would 
like to request that my full written testimony be entered into 
the record.
    Senator Coleman.  Without objection.
    Ms. Threlkeld.  As the current Country Director in 
Guatemala and a former volunteer in both Botswana and Costa 
Rica, I appreciate the opportunity to talk to you today about 
our program, the role of a country director, and the steps we 
take to prevent safety and security concerns.
    Mr. Chairman, as you noted, I am from Minnesota, and I had 
the opportunity to go home last May. It was great to be back 
especially at the height of spring, even though it was 40 
degrees.
    [Laughter.]
    Ms. Threlkeld.  Today in Guatemala, we have 185 volunteers 
working in agriculture, municipal development, the environment, 
health, small business, and youth. Volunteers work to diversify 
agricultural production and develop ecotourism projects. They 
work with local government to increase citizen participation in 
the democratic process and with schools to improve the health 
of rural elementary students. With 50 percent of the Guatemala 
population below the age of 24, our newest program is in youth 
development, and all of our programs include a component 
directed to youth.
    Let me share with you the role and responsibilities as a 
country director. Being a country director is an immense 
responsibility that my colleagues and I take to heart. We are 
held accountable, and rightfully so, for everything that 
happens at our post, from financial management to program 
quality and, first and foremost, for the safety and security of 
our volunteers.
    The primary components of our safety and security plan can 
be classified in two major categories: prevention and training, 
and support and response.
    Prevention is the most critical part of our plan and a 
component to which we devote a great deal of time. Peace Corps/
Guatemala provides 12 weeks of pre-service training upon 
arrival in country. Trainees are given the tools to understand 
the security risks unique to Guatemala, as well as general 
personal safety practices. By the end of training, the new 
volunteers are expected to develop their own personal plan and 
be prepared to activate and participate fully in assuring their 
safety and security.
    In August of 2003, Peace Corps/Guatemala added the position 
of safety and security coordinator, which now plays a central 
role at post. Our coordinator is a former volunteer who served 
in Guatemala and has lived in the country for over 7 years. He 
has earned the trust of the volunteers and helps us achieve the 
essential goal of encouraging them to act upon the safety and 
security information that we provide to them. He coordinates 
the information needed for our emergency action plan, ensures 
our documentation for compliance with Peace Corps regulations, 
and has developed and presented some of the sessions in our 
pre-service training.
    The role of the Peace Corps program manager is perhaps the 
most critical to volunteer safety. Our program managers are 
responsible to develop the project plans, to select the sites 
and the counterpart agencies, to provide technical assistance, 
personal support, and to visit volunteers in the field.
    In addition to the Peace Corps staff, the program manager 
and the safety and security coordinator, as the Country 
Director I also make site visits. I visit a region of the 
country for several days each month, supplemented with day 
trips to volunteers who are closer to the capital. It is 
important to me to see firsthand how volunteers live and work.
    A majority of volunteers in Guatemala own their own cell 
phones, which they purchase through their monthly stipend. The 
number has increased substantially over the past years as the 
technology in Guatemala has improved. It has made a substantial 
difference in our ability to maintain close contact with 
volunteers. It is now a key component of our emergency action 
plan. There are still volunteers, however, who depend on 
telegrams, beepers, a community phone, or a phone or a radio of 
their counterpart agency because cell phone coverage is not 
universal. We maintain at least three ways to contact each 
volunteer at all times.
    We tested our emergency action plan on May 26th of this 
year by sending out a message by cell phone, by beeper, by 
phone, with a communication to every volunteer to personally 
contact the Peace Corps office immediately. We had outstanding 
results with 92 percent of our volunteers responding within 16 
hours and confirmed location of 100 percent of our volunteers 
within 32.
    Peace Corps/Guatemala has an excellent relationship with 
the U.S. embassy. The Ambassador places high priority on 
collaboration with Peace Corps. I attend weekly country team 
and emergency action committee meetings and receive briefings 
from the appropriate embassy staff as needed on political, 
social, or economic issues that may have an impact on the Peace 
Corps. Our primary contact is with the regional security office 
which plays a key role in all of our safety and security plans.
    My written testimony provides even more detail on the 
comprehensive program for the prevention and safety of security 
incidents. In addition, Peace Corps/Guatemala is prepared to 
respond with a full range of support to volunteers who are 
victims of crimes or accidents. The Peace Corps medical office 
is the first line of response to volunteers who have been 
injured in either in an accident or an incident. Our medical 
staff includes a consulting doctor and qualified nurses who are 
on 24-hour call in the event of a major incident. Our response 
is the close coordination from the full team: Peace Corps/
Guatemala, the regional security office, Peace Corps/
Washington. We provide immediate attention to the physical and 
emotional needs of the volunteer and take all steps necessary 
for successful prosecution.
    In conclusion, I would like to say that since my two terms 
as a volunteer in the 1980s and the 1990s, the goals of the 
Peace Corps have not changed, but believe me, the level of 
accountability and the extent of regulations related to safety 
and security have. Responsibility is placed on all parties, 
from the country director and staff to the volunteers 
themselves.
    I sincerely doubt you would find any volunteers currently 
serving in Guatemala who would complain that Peace Corps does 
not provide enough information, support, or training on safety 
and security. It is more likely they would complain that too 
many measures are in place and it restricts their personal 
liberties.
    Serving in the Peace Corps requires a willingness to 
restrict your personal liberties. Volunteers are expected to 
uphold the image of Peace Corps at all times, to live within 
the rules and the norms for safety and security, and to be held 
accountable for their time and actions. You would be impressed 
by the way volunteers in Guatemala step up to that 
responsibility and the contributions they make to the United 
States.
    Mr. Chairman, I am grateful to you and to members of the 
committee for your continues support for the Peace Corps 
mission. If your travels ever take you to Guatemala, I would be 
delighted to show you the work of our volunteers.

    [The prepared statement of Ms. Threlkeld follows:]

                Prepared Statement of Cynthia Threlkeld

    Mr. Chairman and members of the committee:
    Thank you for the opportunity to appear before your committee 
today. As the current Country Director in Guatemala and a former Peace 
Corps volunteer in both Botswana and Costa Rica, I appreciate this 
opportunity to present an overview of our program in Guatemala, my role 
as the Country Director, and our efforts to prevent and respond to 
safety and security issues. Mr. Chairman, I would like to add that 
Minnesota has been my home for over 25 years. I was just in the Twin 
Cities for a visit at the end of May, and it was great to be back home 
at the height of spring.
    Let me begin my remarks by highlighting Peace Corps' rich history 
of service in Guatemala and the current status of our program. The 
first Peace Corps volunteers arrived in Guatemala in 1963. In 
recognition of 41 years of quality service, in March of this year, 
President Oscar Berger awarded Peace Corps with the Orden del Quetzal, 
the highest honor Guatemala bestows on an individual or organization 
that has rendered distinguished service. Peace Corps Director Gaddi 
Vasquez personally came to Guatemala to receive the honor on behalf of 
the more than 4,000 volunteers who have served in Guatemala since 1963, 
and to issue a challenge to those of us who have the privilege to serve 
there today. Peace Corps has the respect and credibility that is needed 
to make a significant impact on grassroots development efforts, which 
strengthens the friendship and goodwill between our countries at a time 
when Guatemala is again under new, forward-looking leadership.
    Today we have 185 volunteers working in agriculture, municipal 
development, the environment, health, small business and youth 
development. Volunteers work to diversify agricultural production and 
better manage harvests. They work with local government to increase 
citizen participation in the democratic process, and with schools to 
improve the health and hygiene of rural elementary students. Volunteers 
help develop eco-tourism projects and promote environmental education. 
With 50 percent of the Guatemalan population under the age of 24, our 
newest program is in youth development, and all of our programs include 
a component directed to youth as the basis for the future of the 
country.
    By living and working in local communities, volunteers learn 
firsthand about the challenges that face a developing country. Poverty 
is no longer a statistic; it translates into names and faces. 
Volunteers do not leave this community behind after they have completed 
their two years of service. They return to the U.S. and become their 
voice to the world, helping Americans better understand our role as 
world citizens.
    Let me share with you my role and responsibilities as Country 
Director in Guatemala. Being a Country Director is much more than the 
challenge of representing the Peace Corps and implementing its goals in 
grassroots development and intercultural exchange. It is an immense 
responsibility that my colleagues and I take to heart. We are held 
accountable, and rightfully so, for everything that happens at our 
post, from financial management to program quality and, first and 
foremost, for the safety and security of volunteers.
    As the Director has noted, the message that safety and security is 
the number one priority of the Peace Corps is clearly conveyed to 
Country Directors as well as to all volunteers throughout their term of 
service.
    The primary components of our safety and security plan can be 
classified into two main categories: (1) prevention and training and 
(2) support and response.

                       I. PREVENTION AND TRAINING
    Prevention is the most critical part of our safety plan, and a 
component to which we devote a great deal of time and attention.
Pre-Service Training
    Peace Corps/Guatemala has twelve weeks of Pre-Service Training for 
prospective volunteers upon arrival in country. In addition to being 
fully integrated into the language, cross-cultural and technical 
training, the topic of safety and security is covered in seven separate 
sessions presented by the State Department's Regional Security Officer, 
the Peace Corps Medical Officer, and the Safety and Security 
Coordinator through a combination of lectures, videos, information on 
crime statistics, and a review of past security incidents.
    Trainees are given the tools to understand the security risks 
unique to Guatemala, as well as general personal safety practices. By 
the end of training, the new volunteers are expected to develop their 
own personal plan and participate actively and fully in assuring their 
own safety and security.
Role of Peace Corps/Guatemala Safety and Security Coordinator
    In August of 2003, Peace Corps/Guatemala added the position of 
Safety and Security Coordinator, which now plays a central role at 
post. The Safety and Security Coordinator reports directly to the 
Country Director and concentrates on safety and security issues related 
to the prevention, training and support of volunteers. Our coordinator 
is a former Volunteer who served in Guatemala, and has lived in the 
country for over seven years. He has earned the trust of volunteers and 
thus helps us achieve the essential, but somewhat elusive goal of 
encouraging volunteers to act upon the safety and security information 
we provide to them. He also coordinates the information needed for our 
Emergency Action Plan, ensures our documentation for compliance with 
Manual Section 270 related to safety and security, developed and 
presented some of the sessions in Pre-Service Training, organizes the 
Regional Safety and Security meetings, manages the new E-Zone 
Coordinator system. The Safety and Security Coordinator also keeps 
fully informed on any political or social disturbances through contact 
with the State Department's Regional Security Office and by staying 
informed through local news sources. He is a resource to both 
volunteers and staff, and I will elaborate on some of the safety tools 
that he has helped put in place.
Bi-Annual Regional Safety and Security Meetings
    Peace Corps/Guatemala holds safety and security meetings for all 
volunteers every six months within each region of the country to 
reinforce safety and security training, review any new security issues, 
and discuss any concerns volunteers may have about their personal 
safety. Topics of discussion include preparation plans for natural 
disasters and review of the Peace Corps Emergency Action Plan.
Volunteer Safety Manual
    To augment our safety information, our Safety and Security 
Coordinator just completed a draft of a Volunteer Safety Manual that 
will reinforce and expand upon topics covered in Pre-Service Training 
and includes sections on safety while at site, including housing and 
work related risks; during travel, including off-limits areas and 
travel to the capital; and other general concerns specific to 
Guatemala.
Role of Peace Corps Program Manager, Site Selection, and Field Visits
    The role of the Peace Corps Program Manager is perhaps the most 
critical to volunteer safety. Our Program Managers are responsible to 
develop project plans and Volunteer Activity Descriptions, select sites 
and counterpart agencies, provide technical assistance and personal 
support, and visit volunteers in the field. Peace Corps/Guatemala has 
specific criteria and a checklist for site selection that includes a 
security assessment, availability of appropriate housing, access to 
transportation and communication and other key factors.
    Site visits are made a minimum of twice during the first year, 
including once during the first three months, and once during the 
second year of service, with additional visits as needed due to either 
program issues or security concerns. Volunteers select their own 
housing within a clear set of security guidelines, often with 
assistance from either their counterpart agency or a volunteer site 
mate. The Program Manager reviews and approves housing during the 
initial site visit, and also assesses the neighborhood. In addition to 
site visits from the Program Manager, volunteers also receive visits 
from the Program and Training Officer, Program Assistants, and the 
Safety and Security Coordinator. These visits are on an as-needed 
basis, and supplement the visits mentioned above.
    As Country Director, I also make site visits. I make one extended 
visit of several days to a specific region of the county each month, 
supplemented with day trips to volunteers closer to the capital. It is 
important for me to see how volunteers live and work, and to listen to 
their comments and concerns about their projects, as well as their 
general sense of well being. In addition, I have an ``open door'' 
policy for volunteers that stop by the office, respond to phone calls 
and emails that I receive on a continuous basis, meet with volunteers 
during in-service trainings, and personally interview each Volunteer at 
the completion of his or her service. Safety and security is a topic 
during each of these contacts.
Expectations for Volunteer Behavior and Peer Support Network
    Peace Corps/Guatemala expects volunteers to adjust their lifestyle 
to adhere to recommended safety and security standards and policies. 
Some policies can result in administrative separation if not followed, 
especially the Peace Corps ``zero tolerance'' policy on the use of 
illegal drugs.
    Peace Corps staff recognize that the personal and emotional 
challenges of serving as a Volunteer can at times contribute to 
adjustment problems or excessive alcohol use, which in turn compromises 
personal security. Peace Corps/Guatemala volunteers have taken an 
active role by developing a peer support network as a way to assist one 
another with these challenges, especially during the initial months of 
service.
Communication, Emergency Action Plan, and Cell Phones
    A majority of volunteers in Guatemala own their own cell phones, 
which they purchase through their monthly stipend or personal 
resources. The number has increased substantially over the past several 
years, as access to the technology in Guatemala has improved. It has 
made a substantial difference in the ability of Peace Corps to maintain 
close contact with volunteers and is now a key component of the 
Emergency Action Plan. There are still volunteers who depend on 
telegrams, beepers, community phones, or counterpart agencies as their 
primary connection to the office because cell phone coverage is not yet 
universal, and the Peace Corps maintains at least three methods of 
contacting volunteers at all times. Volunteers are aware of the need to 
maintain discretion in the use of cell phones, especially in order to 
avoid theft, by keeping the phone on silent ring and not using it while 
in public view. Additionally, the Peace Corps office in Guatemala City 
also has a satellite phone for use in case of major emergencies.
    Peace Corps/Guatemala tested its Emergency Action Plan on May 26th 
by sending out text messages by cell phone, beeper, telegrams, email, 
and phone depending on the communication plan for each Volunteer. As 
part of the test, volunteers received a message instructing them to 
personally contact the Peace Corps office immediately. We had excellent 
results that far exceeded any previous tests, with confirmed location 
of volunteers according to the following timeline: 83% within 8 hours; 
92% within 16 hours; and 100% within 32 hours.
Out of Site Policy and Emergency Zone System (E-Zone)
    An improved out of site policy for Peace Corps Guatemala went into 
effect July 5, 2003. The policy provides specific instructions to 
volunteers on how to report their location to Peace Corps every time 
they travel out of their site. Concurrent with the new policy, a 
modified warden system called the ``E-Zone System'' was put in place. 
This system creates a nationwide network of volunteers with good access 
to communication that have agreed to assist with relaying security 
information to volunteers within their region and to serve as a 
standard point of contact for updates during an emergency. Their role 
supplements rather than replaces staff responsibilities for these 
tasks. E-Zone Coordinators receive training and a small stipend for 
cell phone minutes and Internet use.
Restrictions on Travel to Capital and Dedicated Security Phone Line
    Guatemala City is one of the more high-risk areas of the country. 
Volunteers are advised to avoid travel to the capital except when 
necessary for official business. Peace Corps/Guatemala has a dedicated 
security phone line with a message that is updated daily advising 
volunteers on any protests, roadblocks, or disturbances in the capital 
and whether it is clear to travel to the Peace Corps office. Volunteers 
are instructed to call the number before any travel to the capital, and 
to take a taxi from the edge of town to the Peace Corps office rather 
than using public transportation. Also, U.S. embassy families open 
their home to volunteers through a ``bed and breakfast'' program to 
offer a safe alternative to a hotel, as well as moral support for 
volunteers while they are in the capital.
Embassy Support and Role of Regional Security Office
    Peace Corps/Guatemala has an excellent relationship with the U.S. 
Embassy. The Ambassador places a high priority on collaboration with 
Peace Corps, and communicates that to the Country Team. The Ambassador 
briefs Peace Corps trainees on the political situation in Guatemala, 
hosts our swearing-in ceremonies, makes site visits to volunteers when 
he is in the field, personally calls volunteers who have been injured 
during service, and participates in the ``bed and breakfast'' program 
that I just mentioned. As Country Director, I attend weekly Country 
Team and Emergency Action Committee meetings, and I receive briefings 
from the appropriate embassy staff as needed on political, social, or 
economic issues that may have an impact on the Peace Corps.
    The primary safety and security contact for the Peace Corps within 
the embassy is with the Regional Security Office. The Regional Security 
Office plays an integral role in all aspects of our safety and security 
plan: they present Pre-Service Training sessions on crime prevention; 
provide information on security concerns in specific geographic regions 
or during civil disturbances; participate in debriefings or meetings to 
discuss specific incidents; and respond immediately to major security 
incidents involving volunteers, including traveling to site to assist 
local police with crime investigations and follow-up.
    Maintaining a strong relationship between Peace Corps/Guatemala and 
the Regional Security Office is considered one of our highest 
priorities.

                        II. RESPONSE AND SUPPORT
    We have a comprehensive program for the prevention of safety and 
security incidents, but we can never fully eliminate them because of 
the realities of the environment in which we operate. Peace Corps/
Guatemala is prepared to respond with a full range of support to 
volunteers who are victims of crime or accidents.
Role of the Peace Corps Medical Office
    The Peace Corps Medical Office is the first line of response to 
volunteers who have been injured in either an accident or assault. Our 
medical staff includes a consulting medical doctor and qualified nurses 
who are on call 24 hours a day. These medical professionals are highly 
experienced in responding to both the physical and emotional needs of 
volunteers, collecting the proper forensic evidence when necessary, and 
serving as a triage for further medical or counseling services either 
in Guatemala, or through medical evacuation to the United States. The 
Medical Office works in close collaboration with the Office of Medical 
Services in Peace Corps/Washington, which provides excellent care to 
volunteers who need to go to Washington for post-trauma counseling or 
medical follow-up after a safety or security incident occurs.
    The Medical Officers are also fully involved in pre-service 
training, in-service training, and provide input on criteria for 
housing, site selection and all other aspects of Peace Corps life.
Assaults and Major Security Incidents
    In the event of a major security incident or assault, the key to 
the response is the close coordination and collaboration from the full 
team, including Peace Corps/Guatemala, the Regional Security Office, 
and Peace Corps/Washington. One excellent resource developed by Peace 
Corps is the ``Rape Response Handbook,'' which clearly outlines roles 
and responsibilities. This handbook covers not only the immediate steps 
that need to be taken to ensure the physical and emotional well-being 
of the Volunteer, but also steps for successful prosecution of the 
case, and tips for managing the difficult emotional response of the 
victim, as well as other volunteers and staff.
Debriefing and Monitoring of Security Incidents
    Peace Corps/Guatemala carefully reviews security incidents, both 
with volunteers and staff, including the Regional Security Office when 
appropriate. The goal is to cover the following points: could the 
incident have been prevented; what was the quality and depth of the 
Peace Corps/Guatemala staff response; were there any steps the 
Volunteer could have taken to reduce the risk; what are the lessons 
learned for site development or Volunteer training; and what are the 
recommendations for monitoring or further action steps. Volunteers are 
directly involved in the development of any action plans, especially 
those involving possible site changes or the need for close monitoring 
of the security situation in their community or region.
Peace Corps Office of Inspector General
    The Peace Corps Office of Inspector General coordinates the 
investigation and prosecution of violent crimes against volunteers, 
including providing guidance on the management of forensic evidence. 
Each case has to be managed according to the laws and court procedures 
in Guatemala, and the Country Director consults with the Office of 
Inspector General and the Regional Security Officer about the retention 
of a local lawyer to advise the post on the criminal procedures. An 
agent from the Inspector General's Office will interview crime victims 
to help clarify the facts of the case, and will accompany those victims 
willing to return to Guatemala for court proceedings.
Conclusion
    I served two terms as a Peace Corps Volunteer, in the 1980s and 
again in the mid-1990s. The goals of the Peace Corps have not changed, 
but--believe me--the level of accountability and the extent of the 
regulations related to safety and security certainly have. 
Responsibility is placed on all parties from the Country Director and 
staff to the volunteers themselves.
    I doubt you would find many volunteers who currently serve in any 
of the 71 Peace Corps programs around the world who would complain that 
the Peace Corps does not provide enough information, training or 
support on safety and security. It is more likely they would complain 
that too many measures are in place, and it restricts their personal 
liberties.
    Service in the Peace Corps requires a willingness to sacrifice some 
of your personal liberties. Volunteers are expected to represent the 
image of the Peace Corps at all times, live within the rules and norms 
for safety and security, and be held accountable for their time and 
their actions. You would be impressed by the way volunteers in 
Guatemala step up to that responsibility, and the contributions they 
make representing the United States.
    In return for their commitment, the Volunteer has the right to 
expect the Peace Corps to provide a well-defined job, a carefully 
selected site and the proper technical, medical and personal support to 
help facilitate their success. The primary role of the Country Director 
is to ensure that all parties live up to their end of the bargain.
    Does it always work the way we hope it will, and thus is everyone 
content and satisfied? No, we're not perfect, but we do our best and we 
set high standards and continually strive to improve.
    In conclusion, Mr. Chairman, I am grateful to you and members of 
the Committee for your continued support of the Peace Corps mission. If 
your travels ever bring you to Guatemala, I would be delighted to show 
you the work of our volunteers--wonderful American citizens who truly 
exemplify a spirit of service. I now look forward to answering any 
questions you may have.

    Senator Coleman.  Thank you, Ms. Threlkeld.
    Ms. Maloy.

     STATEMENT OF GLADYS MALOY, FORMER PEACE CORPS ROMANIA 
                  VOLUNTEER, WASHINGTON, D.C.

    Ms. Maloy.  Mr. Chairman and members of the committee, I 
submitted a lengthy testimony for the record. If you would 
enter that, I would appreciate it.
    Senator Coleman.  It will be entered, without objection.
    Ms. Maloy.  Thank you. Let me begin by thanking you for 
being able to appear here. My name is Gladys Maloy, and I am a 
former Peace Corps volunteer in the country of Romania from 
February 2000 to June 2002. So my comments and observations are 
quite recent and fresh in my memory.
    Today I would like to talk about the safety and security I 
experienced during my Peace Corps experience, and I have made 
an effort to let you draw your own conclusions, although at the 
end I do try to lead you a little.
    Romania is a country of approximately 23 million people 
with a communist past that was both destructive to the people, 
as well as the environment. Peace Corps came soon after the 
1989 revolution, and I was a member of the 10th group of 
volunteers in country. Our group was diverse with all ages and 
backgrounds. Our official jobs included social work, teaching 
English, business development, and environment. However, we all 
taught our colleagues English and were involved in many 
projects from hugging babies in orphanages to encouraging voter 
participation in elections and policy making.
    The first 12 weeks were devoted to preparing us to live and 
work in the country. During that time, I lived with a Romanian 
family and met every day with other volunteers for training. My 
Romanian host did not speak English, so it was a challenge and 
sometimes frustrating, but always stimulating.
    Near the end of training, our group set up our own safety 
and security committee of volunteers, and we elected 
representatives from the major geographic areas of Romania. 
These representatives worked closely with Peace Corps staff and 
were available to discuss personal and emotional issues from 
volunteers who were hesitant to discuss those with staff.
    Near the end of training, I was introduced to my NGO 
counterpart and traveled with her for a few days to site. My 
counterpart was a member of the organization I would work with 
and was responsible for my welfare at work and at home.
    Soon after I moved to site, Peace Corps medical staff 
visited me and reviewed my living conditions. If I had had a 
problem, they would have come sooner. Site visits by Peace 
Corps program staff and the country director were frequent.
    I lived in Galati, a city of 400,000 at the mouth of the 
Danube River and worked in the environmental sector. Other 
Peace Corps volunteers, all women, lived there and worked in 
different sectors, but we all had separate apartments. Peace 
Corps did not provide cell phones, but I purchased one, as did 
most other volunteers, and we had good reception. The cost of 
the cell phone was well within our monthly living allowance of 
$188 a month.
    Any time I left site for another location in Romania, even 
weekends and holidays, I had to report my destination to my 
program director, along with all contact information, reason 
for travel and dates. When leaving the country, I needed prior 
approval and a request for vacation days, and it had to be 
filled out in advance and approved by my program director and 
the country director.
    The country director did weekly mailings to all volunteers 
with a Newsweek magazine and a letter containing country news 
and advisories of potential security risks where volunteers 
lived and in Bucharest, the capital city. A Peace Corps medical 
volunteer and a program staff member were always available for 
consultation by telephone, 24 hours a day.
    An emergency action plan was in place, and it used a tier 
system of volunteer contact. The system was tested often when 
new groups arrived and at unannounced times. I do not remember 
the statistics, but I do recall that if it was not fast enough, 
they did it again.
    Judging from my experience in Peace Corps as a volunteer, 
the safety and security of volunteers is a high priority, and 
with the changing world situation, they have adapted quickly to 
meet these demands. One example in Romania is with the 
formation of a volunteer advisory committee of elected 
representatives from each sector to screen volunteer issues and 
present them to the country director at a monthly meeting. I 
was elected to represent the environmental sector and after a 
shaky start, the participation was remarkable. We were able to 
give the country director an insight into volunteer concerns 
and problems that he would have never been able to or had the 
time to address.
    Keeping the focus on volunteers and not letting one issue 
overshadow all others is important. My experience in Romania 
was one of the most rewarding of my life. I feel the Peace 
Corps did everything possible to secure my safety, but as 
always, anywhere you travel, you take personal responsibility 
for being aware of dangers and making an effort to avoid them. 
Being integrated into the community is of utmost importance, 
and it allows us, as Peace Corps volunteers and citizens of the 
United States, to promote all the great values for which this 
country stands.
    Thank you for the opportunity to appear, and I hope my 
brief presentation of my Peace Corps experience is helpful for 
your investigation and your decision-making.

    [The prepared statement of Ms. Maloy follows:]

                 Prepared Statement of Gladys M. Maloy

    Mr. Chairman and members of the committee, let me begin by thanking 
you for the opportunity of appearing before you today. My name is 
Gladys Maloy; I was a Peace Corps Volunteer in Romania from February 
2000 until June 2002, so my comments and observations are quite recent 
and fresh in my memory.
    I was born and raised in south Florida and was Mayor of my small 
town in Palm Beach County for twelve years. I earned a degree in 
Chemistry and studied accounting and finance. I have three grown 
children, two attorneys and a Ph.D. Peace Corps had always been 
something I thought about doing; so, when the company at which I was 
CFO was sold, I joined as a senior volunteer. Today I want to talk 
about the safety and security as I experienced it during my Peace Corps 
service.
    Romania is a country of approximately 23 million people with a 
communist past that was both destructive to the people as well as the 
environment. Peace Corps came soon after the December 1989 revolution 
and I was a member of the 10th group of volunteers in country. Our 
group was diverse with all ages and backgrounds. Our official jobs 
included social work, teaching English, business development and 
environment; however we all taught our colleagues English and were 
involved in many other projects from hugging babies in the orphanages 
to encouraging voter participation in elections and policy making.
Training
    The first 12 weeks in Romania were devoted to preparing us to live 
and work in country. During that time I lived with a Romanian family 
and met each day (Monday through Saturday) with the other volunteers 
for eight hours of training in Romanian language, cross-cultural 
orientation, technical training, and safety and security. My Romanian 
hosts did not speak English so it was challenging and sometimes 
frustrating, but always stimulating. This living arrangement was 
helpful in understanding the country and gave me an in depth look into 
the life of the ordinary Romanian.
    Each training session consisted of four hours of language with the 
Peace Corps Romanian language teachers. The remaining four hours were 
training sessions with Peace Corps medical and program staff, national 
government officials, local security officials, NGO leaders, U.S. 
officials and others. There were lectures on safety and security issues 
which included videos, publications on crimes statistics with detailed 
problems and their solutions. Volunteers already in country came to 
training sessions, shared their experiences and gave us information on 
what to expect.
    During Saturday sessions we took trips with our language teachers 
to acquaint us with travel by train, bus and taxi. Since our teachers 
were Romanian, we received invaluable first-hand knowledge of what to 
do, where to go and where not to go. We also took a three-day trip with 
our language teacher to visit volunteers already working with an 
organization. We meet their counterpart and visited their office and 
apartment.
    Near the end of training our group set up a Safety and Security 
Committee of volunteers and elected representatives from the major 
geographic areas of Romania. These representatives worked closely with 
the Peace Corps medical staff and were available to discuss personal 
and emotional issues the volunteers were hesitant to discuss with 
staff. We were fortunate to have three trained physiotherapists in 
Group 10 who were all members of this committee.
Moving to Site
    Near the end of training I was introduced to my NGO counterpart and 
traveled with her for a few days to site. My counterpart was a member 
of the organization I would work with and was responsible for my 
welfare at work and at home. My counterpart found an apartment and 
after consulting with Peace Corps medical, she rented it for me. I was 
given a checklist by Peace Corps medical office to evaluate the 
apartment for their review. There were detailed evaluation criteria 
concerning health and safety, such as no apartment could be located on 
the ground floor unless it had bars on the windows and doors. Peace 
Corps medical and program staff carefully evaluated the assessments and 
if there was a problem they went to the site to review it.
    Soon after I moved to site the Peace Corps medical staff visited me 
and reviewed my living conditions. If I had had a problem they would 
have come sooner. I was asked to supply a list with addresses and phone 
numbers of my close neighbors and the pharmacies, doctors and hospitals 
in my area so that they would be on record with Peace Corps in case of 
an emergency. My counterpart information was already on file but I 
verified it. Medical also visited me at my one year anniversary.
Living at Site
    I lived in Galati, a city of 400,000 at the month of the Danube 
River as it flows into the Danube Delta and the Black Sea, and worked 
in the environmental sector. Other Peace Corps volunteers lived there 
and worked in different sectors, but we all had separate apartments. 
Galati has a high Roma population and the major employer is the Sedix 
steel mill, one of the largest steel mills in Europe. Unemployment is 
high due to cut backs in steel production for the world market. My 
counterpart was helpful in introducing me to the city and making sure I 
was comfortable with my new surroundings.
    Peace Corps did not provide cell phones, but I purchased one, as 
did most other volunteers, and had good reception. The cost of the cell 
phone was well within my monthly living allowance of $188 per month. 
Some of the volunteers in small villages and mountainous regions were 
unable to use cell phones and relied on internet cafes, which were 
abundant in most communities, and land line phones either at home or in 
their office or school. When I retuned to Romania for a visit in 
November 2003, I found that cell phone service was available country 
wide and that the volunteer living allowance covered the cost.
    Site visits by Peace Corps program staff and the country director 
were frequent. The environmental sector was very active in many 
projects and the program staff acted as a conduit for passing 
information. Any time I left my site for another location in Romania 
(even weekends and holidays) I had to report my destination to my 
program director along with all contact information, reason for the 
travel and dates. When leaving the country I needed prior approval and 
a request for vacation days had to be filed in advance and approved by 
my program director and the country director.
    The country director did weekly mailings to all volunteers with a 
Newsweek magazine and letter. The letter, along with other things, 
contained advisories of potential security risks where volunteers lived 
and in Bucharest, the capitol city. We also received e-mails to keep us 
informed before the weekly mailing arrived. A Peace Corps medical and 
program staff were always available by phone 24 hours.
    An Emergency Action Plan was in place and it used a tier system of 
volunteer contact. Peace Corps contacted the top tiers and they were 
responsible for contacting the next tier and reporting to Peace Corps 
and so on. The system was tested often when new groups arrived and at 
unannounced times. I do not recall the statistics but I do recall that 
if it was not fast enough it was done again.
Summary
    Judging from my experience as a Peace Corps volunteer the safety 
and security of the volunteers is a high priority and with the changing 
world situation they have adapted quickly to meet those demands. One 
example is in Romania with the formation of a Volunteer Advisory 
Committee of elected representatives from each sector to screen 
volunteer issues and present them to the country director at a monthly 
meeting. I was elected to represent the environment sector and after a 
shaky start the participation was remarkable. We were able to give our 
country director an insight into volunteer concerns and problems that 
he would never have been able to or have the time to address.
    Keeping the focus on the volunteers and not letting one issue over 
shadow all the others is an important function of the Peace Corps. 
Creating more structured and operational peer support groups, while 
volunteers are in country as well as addressing effectiveness of safety 
and security, site selection and counterpart choices would allow for a 
more robust safety net for volunteers.
    My experience in Romania was one of the most rewarding of my life. 
I feel the Peace Corps did everything possible to insure my safety, but 
as always anywhere you travel you must take personal responsibility for 
being aware of the dangers and making every effort to avoid them. I 
certainly agree and appreciate the Peace Corps safety and security 
policies of placing volunteers in their community thus enabling them to 
work closely on a more personal level. Being integrated into the 
community is of the utmost importance for it allows us as United States 
citizens to promote all the great values for which our country stands.
    I thank you for the opportunity to appear and I hope my brief 
presentation of my Peace Corps experience has been in some way helpful 
to your investigation.

    Senator Coleman.  Thank you, Ms. Maloy.
    Just a general comment to the volunteers. Thank you for 
your service. I have the deepest respect and admiration for 
what you do. I reflect on Mr. Quigley and the association you 
represent. These are changing times. We live at a time where 
the values that this country represents are under attack. We 
are involved in a global war on terror. And the fact that we 
have folks, young and not so young, who are willing to go out 
in the world and present the best face of America, truly a 
helping hand, is something that we should applaud and support 
and make sure that it is done in the safest way possible, which 
is really the focus of this hearing. But again, I do want to 
simply say thank you for your service and what your service 
reflects. My thanks to all the others who are not in this 
hearing room today. Very important.
    Mr. Quigley, just a quick question. You were going through 
your list of your survey. We did not get the results of the 5-
year rule. What do your members think about the 5-year rule? I 
want to talk about that.
    Mr. Quigley.  On the proposal to do a report to Congress on 
the 5-year rule and the rule's potential implications on issues 
of recruitment, health, safety, and productive work 
assignments, Mr. Chairman, 70 percent of our respondents 
supported this provision.
    Senator Coleman.  Mr. Ford, in your testimony you noted 
that incident rates for most types of assaults have increased, 
but the report then says they have stabilized over the last few 
years. Is there anything that you heard from Director Vasquez's 
testimony that is inconsistent with what you found in terms of 
reporting number of incidents?
    Mr. Ford.  No. First of all, they report the incidents I 
think in 10 different categories. Some of them have gone down. 
Some of them have remained about the same as they have been for 
the last several years. I do not recall, looking at the 2002 
data, whether any of them had actually increased over the last 
few years.
    In our report, we show a 10-year trend of incident rates 
for several of the key categories. When they started to track 
this information in 1990, in most cases the incident rates went 
upward, and then they stabilized in many areas over the last 2 
or 3 years.
    Senator Coleman.  You noted that since you have issued your 
report, the Peace Corps has taken a number of steps. Can you 
give me an overall characterization as to the adequacy of those 
steps to address some of the concerns that the GAO report 
raised?
    Mr. Ford.  Sure, I would be happy to. I have to say that 
since the report has come out, the Peace Corps has implemented 
many of the suggestions that were contained in that report. 
They have added quite a few new staff that have a security 
mission. They have streamlined and improved their guidelines to 
the field in terms of trying to come up with a more 
standardized approach, which when we did our work a couple of 
years ago, we found was not very standardized.
    We have not been back to the field, so we do not know the 
level of compliance with the new rules. Obviously, we have 
heard from the witnesses that they believe that there is an 
active effort on the way to comply with some of the issues that 
we raised in our report. So overall, we think that the Peace 
Corps has taken a lot of positive steps to increase this safety 
and security issue within the organization.
    Senator Coleman.  That is very encouraging, Director Ford.
    Ms. Threlkeld talked about testing the system and noted 
that within 32 hours, 100 percent of the volunteers had been 
accounted for. Mr. Ford, is that good or bad? Can we do better? 
Is there any way to evaluate that standard? And have you looked 
at ways in which we can improve it?
    It was indicated that within 32 hours we could find out 
where all the volunteers are. I am trying to figure out if it 
should be 24 hours. Is 32 hours the best we can do? Is there a 
way to improve that? Do you have any sense of that in terms of 
the tracking down of volunteers?
    Mr. Ford.  You are asking me this?
    Senator Coleman.  Yes. Is there anything in the GAO study 
that reflected on the ability to identify volunteers where they 
are at a given moment?
    Mr. Ford.  One of the things we did, after we issued our 
report, was we went back and studied the response times based 
on the testing that the Peace Corps took in 2003. We did see an 
increase in the Peace Corps' ability to contact their 
volunteers. My recollection is that in 2003 40 percent of their 
overseas missions were able to get a hold of all of their 
volunteers within 24 hours, and I think another 20 to 25 
percent, they were able to get in contact with all their 
volunteers within 48 hours. That was an improvement in 
comparison to 2001 when we did the same analysis. For that same 
time frame, the scores were much lower. So that is an 
indication that the Peace Corps is being able to communicate 
more effectively with their volunteers.
    Senator Coleman.  Ms. Threlkeld, you talked about a program 
manager. Where do they operate out of?
    Ms. Threlkeld.  The program managers are based in our 
office in Guatemala City, but they spend literally over 60 
percent of their time in the field. They are in the office on 
Mondays and Fridays to be able to attend meetings, to be able 
to do their follow-up and their planning. They are in the field 
as volunteers over 60 percent of the time.
    Senator Coleman.  Does every country have a program 
manager? Do you know if throughout the Peace Corps that is a 
standard? We have country directors, but every one has a 
program manager?
    Ms. Threlkeld.  Yes.
    Senator Coleman.  Did any of your folks ever express 
concerns that they wanted more visits or more interaction, they 
were feeling isolated out there?
    Ms. Threlkeld.  If a volunteer requests an additional 
visit, they will receive an additional visit. The minimum is 
two visits in the first year by their program manager, one in 
the second year, but that is the minimum. If they are 
expressing a concern either about their counterpart agency, 
about their personal adjustment, either the program manager 
will go personally, a program assistant, the safety and 
security officer. I make visits. They will receive attention if 
they are asking for assistance.
    Senator Coleman.  Senator Dodd raised the issue of 
individual postings versus clustering folks together. 
Particularly I raised the issue with the reports of assaults on 
single females. I would be interested to know the opinion of 
the volunteers, particularly in rural areas or isolated areas, 
whether it is good to have more than one person in an area.
    What is their reaction to the idea of grouping or 
clustering volunteers for safety reasons? Mr. Quigley?
    Mr. Quigley.  Mr. Chairman, as I mentioned briefly, in our 
survey 90 percent of the respondents strongly opposed the 
notion of mandatory pairings or tandem posting of volunteers. 
We did not really ask the question in terms of would they 
differentiate by gender and by site, whether or not it is 
rural, remote rural, or urban.
    There is a sense, though, that protection for volunteers is 
related to integration in the community, and that is even more 
true in the most isolated settings, and a related sense that 
pairing of volunteers has a consequence of less integration 
into the community. So I think you would have to look at what 
the specific circumstances are by country, and our membership 
has a strong sentiment that those decisions are best made on a 
country basis because there is so much variation by sector, by 
parts of the country, by regions of the world.
    Senator Coleman.  Ms. Threlkeld?
    Ms. Threlkeld.  I would concur with that analysis. Actually 
having another volunteer assigned at your site may be great for 
moral support. I do not know that it really increases the 
safety and security. But if a female volunteer expresses a 
desire to have someone assigned with them, that is taken into 
consideration in their site assignment.
    Senator Coleman.  Ms. Maloy.
    Ms. Maloy.  Although I had other people at my site, I 
rarely saw them. I think if I had been housed with them, I 
would have seen them too much and not integrated into the town. 
I really feel that getting out on your own is such a benefit to 
the country you are in and to you in order to learn what is 
going on and help people.
    Senator Coleman.  The testimony is really helpful. I think 
there is a tendency to think that there is greater security in 
numbers. Clearly the message here is that the best security is 
integration into the community, that the community provides 
security if you are truly part of it, and that is the most 
effective security that is available. Is that a fair statement?
    Ms. Maloy.  I agree.
    Senator Coleman.  Ms. Threlkeld?
    Ms. Threlkeld.  Yes.
    Senator Coleman.  Mr. Quigley?
    Mr. Quigley.  Yes.
    Senator Coleman.  Senator Voinovich.
    Senator Voinovich.  All of you were here to hear Mr. 
Vasquez's testimony. Did any of you have any differences of 
opinion? As you listened to the testimony, was there something 
that stuck out in your mind and said, gee, I would like to 
comment on that?
    [No response.]
    Senator Coleman.  I take for the record the answer was no. 
Thank you.
    Senator Voinovich.  That report back in 2002, uneven staff 
supervision and oversight, staff turnover, unclear guidance in 
efforts to assure quality of services. You highlighted that 
testimony before the House International Relations Committee in 
March. Is that correct?
    Mr. Ford.  That is correct.
    Senator Voinovich.  Would you say that that statement is 
true today?
    Mr. Ford.  As I mentioned earlier, we have not been back 
out to the field to find out whether or not the new procedures 
have been fully complied with. We have done an assessment of 
the Peace Corps Inspector General reports for 2002 and 2003. We 
find that the Inspector General for the Peace Corps is, in 
fact, finding some problems in the field, similar in nature to 
the ones that we found in 2002. However, I do not know what the 
order of magnitude of those problems are, but we do know that 
issues like good assignments, adequate housing, ability to 
maintain good records on volunteers, those issues in fact have 
come up in the IG reports.
    Senator Voinovich.  One of the things that I asked Mr. 
Vasquez was the issue of the personnel file. Are those pretty 
reflective of things or are they kind of fuzzy?
    Mr. Ford.  I am sorry.
    Senator Voinovich.  The point is, a personnel file on an 
individual is a kind of a history of that individual--have you 
ever seen one of those reports?
    Mr. Ford.  No, I have not.
    Senator Voinovich.  So you do not know what is contained in 
those reports.
    Mr. Ford.  Not personnel files, no.
    Senator Voinovich.  In other words, the number of instances 
where they may have complained or have had a problem.
    Mr. Ford.  I am not aware of any system that the Peace 
Corps has that tracks individual complaints, routine complaints 
or whatever, other than official complaints based on an 
incident that may have occurred.
    Senator Voinovich.  So that when you do another study, you 
are going to go out and just interview people.
    Mr. Ford.  We will also look at the procedures that the 
Peace Corps has in place to determine whether or not those 
procedures are being complied with. When we did our work in 
2002, that is exactly what we did. We went out and looked at 
the procedures that the Peace Corps had in place and tried to 
determine whether or not they were being followed in the field. 
We found that the performance was mixed.
    Senator Voinovich.  Ms. Maloy, I thank you for being here. 
It seems to me you had a benchmark experience.
    Ms. Maloy.  No. It was very typical.
    Senator Voinovich.  If I heard you testify and did not hear 
anything else, I would say, boy, things are really in great 
shape today.
    Ms. Maloy.  Well, I feel that way. But there are little 
difficulties and the country director is the one that makes 
everything work. Fortunately, we had a wonderful country 
director who was very available and made sure that he followed 
up on everything that happened in the country.
    Senator Voinovich.  I think what Mr. Vasquez said, I 
thought that was pretty good, that he interviewed each director 
and then held them responsible. That is a kind of a direct 
reporting and says it is your baby and I expect you to take 
care of it, which from a management point of view, sounds to be 
a good way of getting the job done.
    Ms. Threlkeld, the way you have laid things out, that looks 
pretty good there too.
    I guess probably the next time you look at it, it would be 
interesting to see how it varies. Is it responsive to maybe 
more difficult parts of the world where things are falling 
down?
    You were where in Romania?
    Ms. Maloy.  I was on the Black Sea at the mouth of the 
Danube, right on the border with the Ukraine and Moldova. I was 
as east as you could get.
    Senator Voinovich.  Was it an outlying area?
    Ms. Maloy.  It was a city of 400,000 with a huge steel 
mill, gross unemployment. It was not a seaside resort, for 
sure.
    Senator Coleman.  It sounds like Cleveland in the 1970s 
actually.
    [Laughter.]
    Senator Voinovich.  St. Paul before you became mayor.
    [Laughter.]
    Senator Voinovich.  Thank you.
    Senator Coleman.  Senator Dodd.
    Senator Dodd.  Well, briefly. I apologize having stepped 
out of the room, but I thank all of you. It is particularly 
good to see Mr. Quigley, Ms. Maloy, former volunteers, and 
return Peace Corps volunteers. Thank you very much for your 
comments and your suggestions today.
    Mr. Ford, just very briefly, it has been suggested by 
Senator DeWine and Senator Durbin that we make the Inspector 
General position a presidential appointment, Senate-confirmable 
position. Do you agree with that?
    Mr. Ford.  GAO's general view on creating independent 
Inspector Generals is that we favor that. We have not 
specifically made any recommendations with regard to the Peace 
Corps Inspector General, but we do believe that the IG should 
be independent and should be able to report independently on 
the information that they obtain in the course of doing their 
work.
    Senator Dodd.  Did you discover, just in your assessment, 
that the Peace Corps was sort of aware of a lot of the issues 
that you were discovering?
    Mr. Ford.  I think that generally the Peace Corps was aware 
of many of the problems that we identified, yes.
    Senator Dodd.  And have you had a chance to follow up since 
that report to do any checking?
    Mr. Ford.  As I mentioned earlier, the Peace Corps--and you 
heard from the Director this morning--has implemented a number 
of changes since we issued our report. Many of them are 
consistent with some of the problems that we identified in our 
report, so we feel that the Peace Corps is definitely taking 
action, and in our view it is in the correct direction in terms 
of safety and security.
    Senator Dodd.  Ms. Maloy, let me just ask you. When I 
raised the issue of women in rural areas and more remote areas 
of pairing--not necessarily with another woman. It could be a 
male volunteer. But I was not suggesting it for all volunteers. 
I just thought in certain circumstances, particularly when I 
look at those numbers where the assaults were occurring. What 
is your assessment of that suggestion? Either one of you. I do 
not care.
    Ms. Threlkeld.  Female volunteers, if they feel 
uncomfortable being assigned to a site alone, have the option 
to express that to their program manager as their site 
selection is being made.
    Basically we do not believe that having another volunteer 
in their site in Guatemala necessarily increases their safety 
and security.
    Senator Dodd.  In rural areas, that is the conclusion?
    Ms. Threlkeld.  You were talking earlier about what if you 
needed to call for help. This is a very low tech way to 
describe it, but you have to be within shouting distance of 
neighbors in order to have your house be approved by Peace 
Corps. So even if you are in a rural area, you need to be close 
to other people in a community, somebody that can respond if 
you are in trouble.
    Senator Dodd.  Ms. Maloy?
    Ms. Maloy.  I think the problem is greater in the larger 
cities where there are more people and there is a lot more 
crime. The rural areas, at least in Romania, were quite safe. 
In the larger cities, you had a lot more crime but more non-
violent crime. To have the Peace Corps and your counterpart 
available 24 hours a day was sufficient for safety of the 
volunteers. That was better because then volunteers did not 
cluster together and ignore the people in the country.
    Senator Dodd.  Listen, I was telling the Chairman earlier 
when the first panel was leaving, having served alone as a 
Peace Corps volunteer, I much preferred that service in many 
ways, and I think it was better in some ways. The tendency to 
sort of cluster together, particularly during the early months 
of that service, in terms of language ability and acculturation 
and so forth, makes it much more difficult because the 
gravitation to someone you can talk with is strong. And 
invariably someone gets along better or someone is more 
personable or whatever and you get competitions that can occur 
within the community that can be difficult.
    That is why I was curious to ask the Director whether or 
not there is any pattern that showed up, along with these other 
statistics, that might warrant giving more consideration to 
that as an option for people under certain circumstances.
    I must say I got kick out of the GAO report because you 
talked about I guess it was the Dayton article. The article was 
talking about people not being well prepared and backgrounds. I 
was an English literature major and they trained me to work 
with pigs.
    [Laughter.]
    Senator Dodd.  As I say, it is a presumptuous notion to 
take a 22-year-old, as many of us were--and obviously those 
numbers change. But that is not the concern I would have, the 
fact that people are not specifically trained to grapple 
throughout their life experiences, particularly at that age, is 
not any great burden in my view. I found it rather naive for 
them to make a suggestion. When you go back and look at the 
backgrounds of people and what they ended up doing in the Peace 
Corps, what they end up doing could be substantially different. 
So I just found that sort of amusing as one of the critiques of 
the volunteers' work.
    Well, I think we would all appreciate here--and the clock 
is running out--any continuing ideas. I would be interested 
specifically in any additional suggestions you might make to 
the legislation being suggested by Senators DeWine and Durbin. 
You have given us, Mr. Quigley, I think some very valuable 
information in terms of how former volunteers look at these 
issues. I think it is very, very interesting, some of the 
survey numbers here. But I would be very interested in any 
other suggestions that volunteers might bring to a piece of 
legislation. We rarely get an opportunity to look at this. The 
5-year rule, again I would be very interested. I do not know if 
that came up while I was out of the room or not in terms of how 
you feel about that. It would be very interesting as well to 
hear your comments.
    I apologize we do not have more time, but I thank you all 
very, very much.
    Senator Coleman.  Thank you, Senator Dodd. Thank you, 
Senator Voinovich. Again, to the witnesses, I want to thank you 
for your service to America and for appearing before this 
committee this morning.
    Without objection, the record of today's hearing will 
remain open for 10 days to receive additional questions for the 
record.
    This hearing of the Senate Foreign Relations Committee is 
now adjourned.

    [Whereupon, at 11:32 a.m., the committee was adjourned.]

                                    

      

</pre></body></html>
